<html>
<title> - EXAMINATION OF THE POTENTIAL HUMAN HEALTH, WATER QUALITY AND OTHER IMPACTS OF THE CONFINED ANIMAL FEEDING OPERATION INDUSTRY</title>
<body><pre>[Senate Hearing 110-1180]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 110-1180

  EXAMINATION OF THE POTENTIAL HUMAN HEALTH, WATER QUALITY AND OTHER 
       IMPACTS OF THE CONFINED ANIMAL FEEDING OPERATION INDUSTRY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 6, 2007

                               __________


  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-568 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming<SUP>1</SUP>
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

<SUP>1</SUP>Note: During the 110th Congress, Senator Craig 
    Thomas, of Wyoming, passed away on June 4, 2007. Senator John 
    Barrasso, of Wyoming, joined the committee on July 10, 2007.
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                           September 6, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    15
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    86

                               WITNESSES

Hirsch, Robert, Associate Director for Water, U.S. Geological 
  Survey.........................................................     3
    Prepared statement...........................................     5
Grumbles, Benjamin H., Assistant Administrator for Water, U.S. 
  Environmental Protection Agency................................     9
    Prepared statement...........................................    10
Edmondson, Drew, Attorney General, Oklahoma Office of Attorney 
  General........................................................    17
    Prepared statement...........................................    19
Sims, Olin, President, National Association of Conservation 
  Districts......................................................    49
    Prepared statement...........................................    51
Bonacquisti, Thomas P., Water Quality Program Manager, Loudoun 
  County Sanitation Authority, VA, and Association of 
  Metropolitan Water Agencies....................................    57
    Prepared statement...........................................    59
Blackham, Leonard, Commissioner, Utah Department of Agriculture 
  and Food and National Association of State Departments of 
  Agriculture....................................................    62
    Prepared statement...........................................    64
Fitzsimmons, Catharine, Chief, Air Quality Bureau, Iowa 
  Department of Natural Resources and National Association of 
  Clean Air Agencies.............................................    70
    Prepared statement...........................................    71
Chinn, Chris, Farmer, American Farm Bureau Federation............    90
    Prepared statement...........................................    91
Nemec, Nick, Farmer, Western Organization of Resource Councils 
  And Dakota Rural Action........................................    96
    Prepared statement...........................................    98
Dicks, Michael, Oklahoma State University........................   101
    Prepared statement...........................................   103
Dove, Rick, Community Representative.............................   115
    Prepared statement...........................................   117

                          ADDITIONAL MATERIAL

Articles:
    The Plain Dealer; Looking out for farmer Goliath.............   146
    The Idaho Stateman; Pollution exemption for dairies stinks...   147
    The Register-Guard; Unlovely lagoons.........................   148
    The Salt Lake City Tribune; Politics stinks, Manure factories 
      don't rate protection......................................   149
    Kansas City Star; Neighbors say nearby dairy farm 
      contaminates their wells with manure.......................   150
Brief of Amicus Curiae Texas Departments of Agriculture In 
  Support of Defendent's Motions Regarding Dimissal of CERCLA 
  Claims.........................................................   153
Brochure; Caliornia Dairy Quality Assurance Program..............   174
Letters:
    The United States Conference of Mayors.......................   176
    State of New York, Office of Attorney General................   179
    National League of Cities....................................   180
    National Association of Counties.............................   181
    City of Tulsa Oklahoma, Office of Mayor Kathy Taylor.........   182
    City of Waco, City Manager's Office..........................   183
    Hidden View Dairy............................................   186
    State of Iowa, Department of Natural Resources...............   188
    State Attorney's General; A Communication from the Chief 
      Legal Officers of the Following States: California, 
      Connecticut, Kentucky, New Jersey, New Mexico, Oklahoma, 
      Wisconsin..................................................   189

                              Statements:

    Steve Kouplen, President of the Oklahoma Farm Bureau and 
      Director on the American Farm Bureau Federation Board......   193
    NACAA, National Association of Clean Air Agencies............   200
    NACCHO, National Association of County & City Health 
      Officials..................................................   203
    Arlen L. Lancaster, Chief Natural Resources Conservation 
      Service U.S. Department of Agriculture.....................   204
    John D. Dingell & James L. Oberstar, Ranking members of the 
      Committees with Jurisdiction Over Superfund and the Clean 
      Water Act..................................................   213
    New York State Department of Agriculture & Markets...........   214
    American Public Health Association...........................   225
    Association of Metropolitan Water Agencies...................   226
    DeMoines Water Works, Source Water Contamination from Animal 
      Waste......................................................   228
    Farmers for Clean Air & Water, Inc...........................   229

 
  EXAMINATION OF THE POTENTIAL HUMAN HEALTH, WATER QUALITY AND OTHER 
       IMPACTS OF THE CONFINED ANIMAL FEEDING OPERATION INDUSTRY

                              ----------                              


                      Thursday, September 6, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Senate Dirksen Building, Hon. Barbara Boxer (chairman 
of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, Bond 
and Barrasso.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. We are here today to hold a hearing, which I 
call to order, on a critically important public health issue, 
concentrated animal feeding operations, or CAFOs. CAFOs are 
industrialized animal production facilities including some that 
can hold more than one million animals. I want to ensure that 
there is a clear picture of the significant environmental and 
health issues that stem from these facilities.
    There is currently a proposal that would exempt CAFOs from 
important environmental and public health safeguards, in 
particular from the public reporting or right to know 
provisions of the Superfund Law. The proposal also would 
eliminate provisions that ensure polluters pay to clean up 
their mess.
    People deserve to have a clear understanding of the 
environmental threats in their communities, so they can make 
informed decisions to protect themselves and their families.
    These environmental protection laws also ensure that where 
there has been damage caused by these facilities and there have 
been numerous instances of air and water pollution, 
contamination of wells and other water supplies, the parties 
responsible can be held accountable and pay to clean up the 
mess they made. Proposals to weaken accountability for CAFOs 
pollution undermine public health and the public's right to 
know about pollution, and I believe it would be bad news for 
the American taxpayer.
    Proposals to roll back environmental protections on CAFOs 
have sometimes been portrayed as a non-controversial issue, but 
in fact there have been serious consequences, including deaths, 
connected with CAFOs across the Country. Just this year, five 
people--four members of a family and a farmhand--died in 
Rockingham County, VA, when the father was overcome by hydrogen 
sulfide gas from their dairy farm manure pit that he was trying 
to repair. Others died from breathing the gas while trying to 
save him.
    The waste can increase phosphorus levels in water, causing 
algal blooms that can foul drinking water supplies, increase 
treatment costs and cause massive fish kills. CAFOs can create 
significant air pollution including foul odors, ammonia, 
volatile organic compounds and hydrogen sulfide. CAFOs' air 
pollution can exceed the amounts emitted by industrial 
facilities.
    Let me repeat that: CAFOs' air pollution can exceed the 
amounts emitted by industrial facilities.
    When the proponents of these proposals come to me, they all 
say, well, you know, farms are different than industry.
    Well, in a lot of ways they are, but in this way, in some 
cases, it could be worse in terms of the pollution.
    I believe this hearing will contribute to the public's 
clear understanding of the threats to environmental and health 
associated with these facilities. Well managed agricultural 
operations can avoid serious environmental and public health 
consequences. Rollbacks on environmental reporting and polluter 
pays requirements will greatly increase the risks that these 
facilities can pose to local communities.
    That concludes my statement.
    [The prepared statement of Senator Boxer follows:]

            Statement of Hon. Barabara Boxer, U.S. Senator 
                      from the State of California

    We are here today to hold a hearing on a critically 
important public health issue--Concentrated Animal Feeding 
Operations, or ``CAFOs''.
    CAFOs are industrialized animal production facilities, 
including some that can hold more than 1 million animals.
    I want to ensure that there is a clear picture of the 
significant environmental and health issues that stem from 
these facilities.
    There is currently a proposal that would exempt CAFOs from 
important environmental and public health safeguards--in 
particular from the public reporting or ``right to know'' 
provisions of the Superfund law. The proposal also would 
eliminate provisions that ensure polluters pay to clean up up 
their mess.
    People deserve to have a clear understanding of the 
environmental threats in their communities so they can make 
informed decisions to protect themselves and their families.
    These environmental protection laws also ensure that where 
there has been damage caused by these facilities--and there 
have been numerous instances of air and water pollution and 
contamination of wells and other water supplies--the parties 
responsible can be held accountable and pay to clean up their 
messes.
    Proposals to weaken accountability for CAFO pollution 
undermine public health and the public's right to know about 
pollution, and would be bad news for the American taxpayer.
    Proposals to roll back environmental protections on CAFOs 
have sometimes been portrayed as a non-controversial issue, but 
in fact there have been serious consequences--including 
deaths-- connected with CAFOs across the country.
    Just this year, five people--four members of a family and a 
farm hand--died in Rockingham County, Virginia when the father 
was overcome by hydrogen sulfide gas from their dairy farm 
manure pit that he was trying to repair, and others died from 
breathing the gas while trying to save him.
    The waste can increase phosphorus levels in water, causing 
algae blooms that can foul drinking water supplies, increase 
treatment costs, and cause massive fish kills.
    CAFOs can create significant air pollution, including foul 
odors, ammonia, volatile organic compounds and hydrogen 
sulfide. CAFOs' air pollution can exceed the amounts emitted by 
industrial facilities.
    I believe this hearing will contribute to the public's 
clear understanding of the threats to environmental and health 
associated with these facilities.
    Well managed agricultural operations can avoid serious 
environmental and public health consequences. Rollbacks on 
environmental reporting and ``polluter-pays'' requirements will 
greatly increase the risk that these facilities can pose to 
local communities.

    Senator Boxer. I want to put in the record, and I ask 
unanimous consent to do it, the list of State and local 
officials, public health, farm and environmental groups who 
oppose weakening health protections and the polluter pays 
principle. I may make reference to this later.
    [The referenced material follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Boxer. We are very pleased to have with us a couple 
of great panels. It is not that we want to rush you. It is that 
we want to get to all of you. So I am going to be tough on the 
5-minute rule. I am going to say as soon as we have 30 seconds 
to go, I am going to say finish up, and we are going to move 
on.
    When Senator Inhofe, I will turn to him for his opening 
statement.
    We will start off with panel one, and we are going to go 
this way across. We will start Robert Hirsch, Associate 
Director for Water, U.S. Geological Survey.
    Welcome, sir, and you are on.

STATEMENT OF ROBERT HIRSCH, ASSOCIATE DIRECTOR FOR WATER, U.S. 
                       GEOLOGICAL SURVEY

    Mr. Hirsch. Thank you.
    Madam Chairman and Committee members, I appreciate the 
opportunity to appear before the Committee on Environment and 
Public Works to testify on U.S. Geological Survey studies of 
water quality issues related to CAFOs.
    I am Dr. Robert M. Hirsch, Associate Director for Water, 
the U.S. Geological Survey.
    My written statement contains a number of specific findings 
from USGS studies and contains a reference list of USGS 
publications from which the testimony was developed. My oral 
remarks will briefly summarize that material, and I request 
that my full statement be entered into the record.
    Senator Boxer. Without objection.
    Mr. Hirsch. The mission of the USGS is to assess the 
quantity and quality of the Earth's natural resources and to 
provide scientific information to help resource managers and 
policymakers at the Federal, State and local levels to make 
sound decisions. Assessment of water quality conditions and 
research on the fate and transport of pollutants and water are 
important parts of the USGS mission.
    We work closely with EPA, USDA, the Fish and Wildlife 
Service and public health agencies like the Centers for Disease 
Control and Prevention to ensure that the results of our 
research and monitoring are useful and widely available.
    The quality of our Nation's water is affected by many 
things including geologic factors such as naturally occurring 
metals and atmospheric deposition of various substances. In 
addition, activities on the landscape such as urban and 
suburban development, agriculture, mining and energy production 
all affect water quality.
    CAFOs are a relatively new and rapidly changing factor 
which the USGS is studying as part of its mission to understand 
the Nation's water quality and what influences it. USGS studies 
over the past 10 years have shown that CAFO impacts can include 
a wide variety of contaminants in many different environmental 
settings.
    The USGS and other organizations have investigated impacts 
from CAFOs that include the following: nutrients that cause 
hypoxia or harmful algal blooms or could contaminate drinking 
water sources, trace elements such as arsenic and copper that 
can affect fish and aquatic plants, pathogens such as bacteria, 
viruses and parasites, antibiotics that could foster the 
development of antibiotic-resistant pathogens and hormones that 
could influence fish reproductive capability.
    USGS research has focused on five major areas of 
investigation that are designed to track contaminants from 
their sources through the environment and to animal and human 
receptors. These research topics are development of methods for 
identifying and quantifying veterinary medicines, naturally 
occurring hormones, pathogens, surfactants and other compounds 
which are not typically monitored in the environment but which 
are likely to be associated with a variety of sources including 
non-concentrated animal production, CAFOs and sewage treatment 
plants.
    The second area of study is quantifying relative 
contributions and types of environmental contaminants 
originating in CAFO waste.
    Third, documenting and understanding the direct and 
indirect pathways of these contaminants in the environment.
    Fourth, developing source fingerprinting or source tracking 
techniques that use genetic, chemical and microbial approaches 
to identify sources of environmental contaminants. These 
fingerprinting techniques may have the potential to enable 
water quality scientists to discriminate between contaminants 
coming from CAFOs and those coming from sewage treatment plants 
or other sources.
    And, finally, investigating potential individual and 
community level ecological health issues that have been 
hypothesized to arise from CAFO contamination. These issues 
include eutrophication and oxygen depletion, diseases from 
pathogens, antibiotic resistance and endocrine disruption.
    Through our research and monitoring, the USGS has found 
CAFOs to be a source of nutrients such as nitrogen and 
phosphorus and ammonia, pharmaceuticals including both 
synthetic and naturally occurring compounds and metals like 
arsenic and copper in nearby waters and lands receiving wastes.
    Ongoing research at the USGS is focused on comparisons of 
the importance of CAFOs sources to other common sources. 
Accurate identification of sources and movement of waste 
contaminants requires more research on degradation and 
metabolic products from the many compounds used in animal 
agriculture.
    The USGS will continue to work closely with EPA, the USDA, 
the Fish and Wildlife Service and public health agencies as we 
move forward on these issues.
    I appreciate the opportunity to testify on the results of 
USGS' assessments and research on CAFOs, and I am happy to 
respond to questions from the Committee.
    [The prepared statement of Mr. Hirsch follows:]

       Statement of Robert Hirsch, Associate Director for Water, 
                         U.S. Geological Survey

    Madam Chairman and Committee members, I appreciate the 
opportunity to appear before the Committee on Environment and 
Public Works to testify on the findings of U.S. Geological 
Survey (USGS) studies of water-quality issues related to 
Concentrated Animal Feeding Operations, commonly referred to as 
CAFOs.
    As you may know, the mission of the USGS is to assess the 
quantity and the quality of the earth's resources and to 
provide information to assist resource managers and 
policymakers at the Federal, State, and local levels in making 
sound decisions. Assessment of water-quality conditions and 
research on the fate and transport of pollutants in water are 
important parts of the overall USGS mission.
    USGS studies over the past 10 years have shown that CAFO 
impacts can include a wide variety of contaminants in many 
different environmental settings. The USGS and other 
organizations have investigated impacts from CAFOs that include 
the following: nutrients and their proximity to receiving 
waters that could cause hypoxia, harmful algal blooms, or 
contaminate drinking water sources; trace elements such as 
arsenic and copper that can contaminate surface waters and 
affect fish and aquatic plants; pathogens such as bacteria, 
viruses, and parasites; antibiotics that could foster the 
development of antibiotic-resistant pathogens; pesticides and 
hormones that can influence changes in fish reproductive 
capability; and solids from feed and feathers that could limit 
growth of desirable aquatic plants.
    USGS research has centered on five major areas of 
investigation which are designed to track contaminants from 
their sources, through the environment, and to animal and human 
receptors:

    1. analytical method development
    2. occurrence and relative source contributions of specific 
chemical and microbial contaminants and their mixtures
    3. pathways into and through the environment
    4. source fingerprinting, and
    5. ecological effects. These areas of research are designed 
to provide scientific insights into potential public and 
ecological health impacts as well as provide management and 
policy decisionmakers with CAFO related information.

                     analytical method development


    The first step in assessing potential environmental 
contamination from CAFOs is to anticipate and identify 
chemicals and microbes that are likely to be associated with 
CAFO wastes and effluents. USGS scientists continually develop 
new methods for identifying and quantifying veterinary 
medicines, naturally occurring hormones, pathogens, 
surfactants, and other compounds which are not typically 
monitored in environmental settings but which are likely to be 
associated with a variety of sources including, non-confined 
animal production, CAFOs, and sewage treatment plants. Indeed 
much of our research related to CAFO impacts on the environment 
thus far has focused on analytical method development for a 
range of these potential contaminants in various environmental 
matrices including water, sediment, and animal tissue.


              occurrence and relative source contributions


    Because environmental contaminants have many sources, the 
USGS is quantifying relative contributions and types of 
environmental contaminants originating in CAFO wastes. The 
intent is to understand environmental contaminants that are 
specific to CAFO operations.
    CAFOs can be sources of nutrient introduction to the 
environment. Around the Nation, the USGS finds that relative to 
other sources (atmospheric sources, synthetic fertilizers, or 
point source nitrogen), manures were shown to be the single 
largest source of nitrogen for some rivers, such as the 
Susquehanna (PA), Altamaha (GA), Apalachicola (FL), White (AR), 
San Joaquin (CA), and the Fox (WI). Manures are the second 
largest source of nitrogen for the Potomac (VA, MD), Trinity 
(TX), Rio Grande (NM), Snake (ID), Platte (NE), and Willamette 
(OR). In the Neuse River Basin of North Carolina, we have found 
that nitrogen concentrations in groundwaters near or under 
areas treated with liquid swine waste tend to be higher than 
areas treated with synthetic fertilizers. After 4 years of 
application, nitrogen concentrations from swine waste increased 
by 3.5 times in shallow groundwater compared to concentrations 
prior to application, and median nitrate concentrations were 
about double from swine spray applications compared to 
commercial fertilizer. In Oklahoma, shallow monitoring wells 
were tested around CAFO hog operations from the central part of 
the State to the northwest, and these monitoring wells 
indicated considerably higher nitrate concentrations than for 
monitoring wells away from CAFO installations. For 79 wells 
sampled in 2001, median nitrate concentrations in wells 
affected by animal operations were near 30 mg/L versus about 15 
mg/L for wells mostly affected by fertilizer applications. 
These studies indicate a substantial influence from CAFO 
operations on nitrogen concentration in the underlying aquifer, 
and although the wells tested were not used for drinking water, 
the U.S. Environmental Protection Agency drinking water nitrate 
standard of 10 mg/L was exceeded.
    A study conducted in the Stillwater Basin in Ohio examined 
runoff from agricultural fields for a variety of contaminants. 
The study showed that veterinary antibiotics, particularly 
lincomycin (detected in 23 percent of samples), were present 
more frequently in streams draining watersheds with the highest 
animal density. Antibiotics introduced to the environment from 
the many CAFO type operations are of interest because of their 
potential for causing antibiotic-resistant bacteria to 
proliferate. In a reconnaissance water sampling of fish 
hatcheries in 7 States from 2001 to 2003, the USGS found 
aquaculture-approved antibiotics at low concentrations in about 
15--30 percent of samples from hatchery water.
    The USGS conducted a study near a National Wildlife Refuge 
in Nebraska to determine the impacts of swine operations on 
fecal bacteria occurrence. For the area near hog operations in 
Nebraska, we found that the CAFO was a potential source of 
zoonotic bacterial pathogens like salmonella. Wetlands created 
from swine waste-water effluent had 5-50 fold greater 
concentrations of phosphorus, ammonia, and total nitrogen, and 
2-3 fold greater salinity compared to control sites. 
Cyanobacteria were abundant in the created wetlands and 
microcystin toxins were also detected in three of six wetlands 
sampled water samples.
    CAFO operations may also be sources of metals like copper 
and arsenic. Often these metals are used as feed amendments to 
enhance animal growth. Organic arsenic feed additives are used 
in poultry production for increasing weight gain, improving 
feed efficiency and pigmentation, and controlling bacterial and 
parasitic disease. The USGS has done reconnaissance for arsenic 
on the Delmarva Peninsula in areas dominated by poultry 
production. From our examination of storm water, soil water and 
shallow groundwater, it is evident that some arsenic from 
poultry operations is released to the environment because 
concentrations in fresh poultry litter were about 10 times the 
concentrations found in soil of the area. Concentrations in 
most samples in the Delmarva were generally below the drinking 
water standard of 10L (parts per billion).
    USGS water-quality research continues to show that 
contaminants in water resources seldom occur alone and more 
commonly occur in mixtures with other contaminants, including 
combinations of naturally occurring or man-made inorganic, 
organic, or microbial contaminant groups. These mixtures 
sometimes originate from similar sources but often come from 
varied sources contributing contaminants to our watersheds and 
aquifers


               pathways into and through the environment


    CAFO wastes can enter the environment directly though 
leaching under lagoons, ditching, or other direct hydraulic 
connections or they can enter indirectly when solid and liquid 
wastes are removed from CAFOs and applied to land elsewhere as 
nutrient and soil amendments. Once in the environment, various 
properties of chemical and microbial contaminants as well as 
interactions with ambient conditions will determine their 
movement and behavior. For example, some contaminants have a 
natural affinity to attach to soils or organic material and 
therefore tend to be sequestered close to the sources of 
contamination while others readily dissolve in water and may 
move long distances from the introduction location. The type of 
soil, amount of organic material, and indigenous bacterial 
populations it contains may facilitate or retard the movement 
of various contaminants.
    In one study around hog operations in Iowa where 
tetracycline was used, we did not find the antibiotic in the 
groundwater or even the lagoon berm, probably because 
tetracycline is known to sorb to solids and the area soil is 
rich in organic matter. In contrast near a hog operation in 
North Carolina where both tetracycline and sulfamethazine are 
used, tetracycline was not found in monitoring wells near the 
lagoons, but the sulfamethazine was found. Sulfamethazine is 
known to be much more mobile in water than tetracycline.
    Poultry litter is applied to croplands in the North 
Carolina coastal plain as a nutrient source, as it is in many 
areas across the Nation, and the application increased shallow 
ground-water concentrations of nitrogen more than synthetic 
fertilizer applications in the vicinity. This is an important 
finding because synthetic sources of nitrogen are typically 
applied in readily available forms to plants as opposed to 
manures, which require additional natural processing after 
application and likely remain in the soils for longer periods 
of time. Therefore the time between animal fertilizer 
application and when their nutrients become available to plants 
dictates the volume needed as well as timing of application, 
and understanding these factors will be crucial to finding 
effective management solutions. In contrast to the North 
Carolina study, however, USGS research in southwestern 
Missouri, where poultry operations are also concentrated, did 
not find that nitrogen concentrations increased in shallow 
groundwater after several years of poultry litter application 
was used as a soil amendment. These differences likely 
represent soil and geohydrologic property differences between 
the two areas studied and the time period over which the 
studies were conducted. The results suggest that it is 
difficult to make broad generalized statements about CAFO 
impacts to the environment from these studies of limited 
geographic and temporal scope.
    Movement of contaminants in CAFO waste also depends on farm 
operations and local environmental conditions, and may reflect 
the hydrologic or precipitation conditions at time of sampling. 
In addition, hormones and other chemicals are excreted in a 
changed or transformed form after being metabolized by animals 
and therefore have different toxicological, chemical, and 
physiological characteristics than before they are metabolized. 
Waters draining land where animals have been raised on pasture 
and not subject to CAFO finishing will likely have unique 
chemical signatures. These differences in water chemistries 
must be understood in context with the individual species of 
animals raised in CAFOs as compared with their pastured 
counterparts in order to understand contaminant issues unique 
to CAFO management procedures. All these factors along with the 
many sources of waste products from human and animal activity 
contribute to wide variation in environmental conditions at or 
near CAFO operations.


                         source fingerprinting


    In addition to development of laboratory analytical methods 
for specific contaminants, the USGS is focusing on development 
of ``source-fingerprinting'' or ``source-tracking'' techniques 
to identify various waste, and other, sources of environmental 
contaminants. These efforts include genetic as well as chemical 
and microbial approaches but all share the common objective of 
identifying one or a few chemicals/microbes which, when 
detected in environmental waters, can be unambiguously traced 
back to a unique contaminant source.
    As mentioned before, there are many varied sources of 
nitrogen to the environment and therefore we believe it is 
important to determine the different sources of nitrogen in 
surface and groundwaters. The USGS is developing tools to 
identify sources of nitrogen from CAFOs using nitrogen isotopes 
and elements such as calcium, magnesium, sodium and potassium. 
In test wells located in fields sprayed with swine waste, 
concentrations increased after spraying by 2 to 4 times for 
many elements and an isotope of nitrogen (nitrogen-15), thereby 
indicating that the source of contamination was the swine 
waste.
    Because CAFO areas can be an important source of bacteria 
and other pathogens, and the antibiotics from these areas can 
lead to antibiotic resistant bacteria, the USGS has been 
developing microbial source tracking methods to determine 
pathogen contamination of environmental waters associated with 
livestock sources. The approach is to distinguish the origins 
of gut microbes based on source-specific characteristics such 
as individual species that are host specific, like bacteroides 
found only in humans and therefore indicative of human waste 
sources, or bacteria populations resistant to antibiotics 
commonly used by humans versus other animals, or looking for 
genetic markers that indicate specific host-microbe 
interactions. While advances in these methods have been made in 
recent years, microbes are most often found in complex mixtures 
of waters from many waste sources originating from animals 
exposed to various food and other sources of chemicals and 
microbes. These, and other complexities, produce ambiguous 
results even within organism specific identification 
procedures.
    In one study on biosolids applications in agricultural 
fields in Colorado, molybdenum and tungsten, and to a lesser 
degree antimony, cadmium, cobalt, copper, mercury, nickel, 
phosphorus, and selenium, were determined the most likely 
inorganic indicators of chemical migration from biosolid 
applications on land to groundwater or surface water. Other 
approaches have included indicators that occur infrequently in 
nature but are associated with specific uses and waste sources. 
While these fingerprinting techniques are not yet fully 
developed, they will soon be used alone or in conjunction with 
each other to enable the unambiguous distinction between 
contaminants coming from CAFOs and the many other potential 
sources of specific contaminants. This capability will be 
crucial for management and policy decisions unique to CAFO 
sources of environmental contamination.


                           ecological effects


    Because most USGS research thus far has focused on methods 
development and occurrence activities we are still in the 
beginnings of investigating potential ecological health effects 
of CAFOs. USGS research is focused on individual as well as 
community-level ecological health issues such as 
eutrophication/hypoxia of nearby waters, diseases from 
pathogens, antibiotic resistance, and endocrine disruption.
    Preliminary results have shown that fecal indicator 
bacteria counts in surface waters downstream of hog operations 
in Nebraska have exceeded Federal concentration standards for 
contact recreation, and the majority of bacterial isolates 
tested were resistant to at least one antibiotic, usually 
tetracycline. Initial results from the study in Nebraska near a 
National Wildlife Refuge indicate that impacts to created 
wetlands from nearby hog operations could pose a threat to 
waterfowl health due to pathogen exposure. In Oklahoma near 
cattle and hog operations, the findings were similar and 
although bacteria concentrations in Oklahoma were generally 
lower, they have exceeded Federal standards for contact 
recreation. In addition, resistance to antibiotics used in 
animal agriculture was common among fecal indicator organisms 
found in the Oklahoma study, especially gram positives, which 
includes many well-known genera such as Bacillus, Listeria, 
Staphylococcus, Streptococcus, Enterococcus, and Clostridium.
    Information from studies in the literature and preliminary 
studies by USGS have guided us to focus future CAFO research on 
the spread of antibiotic resistance and the effects of 
hormonally active chemicals.


                                summary


    The USGS has found CAFOs to be a source of nutrient, 
pharmaceutical, and metal contaminants in nearby waters and 
lands receiving wastes. Additional research is needed to 
determine the relative source contributions and environmental 
behavior of contaminants originating from a range of animal and 
land-use operations to make scientifically credible management 
and policy decisions specific to CAFOs. Identification of 
sources and movement of waste contaminants requires more 
research on degradation and metabolic products from the many 
compounds used in animal agriculture, especially 
pharmaceuticals in various feed mixtures, therapies, and 
environmental settings. Some potential ecological effects have 
been hypothesized and are currently under investigation, 
including the role of CAFOs in eutrophication of receiving 
waters, wildlife exposure to pathogens and endocrine 
disruptors, and development of antibiotic resistance.
    I appreciate the opportunity to testify on the results of 
USGS assessments and research on CAFOs. I am happy to respond 
to any questions from the Committee.

    Senator Boxer. Thank you so very much.
    Next, we will hear from Benjamin Grumbles, Assistant 
Administrator for Water, U.S. Environmental Protection Agency.
    Welcome, sir.

STATEMENT OF BENJAMIN H. GRUMBLES, ASSISTANT ADMINISTRATOR FOR 
          WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Grumbles. Thank you, Madam Chairman, and thank you, 
members of the Committee. I appreciate the honor to appear 
before the Committee to discuss this matter, which is a very 
important one, and represent EPA. It is an honor to be here.
    EPA is working to accelerate the pace of environmental 
protection while maintaining our Country's economic and 
agricultural competitiveness.
    I just want to say at the outset, Madam Chairman, that we 
recognize there are risks. There are substantial and 
significant risks from improper management of manure, from 
CAFOs in various respects, and the Agency is taking many 
actions with many partners on many fronts to advance the ball.
    The first thing I would like to do is to say that over the 
years, EPA and USDA have recognized, both in this 
Administration and the previous administration, the importance 
of advancing efforts on nutrient management at CAFOs throughout 
the Country. CAFOs, as Bob Hirsch indicated, are changing. 
There is definitely a trend toward larger and more concentrated 
and intensive production efforts.
    We also have concerns about the carrying capacity of 
certain watersheds, and so our approach, our strategy has been 
and will continue to be to use both the regulatory and 
statutory tools we have but most importantly to truly advance 
cooperative conservation and the voluntary programs and tools 
that are out there.
    One of the items that I think is a national model is the 
California Dairy Quality Assurance Program. This is something 
that EPA is pleased to be a supporter of. That example as well 
as examples in the Chesapeake Bay, throughout the Country, 
demonstrate that voluntary efforts, education, producer 
education about nutrient management and what requirements exist 
under Federal environmental laws will lead us toward greater 
progress.
    The next thing I would like to do is highlight some very 
important programs we have at EPA that we are stepping up the 
pace on. One is under the Clean Water Act, and that is the CAFO 
Rule. In February 2003, Madam Chairman, the Agency issued a 
final rule on CAFOs which made substantial improvements over 
the rule from the 1970's.
    It reduced the level of exemptions. It expanded the 
universe. It clarified that land application of manure was 
subject to Clean Water Act regulatory requirements. It took 
several important steps.
    We have been focusing for years on implementation of that 
rule, and we will continue to do so. It is important.
    In the meantime, a very important development occurred, and 
that was a Federal court decision, the Waterkeepers decision in 
the Second Circuit. By and large, a large majority of that rule 
that this Administration issued was upheld. However, there were 
some key issues where we had to go back to the drawing board.
    Madam Chairman, we are working on that as fast as we can, 
and we intend. The Administrator is looking to finalize that 
rule by the end of this year.
    The next thing I would like to mention are some of the 
other efforts we are doing on the voluntary basis. We are 
working very closely with our State partners and the 
Departments of Agriculture throughout the Country to advance 
the knowledge and information on nutrient management, 
particularly under the Clean Water Act programs and 
authorities.
    We have worked to help with a website for producer 
information and technology training. Our Agency has stepped up 
to the plate and held numerous training and workshop sessions, 
all about implementing that improved and revised February, 2003 
rule.
    The last thing I would focus on, Madam Chairman, is the 
importance of looking at other aspects and potential risks that 
may arise from concentrated animal feeding operations. One of 
those is through the air emissions as you mentioned.
    The Agency, in 2005, released an air compliance agreement, 
and the goal there, Madam Chairman, is to increase knowledge 
about air emissions, to be able to have a good scientific 
understanding of how to characterize those risks and to further 
improve efforts under the Clean Air Act and to ensure that the 
air is clean and safe.
    So we are very excited about that effort as well as working 
under other authorities that we have under other Federal 
programs, working in partnership with the agencies and with 
producers across the Country.
    Madam Chairman, I am happy to answer questions that you or 
your colleagues may have.
    Thank you.
    [The prepared statement of Mr. Grumbles follows:]

  Statement of Benjamin H. Grubles, Assistant Administrator for Water 
                  U.S. Environmental Protection Agency


                            i. introduction


    Madame Chairman and Members of the Committee, I am Benjamin 
H. Grumbles, Assistant Administrator for Water at the United 
States Environmental Protection Agency (EPA). Thank you for the 
opportunity to discuss EPA's programs and actions to protect 
water quality and public health from potential adverse effects 
of concentrated animal feeding operations (CAFOs). We are 
taking important actions, on many fronts with many partners, to 
accelerate the pace of environmental protection, while 
maintaining our country's economic and agricultural 
competitiveness.


 ii. human health, water quality and other effects of the concentrated 
                   animal feeding operation industry


    Nationally, there are an estimated 1.3 million farms with 
livestock. About 238,000 of these farms are considered animal 
feeding operations (AFOs) ? agriculture enterprises where 
animals are kept and raised in confinement. Feed is brought to 
the animals rather than the animals grazing or otherwise 
seeking feed in pastures. AFOs annually produce more than 500 
million tons of animal manure. If properly managed, these 
operations may minimize environmental impacts and provide 
valuable by-products; however, if improperly managed, the 
manure from these operations can pose substantial risks to the 
environment and public health.
    Animal Feeding Operations (AFOs) are operations where 
animals are kept and raised in confined situations for at least 
45 days/year and vegetation is not present in the confined area 
(to distinguish it from grazing operations). An operation must 
meet the definition of an AFO before it can be defined or 
designated as a concentrated animal feeding operation (CAFO). 
CAFOs are further defined as a large or medium CAFOs based 
primarily upon the number and type of animals confined at the 
operation. Additionally, an AFO that does not meet either of 
these definitions may be ``designated'' as a Small CAFO if it 
is determined to be a significant contributor of pollutants to 
waters of the US.
    An ongoing trend toward fewer but larger farm operations, 
together with greater emphasis on intensive production methods, 
increases environmental and public health risks by 
concentrating more manure nutrients and other animal waste 
impacts within smaller geographic areas. In addition, many 
large operations do not have sufficient land to effectively use 
the manure they generate as fertilizer. Animal waste and 
wastewater can enter waterbodies from spills or breaks of waste 
storage structures (due to accidents or excessive rain), and 
over-application of manure to crop land.
    Despite substantial improvements in the nation's water 
quality since the inception of the Clean Water Act, many of the 
Nation's assessed waters show impairments from a wide range of 
sources. Improper management of manure from CAFOs is among the 
many contributors to remaining water quality problems. EPA's 
2002 National Assessment Data base summarizes State water 
quality reports (Section 305(b) reports) and categorizes the 
quality of the state's assessed waters as good, threatened, or 
impaired. For the 2002 reporting cycle, States assessed 19 
percent of river and stream miles and 37 percent of lake, pond, 
and reservoir acres nationwide. Of the waters assessed by 
States, those States identified 45 percent of the assessed 
miles of rivers and streams as impaired; agriculture, 
hydromodification\1\, and habitat alterations are the leading 
identified sources, in that order. States identified 47 percent 
of assessed acres of lakes, ponds, and reservoirs as impaired 
and identified agriculture, atmospheric deposition, land 
application/waste sites, and hydromodification as the leading 
sources.
---------------------------------------------------------------------------
    \1\Alteration of the hydrologic characteristics of a water body, 
such as channelization or water diversions
---------------------------------------------------------------------------
    Improperly managed manure has caused acute and chronic 
water quality problems and is a significant component of 
waterbody impairments. Manure and wastewater from CAFOs can 
contribute pollutants such as excessive amounts of nitrogen and 
phosphorus, organic matter, sediments, pathogens, heavy metals, 
hormones, and antibiotics to the environment. Excess nutrients 
(i.e., nitrogen and phosphorus) in water can result in or 
contribute to low levels of dissolved oxygen (anoxia), 
eutrophication, and toxic algal blooms.
    These conditions may be harmful to human health and have 
been associated with algal blooms. Decomposing organic matter 
(i.e., animal waste) can reduce oxygen levels and cause fish 
kills. Pathogens discharged into waterways have also been 
linked to threats to human health. Pathogens in manure can also 
create a food safety concern if manure is applied directly to 
crops at inappropriate times. In addition, pathogens are 
responsible for some shellfish bed closures. Nitrogen in the 
form of nitrate can contaminate drinking water supplies drawn 
from groundwater.


          iii. efforts to reduce the impacts of afos and cafos


    Congress passed the Clean Water Act to ``restore and 
maintain the chemical, physical, and biological integrity of 
the nation's waters.'' (33 U.S.C. 1251(a)). Among its core 
provisions, the Act prohibits the discharge of pollutants from 
a point source to waters of the United States except as 
authorized by a National Pollutant Discharge Elimination System 
(NPDES) permit and it also requires EPA to establish national 
technology-based effluent limitations guidelines and standards 
(ELGs) for different categories of sources. Section 502 of the 
Clean Water Act specifically defines the term ``point source'' 
(for the purposes of the NPDES program) to include CAFOs, but 
in addition exempts ``agricultural stormwater discharges'' from 
the definition of ``point source.''
    EPA's regulatory program regarding animal agriculture 
focuses on the largest operations (or ``CAFOs'') which present 
the greatest potential risk to water quality.
    EPA revised its NPDES regulations to control discharges 
from CAFOs in 2003. As a result of that rulemaking, EPA 
estimated at that time that close to 60 percent of all manure 
generated by AFOs would be regulated. In addition to these 
regulations, EPA has a strong voluntary program to reduce 
environmental impacts from animal agriculture, ranging from 
outreach programs to compliance assistance programs. An example 
of this is the Unified National Strategy for Animal Feeding 
Operations jointly developed by EPA and the United States 
Department of Agriculture (USEPA/USDA, March 1999) which 
specifies that the vast majority of operations that confine 
animals are and will continue to be managed through locally 
focused voluntary programs. EPA and USDA offer a comprehensive 
suite of voluntary programs (e.g. technical assistance, 
training, funding, and outreach) in addition to the regulatory 
programs to ensure that livestock operations, both regulated 
and non-regulated, properly manage their manure in order to 
protect the environment and public health.
    The Strategy defines a national objective for all AFOs to 
develop comprehensive nutrient management plans to minimize 
impacts on water quality and public health from AFOs. The vast 
majority (estimated to be about 95 percent) of these plans will 
be developed under voluntary programs.
    EPA's working relationship with USDA has strengthened our 
ability to protect the environment from animal agricultural 
runoff. Our two Agencies hold bi-monthly meetings to discuss 
all aspects of this issue. This, as well as our day-to-day 
collaborations with USDA, has promoted increased understanding 
of the industry, broadened our outreach efforts and increased 
our ability to provide onthe-ground technical assistance to the 
farmer.
The CAFO Rule
    In February 2003, EPA made comprehensive improvements to 
NPDES regulations for CAFOs. These revisions updated 
regulations originally issued in the 1970's, and they expanded 
the number of CAFOs covered by NPDES requirements to an 
estimated 15,500 facilities and added requirements to manage 
the land application of manure from CAFOs. The Agency estimates 
that the revisions would reduce annual releases of phosphorus 
by 56 million lbs.; nitrogen by 110 million lbs; and sediment 
by over two billion lbs.
    The rule also required all CAFOs with a potential to 
discharge to apply for NPDES permits and required them to 
comply with the technology and water quality-based limitations 
in the permit as defined by the permitting authority. It also 
required each permitted CAFO to develop and implement a site-
specific nutrient management plan (NMP).
    Stakeholders representing both industry and environmental 
groups filed lawsuits challenging various provisions in the 
regulations. The case was brought before the U.S. Court of 
Appeals for the Second Circuit. On February 28, 2005, the 
Second Circuit issued its decision in Waterkeeper Alliance et 
al. v EPA. While it upheld the majority of the regulatory 
provisions, the Court vacated the requirement that all CAFOs 
with a potential to discharge apply for NPDES permits, and held 
that only those CAFOs that actually discharge must obtain NPDES 
permits. The Court also held that the terms of the nutrient 
management plans (NMPs) are effluent limitations that must be 
made part of the permit and enforceable as required by sections 
301 and 402 of the CWA and, as such, must be subject to public 
comment and must be reviewed and approved by the permitting 
authority. The court upheld EPA's definition of ``point 
source'' as including discharges from a CAFO's land application 
areas and its application of the ``agricultural stormwater 
discharges'' exemption to only those precipitation-related 
discharges that occur where the CAFO's land application 
practices ensure the appropriate agricultural use of the 
nutrients in the land-applied manure, litter and wastewater.
    In June 2006, EPA proposed targeted revisions specifically 
to respond to the Court's ruling in the Waterkeeper case. EPA's 
proposed rule would require only those CAFOs that discharge or 
propose to discharge to apply for a permit. It would require 
CAFOs to submit their nutrient management plans to the 
permitting authority with their permit applications Permitting 
authorities would then be required to provide public notice and 
review of the plans, and include terms of the NMP as 
enforceable elements of the permit. It also clarifies that 
CAFOs land applying manure, litter or processed wastewater 
would not need NPDES permits if their only discharge is exempt 
agricultural stormwater.
    EPA received 580 unique public comments on the proposed 
rule, which were considered in preparing a draft final rule. 
The draft final rule is currently undergoing a 90-day 
interagency review under Executive Order 12866, which began on 
August 13, 2007. We anticipate that the Administrator would 
sign the final rule by the end of the calendar year.
    EPA believes our NPDES CAFO regulations are critical to 
restoring and protecting watersheds across the Nation and we 
are putting a priority on implementation. Since the 2003 
regulations, EPA has instituted a quarterly reporting process 
for tracking the number of CAFOs and NPDES permits. This 
reporting shows that the number of CAFOs has grown to 
approximately 19,000 facilities, and that roughly 8,300--or 43 
percent--of those CAFOs are covered by NPDES permits. The EPA 
is committed to finalizing the pending rulemaking process and 
to moving ahead in its work with States and agricultural 
partners to ensure continued increases in permits and NMPs for 
CAFOs.
    In addition, outreach and training is a major component of 
our CAFO program. After the 2003 rule was finalized, EPA 
published a series of guidance documents--one particularly 
targeting the CAFO industry by providing plain language 
explanations of how to comply with the rule. We have also held 
training courses in all of our 10 Regions to ensure EPA and 
State CAFO permit authorities clearly understand how to 
implement this rule. Furthermore, we are principal participants 
in an annual meeting held for all State regulatory authorities 
on matters pertaining to CAFOs. The Association of State and 
InterState Water Pollution Control Agencies, or ASIWPCA, 
arranges this meeting and also holds monthly conference calls 
where EPA regularly participates, to keep State regulatory 
authorities up-to-date on CAFO regulatory issues.
CAFO Rule Extension
    In July 2007, EPA finalized a rule extending certain 
compliance dates necessary to allow the Agency time to respond 
adequately to public comments on issues raised by the February 
2005 Waterkeeper decision before those compliance dates take 
effect. It extended the date by which facilities newly defined 
as CAFOs under the 2003 rule must seek NPDES permit coverage to 
February 27, 2009. In addition, all permitted CAFOs now have 
until February 27, 2009, to develop and implement nutrient 
management plans.
    The extensions provide time for States and the agricultural 
community to adjust to the new requirements once they are 
finalized. I also issued a memorandum urging regional offices 
and States to continue to implement their existing regulatory 
programs while the Agency's response to the Court decision is 
being finalized. Until NMPs and other aspects of the regulation 
can be implemented in accordance with the court ruling, State 
and existing Federal rules unaffected by the court ruling will 
continue to protect water quality.


                   iv. partnership and collaboration


    EPA has forged strong working relationships with other 
organizations across the country to further promote 
environmental protection from CAFOs. One such organization is 
the National Association of State Departments of Agriculture 
(NASDA). State departments of agriculture are a source of 
expertise that EPA can use to provide both outreach and 
technical advice to farmers. As an example of this partnership, 
EPA awarded a grant under our Clean Water Act 304(b) program to 
NASDA to provide a website where farmers and the public at 
large can obtain information regarding State requirements and 
technical standards for manure management. It is called 
CNMPWatch.com.
    Other partnership and collaborations include:

    The California Dairy Quality Assurance Program: This 
partnership among industry, EPA, and State regulatory 
authorities offers a training course to farmers in addition to 
no-cost, onsite, independent evaluations of farmers' 
operations. The State has seen a decrease in the rate of 
surface water discharges from these operations as a result of 
the program, the cooperation of industry, and enforcement 
actions by the State and EPA.
    USDA MOU: On May 9, 2007, the EPA and the U.S. Department 
of Agriculture (USDA) announced additional measures for 
coordination and cooperation among the two agencies in 
prioritizing and implementing nutrient reduction activities in 
the Chesapeake Bay watershed. Under the agreement, EPA and USDA 
are more closely coordinating actions, aligning resources, 
tools, and partners, and monitoring for results to accelerate 
clean water progress in the Bay watershed. Because crop and 
pasture use account for 25 percent of the Bay Watershed--which 
includes lands in Delaware, Maryland, New York, Pennsylvania, 
Virginia and West Virginia--the nutrient reduction activities 
include a significant focus on agricultural contributions from 
livestock operations.
    Great Lakes: One of the key issue areas addressed in the 
Great Lakes Regional Collaboration's Strategy to Restore and 
Protect the Great Lakes is nonpoint source pollution. 
Agriculture is recognized as one of the sources of this 
pollution in the Great Lakes basin, and the Federal Great Lakes 
Interagency Task Force has several activities underway to help 
reduce the impacts of nonpoint source pollution on the Lakes. 
For example, USDA's Natural Resources Conservation Service 
(NRCS) is conducting rapid watershed assessments in eight 
watersheds in the western Lake Erie basin to collect natural 
resource data and apply critical conservation on the ground. 
USDA's Conservation Innovation Grants program is funding 
several efforts in the Great Lakes, including projects to 
reduce nutrient loadings and recycling waste streams from dairy 
farms. NRCS is also working with the Corps of Engineers as the 
Corps, through its Great Lakes Tributary Model program, 
develops watersheds models for State and local agencies to 
evaluate the effectiveness of conservation practices and 
prioritizes areas for attention.
    Gulf of Mexico/Hypoxia: Reducing the large hypoxic zone in 
the Gulf of Mexico, which is largely created as a result of 
excessive nutrients coming from municipal facilities as well as 
agriculture, is a formidable challenge that requires focused 
attention by our Federal and State partners. EPA has taken a 
lead role reducing the affects of agricultural runoff on the 
hypoxic zone. In 1997, EPA led the formation of the Mississippi 
River/Gulf of Mexico Watershed Nutrient Task Force, which I 
chair, and EPA continues to coordinate ongoing Task Force 
efforts. The goal of this Federal-State partnership is to 
identify innovative and non-regulatory approaches to reducing 
Gulf hypoxia while enhancing water quality and quality of life 
in the Mississippi River Basin (Basin) and the Gulf. We plan to 
issue a revision of the 2001 Action Plan in March 2008. 
Additionally, OW has sponsored four scientific symposia and 
requested EPA's Science Advisory Board to review the State of 
the science regarding: (1) the causes and extent of Gulf 
hypoxia, and (2) the scientific basis for different management 
options targeting hypoxia mitigation in the Mississippi River-
Atchafalaya River Basin (MARB).


                       v. cafo water enforcement


    With input from EPA Regions, States, Tribes, and the 
public, EPA's Office of Enforcement and Compliance Assurance 
(OECA) selects multi-year national compliance and enforcement 
priorities that focus on specific significant environmental 
problems and identified widespread noncompliance patterns. 
CAFOs have been an EPA Clean Water Act enforcement and 
compliance priority for several years, and EPA has proposed to 
maintain it as a priority through 2010. Our State partners have 
consistently identified agricultural operations as a leading 
source of water quality impairment throughout the Nation. 
Industry trends have resulted in larger-sized operations 
generating large volumes of manure. This, in combination with 
outdoor manure storage at some CAFOs has contributed to some 
unauthorized discharges into waters of the United States.
    EPA's recent compliance monitoring and enforcement efforts 
have focused primarily on existing CAFOs that are discharging 
without an NPDES permit.
    In fiscal year 5, EPA Regions conducted 174 Federal 
inspections and 118 joint inspections with States at CAFOs, and 
concluded 63 enforcement actions against CAFOs for Clean Water 
Act violations. In fiscal year 6, EPA Regions conducted 262 
Federal inspections and 130 joint inspections with States at 
CAFOs, and concluded 56 enforcement actions against CAFOs for 
Clean Water Act violations.


         vi. cafo air compliance agreement and monitoring study


    EPA concluded and the National Academy of Sciences 
confirmed that it did not have sufficient air emissions data 
for animal feeding operations (AFOs), which made it difficult 
to determine the compliance status of AFOs with regard to 
existing air emission requirements. In January, EPA published a 
Federal Register notice providing AFOs with the opportunity to 
participate in a voluntary consent agreement and monitoring 
study. As part of the agreement, each participant agreed to: 1. 
pay a penalty for potential past and ongoing CERCLA, EPCRA, and 
CAA violations; 2. direct the payment of money into an industry 
fund used to conduct a national air emissions study; and 3. 
make its farm available, if selected, for air emissions 
monitoring; 4. use the emission estimating methodologies 
developed from the monitoring study to determine its compliance 
status, and comply with any applicable CAA, CERCLA, or EPCRA 
requirements. The goals of this innovative enforcement 
agreement were to ensure compliance with Federal laws regarding 
air emissions, monitor and evaluate AFO air emissions, reduce 
air pollution, and promote a national consensus on 
methodologies for estimating air emissions.''


                            vii. conclusion


    Thank you Madame Chairman and Members of the Committee for 
the opportunity to describe environmental and public health 
risks from CAFOs and the many actions EPA is taking with our 
State, local and agricultural partners. The implementation of 
the Unified National Strategy for Animal Feeding Operations and 
EPA's 2003 and 2007 CAFO rules is critical in our mission to 
restore and protect watersheds across the Nation. EPA is 
committed to working with our Regions, States and agriculture 
partners to ensure timely development of NMPs and submission of 
permit applications and proper nutrient management from all 
livestock operations.
    I would be happy to respond to any questions you may have.

    Senator Boxer. Thank you so much.
    Just in perfect timing because I was about to call on the 
Attorney General from Oklahoma, our Ranking Member, Senator 
Inhofe has arrived, and I know he would like to make some 
comments. So you are recognized
    Senator Inhofe. Very brief, and this is one of the rare 
times, Madam Chairman, that I am glad you are Chairman and not 
me to try to juggle all these votes that are coming up in front 
of us.
    Senator Boxer. I know.
    Senator Inhofe. First of all, it is a real honor for me to 
have two Oklahomans coming before us today, Madam Chairman.
    Michael Dicks of the Oklahoma State University, I have to 
say how much I enjoyed. I guess you are back there some place.
    Senator Boxer. He must be. There he is.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Yes, there he is. I enjoyed the honor that 
I got at Oklahoma State University last Friday and all the 
contributions that you have made.
    I have to say to my good friend, Drew Edmondson, that I 
have known for a long, long time. He is a Democrat. He is an 
outstanding public servant, and he comes from a long line.
    I knew J. Howard Edmondson very well. I knew your dad and 
Ed Edmondson, well for a long, long time, and so I appreciate 
very much your being here.
    The only thing that I would want to mention is that as we 
look forward to this, I happen to have been out in the 
Panhandle just about 4 days ago. As we look at the problem that 
is there, that we are addressing today--and I am glad we are 
addressing this--I just want to keep in mind, Madam Chairman, 
that we have a lot of our farmers in Oklahoma and throughout 
America that watch very carefully the decisions that we are 
making today and the discussion that is going on.
    So I will look forward to asking questions at the 
appropriate time and look forward to the hearing.
    I apologize for being late, but as you know we had our 
Armed Services hearing. They let me go first on that one.
    [The prepared statement of Senator Inhofe follows:]

         Statement of Hon. James M. Inhofe, U.S. Senator from 
                         the State of Oklahoma

    Oklahoma is among the states with the most concentrated 
animal feeding operations. Concerns have been raised about the 
possible environmental impacts of these facilities, 
particularly the impact they have on water supplies. 
Communities must have clean drinking water. In each of the past 
two Congresses I have co-authored legislation to infuse 
significant Federal funds into the two State revolving loan 
funds to help communities meet their clean water obligations. 
Both bills would have also authorized grants for disadvantaged 
communities. Further, my legislation to reauthorize the Safe 
Drinking Water Act's small system technical assistance program 
was recently passed by the Committee.
    We can have clean water and an active agriculture industry 
but we cannot have one at the expense of the other. I have been 
aggressive in assisting water systems comply with Federal laws 
however, any effort to further regulate farms must consider the 
critical economic and employment benefits provided by the 
nation's farms. In a 2000 study, the State Department of 
Agriculture found that of the over 111,000 agriculture jobs in 
Oklahoma, 71 percent were related to livestock production. 
According to the USDA, total farm and farm-related employment 
in Oklahoma in 2002 was 343,636 jobs. Any legitimate concerns 
should be addressed without threatening the economic viability 
of Oklahoma's agriculture industry.
    It is rare that we have the privilege of two Oklahoma 
witnesses at one hearing but today we are joined by Drew 
Edmondson, Oklahoma's Attorney General and by Professor Michael 
Dicks of Oklahoma State University. It is always a great 
pleasure to have folks from home come before the Committee.
    Conversely, I am disappointed that the Chairwoman refused 
to allow the Department of Agriculture to testify. USDA 
oversees a variety of programs, including the Environmental 
Quality Incentives Program to which so many farmers turn for 
compliance assistance. The USDA would have been able to provide 
much needed information for today's discussion.
    Today's hearing will focus on several aspect of 
environmental protection, including clean air. One of our 
witnesses works with the Iowa Department of Natural Resources 
(DNR), yet is not representing Iowa. I wonder if that is 
because when Iowa's DNR studied the issue of odor, it found 
that relatively few problems, with fewer than 4 percent of the 
measurements taken near public areas, homes and businesses 
exceeding acceptable odor levels. Further, another Iowa study 
out of the University of Iowa found that every-day products, 
pets and smoking were the cause of ammonia emissions and not 
from CAFOs. Given these air studies, and the fact that industry 
is working diligently to provide EPA with monitoring data to 
assist EPA in its regulatory assessment, it seems clear that 
this is an example of government actually working.
    I anticipate some discussion today from those who suggest 
that applying the nation's hazardous waste response law--
Superfund--to CAFOs is the solution to protecting our 
communities' waters. The prospect of declaring animal manure a 
hazardous waste and thus regulating under CERCLA deeply 
concerns me. If animal manure is found to be a hazardous waste, 
then virtually every farm operation in the country could be 
exposed to liabilities and penalties under this act. 
Furthermore, how then do we categorize the producers of such 
``hazardous waste?'' Are chickens and cows producers of 
hazardous waste and subject to CERCLA regulation as well? I do 
not believe this is what Congress intended. This issue needs a 
common sense approach where nature and sound science meet and I 
look forward to our discussion on it.
    CAFOs are already regulated under the Clean Water Act. In 
2003, EPA published a new regulation updating its CAFO program. 
The Second Circuit Court would later rule in its 
``Waterkeepers'' decision that EPA could not require farmers 
with only a potential to discharge to have an N.P.D.E.S. 
permit. The Court correctly found that the Clean Water Act only 
regulates actual discharges, not potential discharges. The EPA 
will soon finalize a new rule to implement the Court's 
decision. For those who call for additional regulation, it is 
important to note that one of the current primary regulatory 
tools has not yet been fully implemented. We need to see how 
EPA's soon-to-be published rule, which for the first time 
regulates land application of nutrients, improves water 
quality.
    Both Mr. Dove and Professor Dicks speak of converting 
manure into energy. This is innovation that would contribute to 
our nations' energy supply while addressing concerns about 
excess animal waste. Most people know that Oklahoma is a leader 
in the oil and gas world but Oklahoma also leads in developing 
innovative energy technologies. For example, I have highlighted 
the Noble Foundation's work with bioenergy crops while chairman 
and ranking member. Before the recess, I added a provision to 
the Senate energy bill that would promote geothermal energy for 
GSA buildings. Oklahoma City's Climatemaster is a national 
leader in this growing field. We need to encourage innovation 
in all fields, including animal waste.
    This is an important hearing that will allow us to take a 
comprehensive look at the numerous Federal, State and local 
initiatives and authorities that already exist to address any 
pollution concerns related to livestock production. I look 
forward to hearing from all of our witnesses.

    Senator Boxer. We are very happy you are back.
    Now it is my honor to introduce Drew Edmondson, Attorney 
General, Oklahoma Office of Attorney General.
    Welcome, sir.

STATEMENT OF DREW EDMONDSON, ATTORNEY GENERAL, OKLAHOMA OFFICE 
                      OF ATTORNEY GENERAL

    Mr. Edmondson. Thank you. Thank you, Madam Chair, and thank 
you, Senator Inhofe, for your invitation to appear here this 
morning and, Senator Inhofe, thank you for being safe home from 
Iraq too. I appreciate that.
    My written statement is obviously too lengthy to read, and 
I would ask that it be considered part of the record.
    Senator Boxer. Without objection, so ordered.
    Mr. Edmondson. In 2005, the State of Oklahoma filed a 
lawsuit after 3 years of unsuccessful negotiation against the 
major poultry companies in western Arkansas and eastern 
Oklahoma over degradation of the Illinois River watershed due 
to the surface application of poultry waste for many, many 
years.
    Madam Chair, CAFOs are not normal agricultural operations 
which are exempt under CERCLA. These are not chickens in a 
yard, and you throw grain down and feed them and go in the next 
morning and see if they laid any eggs.
    These are houses that hold as many 25,000 birds at a time. 
They turn over 4 to 5 crops a year which means a single house 
will have a 100 to 125,000 birds in it in a year, and a typical 
poultry farm will have from 3 to 20 houses. So you are talking 
about an enormous amount of waste that is generated at an 
industrial level by these operations.
    The amount of phosphorus that is generated in the Illinois 
River watershed alone from these poultry operations would equal 
the untreated human waste of 10.7 million human beings, more 
than the population of Oklahoma, Arkansas and Kansas combined.
    If we would contemplate, for just a second, taking the 
human waste of 10.7 million human beings and simply surface 
applying it to the land rather than sending it to treatment 
facilities, that is exactly what we are getting annually in a 
precious watershed in eastern Oklahoma and western Arkansas 
from poultry operations. That is why we felt it necessary to 
litigate when negotiation proved unsuccessful, and that is why 
we hope to be able to change the practice of the industry in 
western Arkansas and eastern Oklahoma.
    It is about a one million acre watershed, lying roughly 
half in Arkansas and half in Oklahoma. There are nearly 3,000 
poultry operations within that watershed, about 2,300 of them 
in Arkansas and the balance in the State of Oklahoma. So it is 
a shared problem, and we could only reach it through the 
Federal courts.
    As has been mentioned, there are more chemical agents 
besides nitrogen and phosphorus. There is also arsenic. There 
is also selenium, zinc and copper and other trace elements as 
well as growth hormones and, of course, E. coli.
    So there are significant problems. They resulted in 
degradation of that watershed and other watersheds in Oklahoma, 
and I dare say, notwithstanding the progress that has been 
made, the Chesapeake Bay remains degraded and work needs to be 
done in Delaware, Maryland and Virginia. Work needs to be done 
in Georgia.
    I would suggest, if I may most humbly, that rather than 
looking at exempting these industrial size operations from the 
provisions governing clean water, that Congress might take a 
look at national legislation to prevent the surface application 
of untreated animal waste of an industrial level. That way the 
playing field will be level and different operations would not 
have competitive advantages, one against the other.
    Senator Inhofe, thank you for mentioning my father and my 
uncle. They used to take me canoeing on the Illinois River. I 
took my children, picnicking and swimming on the Illinois River 
and Lake Tenkiller. The result of your work and our efforts in 
Oklahoma will determine whether or not my children can take 
their children to enjoy those same waterways.
    Thank you very much.
    [The prepared statement of Mr. Edmondson follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Senator Boxer. Thank you, sir.
    Olin Sims, President, National Association of Conservation 
Districts.

  STATEMENT OF OLIN SIMS, PRESIDENT, NATIONAL ASSOCIATION OF 
                     CONSERVATION DISTRICTS

    Mr. Sims. Good morning, Madam Chairman and members of the 
Committee.
    My name is Olin Sims, President of the National Association 
of Conservation Districts and a rancher from McFadden, Wyoming.
    Established under State law, conservation districts, nearly 
3,000 across the country, are local units of State Government, 
charged with carrying out programs for the protection and 
management of natural resources at the local level. We share a 
single mission: to support voluntary incentive-based programs 
that present a range of options, providing both financial and 
technical assistance to guide land owners in the adoption of 
conservation practices.
    Districts help producers participate in Farm Bill programs 
like the cost-share Environmental Quality Incentives Program, 
and districts also utilize EPA's 319 Non-Point Source Grant 
Program to address concerns on animal feeding operations.
    NRCS' conservation technical assistance program is the 
backbone for these Federal programs as well as State and local 
programs. Technical assistance is the individualized guidance 
and information that helps a landowner make a needed change to 
their operation.
    Each State addressed livestock producers' needs 
differently. Today, I am pleased to share examples of our 
members' work across this great Country. In my home State, the 
Wyoming Association of Conservation Districts, in cooperation 
with Federal and State partners, initiated an animal feeding 
operation program in 1997.
    The goals of the efforts were to, No. 1, inform and educate 
livestock producers on potential impacts of AFOs on water 
quality and other resources and regulatory requirements. No. 2, 
establish demonstration projects and, No. 3, provide the 
necessary cost-share and technical assistance to Wyoming's 
livestock industry.
    Fifteen demonstration project sites on animal feeding 
operations were implemented, and additional efforts to fund 
several animal feeding operation projects to address 
impairments on surface waters within the State.
    To my friend to the right from Oklahoma, the Oklahoma 
Association and the Conservation Commission addressed water 
pollution in two different watershed projects. Utilizing 
voluntary incentive-based programs to reduce phosphorus loading 
in the watersheds, the State also entered into an agreement on 
a conservation reserve enhancement program with USDA and the 
State technical committee prioritized certain watersheds as 
EQIP priority areas, focusing efforts where they were most 
needed.
    The South Dakota Association of Conservation Districts and 
their member districts worked to provide technical assistance 
to producers to implement nutrient management plans.
    Once a CNMP is complete, a producer frequently needs 
assistance with the plan's requirements and guidance on 
maintaining their operation to comply with the plan. Districts 
teach producers how to correctly obtain soil, water and manure 
samples and how to interpret the results, so they can correctly 
apply the required amounts. Plans are reviewed annually with 
the producer to determine success and identify needed changes 
with a long term goal of the producer gaining the technical 
skills to manage their own CNMP.
    Soil and water conservation districts in North Carolina, 
that are present with us here today, partner with the State 
Soil and Water Conservation Commission to lead an aggressive 
and proactive effort dealing with the State's major livestock 
and poultry industries. In 1983, the North Carolina General 
Assembly authorized the North Carolina Agricultural Cost-Share 
Program to improve water quality associated with agricultural 
and 3 nutrient sensitive areas covering 16 counties. In 1990, 
the program was expanded statewide due to its success.
    While the program addresses a range of agricultural-related 
water quality issues, 2,500 permitted facilities are often the 
focus of the activities. Approximately $58.1 million of the 
funds have been directed to CAFOs and AFOs.
    This year, North Carolina passed and the Governor just 
recently signed legislation establishing a permanent moratorium 
on new lagoon construction and developed a lagoon conversion 
program to provide cost-share assistance to producers to 
voluntarily convert conventional lagoon and spray field systems 
to innovative animal waste management systems. The program 
supports new technologies that produce marketable byproducts, 
reduce or eliminate the emission of ammonia and greenhouse 
gases, and are capable of being connected to a centralized 
waste collection and treatment system.
    The Cayuga County Soil and Water Conservation District in 
Auburn, New York, works daily with CAFOs on multiple projects 
including best management practices, bunk silos, manure storage 
and transfer systems, milk house waste reduction, barnyard 
runoff, crop planning and erosion control. The district 
educates farmers about conservation tactics and efficient 
agricultural techniques.
    The most ambitious of the district's projects has been the 
construction of a community methane biodigester. The 
biodigester will centralize manure collection from three local 
CAFOs.
    As these examples demonstrate, each State or local 
conservation district may take a slightly different approach to 
addressing local environmental concerns, but there is a 
consistent theme of working with landowners, providing 
technical assistance and financial assistance and expertise to 
help them improve their operations and practices. These changes 
are critical to our success.
    Conservation districts across the Country have been working 
with landowners for over 70 years and will continue to seek 
solutions that benefit our communities and protect natural 
resources. We believe that flexibility should be built into 
Federal programs and requirements to allow States to buildupon 
their own successful efforts. NACD and our members will 
continue to work with landowners to ensure the protection of 
our natural resources.
    Madam Chair and members of the Committee, thank you very 
much for the opportunity to testify today, and I am more than 
willing to answer any of your questions.
    Thank you.
    [The prepared statement of Mr. Sims follows:]

        Statement of Olin Sims, President, National Association 
                       of Conservation Districts

    Good morning, I am Olin Sims, President of the National 
Association of Conservation Districts (NACD) and a rancher from 
McFadden, Wyoming. On my family operation, the Sims Cattle 
Company in the Rock Creek Valley, we run a 700 cow/calf 
operation on 22,000 acres of deeded, private, State and Federal 
leases in southern Wyoming. The ranch retains ownership of all 
calves and feeds to finish in Nebraska.
    I was first elected to my local Conservation District, 
Medicine Bow Conservation District, as a Rural Supervisor in 
1987 and have served as an area director since 1996. As a 
national officer of NACD I am required to maintain my local 
elected position in Wyoming. Conservation Districts across the 
country are led by Boards that have been locally elected or 
appointed by State officials. We represent members of the 
community, landowners, farmers, ranchers, businessmen and women 
or anyone that has a keen interest in the protection of natural 
resources in their local community.
    Across the United States, nearly 3,000 conservation 
districts are helping local people to conserve land, water, 
forests, wildlife and related natural resources. We share a 
single mission: to coordinate assistance from all available 
sources--public and private, local, State and Federal--in an 
effort to develop locally driven solutions to natural resource 
concerns. More than 17,000 members serve in elected or 
appointed positions on conservation districts' governing 
boards. Working directly with more than 2.3 million cooperating 
land managers nationwide, their efforts touch more than 1.5 
billion acres of private forest, range and crop land. NACD 
believes that every acre counts in the adoption of conservation 
practices. We work with landowners across the country--urban, 
rural, row crop farmers, ranchers, forestland owners and 
specialty crop producers on the plains, in the hills and on 
both coasts--so we know that no one program, practice, or 
policy will work for everyone. We support voluntary, incentive-
based programs that present a range of options, providing both 
financial and technical assistance to guide landowners in the 
adoption of conservation practices, improving soil, air and 
water quality and providing habitat and enhanced land 
management.
    Established under State law, conservation districts are 
local units of State Government charged with carrying out 
programs for the protection and management of natural resources 
at the local level. Our members work with the U.S. Department 
of Agriculture's Natural Resources Conservation Service(NRCS) 
as well as State and county programs to assist livestock 
producers in developing, understanding, and implementing the 
terms of their individual nutrient management plans . Each 
State may address the needs of livestock producers a little 
differently and included in my testimony are a few examples of 
what local Conservation Districts are doing across the country.


                        locally led conservation


    Local county-level Conservation Districts assist in the 
implementation of Federal conservation programs, working with 
the USDA's NRCS and the Farm Service Agency (FSA). Our members 
see the benefits of appropriate technical assistance and 
offering financial assistance when working with private 
landowners. As members of our local communities, our neighbors 
frequently want to take the correct action, but need the 
technical information to know what those actions may be, the 
education and training to be able to apply new practices and 
requirements to their operations and in some cases financial 
assistance to make a change in an agriculture operation.
    The major Farm Bill program that assists livestock 
producers is the Environmental Quality Incentives Program 
(EQIP). EQIP provides cost-share funding (generally 50 percent 
Federal, 50 percent from landowner) for specific systems and 
practices, construction, and the development of Comprehensive 
Nutrient Management Plans(CNMPs). Conservation districts assist 
in gathering local input and priorities for these programs, 
addressing the most pressing natural resource issues within the 
state. Livestock producers in all states can apply for 
assistance under EQIP.
    Several states have also entered into agreements with FSA 
and identified watershed and water bodies that would benefit 
from a Federal/State partnership under the Conservation Reserve 
Enhancement Program (CREP). While this program focuses on 
buffer strips, filter strips and retirement of certain acreage 
from production and does not specifically address livestock 
operations, it is utilized to focus broader efforts for water 
quality improvements and leveraging State and Federal funds.
    EPA's 319 Non Point Source Grant Program is frequently 
utilized in states to address concerns on animal feeding 
operations. Several Conservation Districts or State 
Associations receive these grants to assist livestock producers 
(non CAFOs) on proper management of their operations and 
protecting water quality.
    Conservation Technical Assistance is considered the 
backbone for these Federal programs as well as State and local 
programs. Technical Assistance is the individualized guidance 
and information that helps a landowner make a change. It could 
be engineering design work, assistance from an agronomist or 
localized information for soil types, habitat, nutrient 
reduction strategies and know-how for application of 
conservation practices and structures or the development and 
implementation of nutrient management plans.


                            cafo regulations


    NACD provided comments to EPA on their CAFO regulations on 
several occasions. In our written comments to the agency, NACD 
expressed support for the elimination of duty to apply 
requirement for all CAFOs. NACD supports EPA's proposal for the 
revised regulation that would require only those CAFOs that 
discharge or propose to discharge to apply for aNational 
Pollutant Discharge Elimination System (NPDES) permit.
    NACD agrees with including CNMPs as a component of NPDES 
permits for CAFOs. We also agree that associated production 
and/or land application areas, as defined in the proposed 
regulation, should be included within the permit only for the 
CAFO permitee. It should not include offsite application of 
CAFO-generated wastes. In modifying a nutrient management plan, 
we support allowing the operation to modify implementation and 
report modifications to the permitting authority while not 
requiring public review. An operator must have flexibility in 
meeting the goals of the nutrient management plan providing for 
some alteration in cropping and practices as appropriate for 
their operation.
    NACD also supported the action by EPA this summer to extend 
the compliance deadline for obtaining a comprehensive nutrient 
management plan. As you will note from our specific State 
examples, Conservation Districts and individual producers are 
actively working on developing and implementing comprehensive 
nutrient management plans. While this work is underway, we did 
not see that it would have been possible to meet the July 31, 
2007 deadline and therefore we support the extension to 
February 27, 2009.
    With regard to unpermitted large CAFOs and AFOs not 
required to obtain permits, we would encourage all operators to 
work with voluntary conservation programs and their local 
conservation districts to determine the conservation practices 
that best suit their specific operations. Landowners are 
frequently seeking assistance in applying conservation 
practices, but are limited by the technical knowledge to 
implement these practices correctly.
    Conservation Districts are actively working with livestock 
producers with various sizes of operations. NACD is 
facilitating information between our states and individual 
districts to share success stories and information. We are 
pleased to provide the committee with several examples of 
outreach and implementation efforts from across the country.


                             state examples


    In my home state, the Wyoming Association of Conservation 
Districts, in cooperation with the Wyoming Department of 
Agriculture, Wyoming Department Environmental Quality (DEQ), 
NRCS and livestock industry in Wyoming, initiated an Animal 
Feeding Operation/Confined Animal Feeding Operation Program in 
1997.
    The effort was implemented from 1997 ? 2001 with projects 
continuing to be implemented to date. Educational efforts were 
funded in part utilizing Clean Water Act section 319 funds. The 
goals of this effort were to 1) Inform and educate livestock 
producers on potential impacts of AFO's on water quality/
resource conditions and also an understanding of Federal/State 
regulatory requirements 2) establish demonstration projects to 
further awareness and 3) to provide the necessary cost-share 
and technical assistance to Wyoming livestock industry.
    The first 2 years of the program the primary focus was 
aimed at elevating the level of awareness within the livestock 
industry on Federal regulatory requirements through the 
development of a educational brochure which was distributed to 
3,000 livestock producers (producers owning 200 head of 
livestock or more) and the development and distribution of a 
self-assessment for producers to utilize to determine their 
risk. Over 22 educational workshops were held throughout the 
State with more than 1,250 livestock producers attending.
    A cooperative agreement was also developed with NRCS which 
dedicated two field staff to providing dedicated assistance to 
producers to assess their operations and develop plans for 
modifications if necessary.
    Approximately 15 demonstrationsites on animal feeding 
operations were implemented throughout the State on animal 
feeding operations program that had ``unacceptable conditions'' 
as defined by the Federal regulations. Tours were conducted of 
the sites after completion.
    In addition, due to the high demand from livestock 
producers to address unacceptable conditions on AFO's, NRCS 
dedicated $225,000 at the State level in EQIP funds to 
specifically meet the need for AFO cost share. Wyoming also 
sought additional funds from the national level and received 
$105,000 through NRCS to add additional technical assistance to 
meet the demand. After the educational efforts were conducted, 
a huge increase in assistance was experienced by NRCS and folks 
in some areas were put on a waiting list.
    In addition, the local conservation districts through their 
water quality improvement efforts have continued to fund a 
number of animal feeding operation projects as part of efforts 
to address impairments on surface waters within the state. 
Funding for these are typically from a variety of sources 
including producers, local funds, CWA 319 and/or EQIP funds. 
All districts that have waters listed on the state's 303(d) 
list as being impaired due to bacteria (E. Coli) have local 
programs to assist producers within these watersheds to address 
their operations if unacceptable or contributing conditions 
exist.
    NRCS reports that in 2006 an additional 21 projects and in 
2007, 28 projects were funded through the statewide EQIP set 
aside fund.
    Regarding Concentrated Animal Feeding Operations, in 
Wyoming all CAFO's (based on the size threshold) are required 
to obtain a NPDES permit from Wyoming DEQ. DEQ started 
requiring that the permit include the nutrient management plan 
prior to the final adoption of the EPA regulatory revisions. 
There are 63 CAFO permits issued in Wyoming.
    In New Mexico, the New Mexico Association of Conservation 
Districts worked to ensure that conservation programs made 
sense for the dairy operations within their state. After 
initial concern about a process that was too complicated the 
Association worked to ensure dairy producers could utilize 
conservation assistance programs. Today, the State Technical 
Committee that establishes priorities for the implementation of 
USDA Farm Bill Conservation programs at the State level sets 
aside EQIP funding to assist CAFOs in developing CNMPs. The 
Association has also worked to obtain State funds for 
additional technical assistance to CAFOs. The Association has 
been able to contract with retired NRCS employees to provide 
additional resources to develop CNMPs.
    The South Dakota Association of Conservation Districts and 
member districts work on several outreach and implementation 
efforts with livestock operators within the state. For animal 
feeding operations, the Association provides, through an EPA 
319 nonpoint pollution grant, cost-share to design nutrient 
management systems in targeted watersheds to meet Total Maximum 
Daily Loads (TMDL) goals. Under this grant, the Association 
staff work with the producer from initial contact through full 
implementation. The producer pays 25 percent of the cost of the 
engineer to design the system with 319 funding providing the 
other 75 percent. Once the design work is complete, the 
Association staff helps the producer apply through EQIP or 
local watershed projects for cost-share assistance for any 
needed construction assistance such as sediment ponds, lagoons, 
vegetated treatment areas, etc. To date, 69 producers are 
involved in the program.
    South Dakota's work on existing CAFOsincludes an agreement 
with NRCS to provide technical assistance to producers to 
implement their nutrient management plans. Once a CNMP is 
complete, a producer frequently needs assistance with the 
requirements of the plan, and guidance on the maintenance of 
their operation to comply with the plan. Agronomists help to 
ensure continued proper application rates of nitrogen and 
phosphorus. Producers are taught how to correctly obtain a soil 
sample, a water sample, and a manure sample and how to 
interpret the results so that they can correctly apply the 
required amounts. The Association's employees have taught 
producers how to calibrate their application equipment ? 
including using portable scales so that producers can weigh 
their manure spreaders and find out how much they really hold.
    On an annual basis, the Association staff sits down with 
the producer and re-evaluates their plan so that they can see 
how well it is working or what they may need to do differently. 
This really helps when the producer is using rented land for 
application--sometimes they don't keep the lease and then they 
need to re-work their application plans for new land. The goal 
is that, after a few years, the producer gains the technical 
skills to manage his own CNMP. The Association has learned that 
they are asking the producers to adopt a whole new way of doing 
things and that requires transfer of technical knowledge. They 
don't expect producers to be able to learn it on their own 
because it can be overwhelming.
    CAFO operators can also seek financial assistance for 
development of CNMPs and construction cost-share through the 
EQIP programs.
    In Minnesota, Conservation Districts play an important role 
as an intermediary between producers and communities where 
CAFOs are proposed. Districts are often called upon to provide 
hearings for public comments when establishment of a CAFO is 
being considered. The district can help to vet issues raised by 
their local community, and can also provide information to the 
community on the environmental impact of proposed CAFOs. This 
service as a moderator ensures that dialog is established 
between public and private interests during CAFO planning 
phases.
    Minnesota districts also assist CAFOs with different 
approaches ensuring proper nutrient management. They can serve 
as a bridge between CAFOs and NRCS when operators wish to apply 
for Federal assistance through programs such as EQIP. Districts 
also facilitate and promote EQIP opportunities for operators, 
and provide assistance to operators interested in applying for 
EQIP. Finally, Districts promote creation of nutrient 
management plans in TMDL areas and Well Head Protection Areas, 
and encourage CAFO operators with existing NMPs to meet with 
Certified Crop Advisors to revisit their plan and make sure its 
provisions are current with soil conditions.
    In Oklahoma the Conservation Commission has taken the lead 
on two different watershed projects addressing water pollution. 
In cooperation with Federal State and local partners, these 
projects resulted in improved water quality. The Peacheater Non 
Point Source National Monitoring Program Project included the 
Adair and Cherokee County Conservation Districts, NRCS, USGS, 
EPA, Oklahoma State University Extension, and the Oklahoma 
Scenic Rivers Commission. This project was funded through a 319 
grant to work with landowners to implement riparian management, 
buffer and filter strips, composters and animal waste storage 
facilities, improved pasture management and septic systems. 
Through the installation of BMPs, the phosphorus loading to 
Preacheater Creek was reduced by 69 percent.
    A similar project was conducted on the Eucha/Spavinaw 
Watershed where 319 funds, State priority watershed funds and 
individual landowner funds were used on a locally led effort. A 
Local Watershed Advisory Group was established to recommend 
BMPs and cost-share rates. The program included the Delaware 
County Conservation District in Oklahoma and the Benton County 
Conservation District in Arkansas, as well as the city of 
Tulsa, USGS, NRCS, EPA, Oklahoma State University Extension, 
and the Arkansas Soil and Water Conservation Commission. The 
project included riparian management, buffer and filter strips, 
streambank stabilization, composters and animal storage 
facilities, pasture establishment and management, proper waste 
utilization and septic systems. The project resulted in a 31 
percent decrease in phosphorus loading to Beaty Creek in the 
Eucha/Spavinaw Watershed.
    This area in the Eucha/Spavinow Watershed is also an EQIP 
priority area and this past spring became a CREP area. The 
primary objectives of the Oklahoma CREP are to install field 
buffers to trap sediment, nutrients and bacteria; reduce 
sediment loading by up to 3,702 tons, phosphorus loading by up 
to 19,825 pounds and nitrogen loading by up to 191,887 pounds 
annually. These goals are to be achieved by voluntary 
enrollment in 14 or 15 year Conservation Reserve Program 
contracts and 15 year or permanent State easements, as well as 
enrolling adjacent non-CREP riparian acreage into a State 
incentives program (FSA CREP fact sheet). Oklahoma has a 
variety of voluntary conservation programs working together to 
address nutrient and sediment loading to improve water quality 
as well as improving wildlife habitat.
    Thanks to a proactive approach to working with poultry 
producers in Texas, most poultry facilities were already in 
compliance with EPA when they recently made changes that 
defined larger dry-litter operations as CAFO's.
    Soil and Water Conservation Districts in Texas have been 
working with the State for several years to assist poultry 
facilities to comply with State laws. All operations in Texas 
are required to have a Water Quality Management Plan, which is 
equivalent to a CNMP.
    These CNMPs included virtually all of the technical 
components of a CAFO permit under the EPA NPDES Permitting 
Program; consequently, the industry was well prepared for the 
EPA regulation changes. Soil and Water Conservation Districts 
in Texas provide the technical and financial assistance to 
develop and implement these CNMPs so they comply with Federal 
and State CAFO regulations.
    The districts employ technical service providers to develop 
the CNMPs and assist producers with the installation. Local 
districts also provide state-appropriated cost share funding. 
District employees also work with the poultry operations to 
``maintain'' the implemented status of CNMPs through annual 
status reviews and by providing soil sampling services.
    Soil and Water Conservation Districts in North Carolina in 
partnership with the state's Soil and Water Conservation 
Commission, have led an aggressive and proactive approach to 
dealing with the state's major livestock and poultry 
industries.
    In 1983 the North Carolina General Assembly authorized the 
NC Agriculture Cost Share Program to improve water quality 
associated with agriculture in three nutrient sensitive areas 
that covered 16 counties. The program was expanded in 1990 to 
include 96 Soil and Water Conservation Districts covering all 
100 counties.
    The program provides 75 percent cost share for producers to 
implement resource management practices and encouraged the use 
of new and emerging technologies. Highlights of the program 
include the installation of 3559 waste management structures to 
properly store and manage dry and wet animal waste; the 
installation of 815 mortality management systems to properly 
manage livestock mortalities to minimize water quality impacts; 
and the placement of over 950 miles of fencing in combination 
with other practices to exclude livestock from streams.
    While the program addresses a range of agriculture-related 
water quality issues, 2500 permitted facilities are often a 
focus of the activities. Approximately $58.1 million (38 
percent) of the funds have been directed to CAFOs and AFOs.
    According the program's recent annual report, the program 
is delivered locally by 494 elected and appointed Soil and 
Water Conservation District supervisors and by over 400 local 
staff of districts and Federal partners. District supervisors 
are responsible for seeing that State funds are spent where 
they are most needed to improve water quality. District 
supervisors are required to develop a prioritization ranking 
system for administering the program in their respective 
districts to maximize the benefits to the state's water quality 
goals. Applications are evaluated and prioritized by the 
District and Districts are required to inspect at least 5 
percent of the contracts annually.
    The cost share program is not the only activity in NC to 
help better manage livestock and poultry operations. In 1993, 
the NC State government established a non-discharge rule 
requiring all farms meeting the following threshold numbers to 
register with the appropriate State agency and to secure a 
certified animal waste management plan by 1997. The size 
requirements are as follows:

    250 swine (55 pounds or greater)
    100 or more confined cattle
    75 horses
    1,000 sheep
    30,000 confined poultry with liquid waste system

    These plans must be certified by a technical specialist 
designated by the NC Soil and Water Conservation Commission. 
The technical specialists are often conservation district 
employees. These requirements became a part of the State and 
NPDES permitting process in 1996.
    In 1999, in the wake of flooding devastation from 
Hurricanes Dennis, Floyd, and Irene, the State initiated a 
buyout program for active swine operations in the 100-year 
floodplain. The State has invested over $16 million to operate 
this program to date, and has removed 39 swine operations from 
harm's way in the floodplain. Another grant of $3 million has 
just been approved to continue this popular and highly 
successful flood hazard mitigation program with the expectation 
that another 6-7 high-priority operations will be included. 
Participating operations must agree to allow a conservation 
easement on the property to prevent future CAFO operation on 
the property and to prevent development of the property for 
non-agricultural uses.
    Just this year, NC passed legislation that established a 
permanent moratorium on the construction of new lagoons and a 
new Lagoon Conversion Program where producers can receive cost 
share assistance to voluntarily convert from conventional 
lagoon and spray field systems to ``approved'' innovative 
animal waste management systems. The program supports systems 
that produce marketable by products, reduce or eliminate the 
emission of ammonia and greenhouse gases, and are capable of 
being connected to a centralized waste collection and 
treatment.
    The NC Soil and Water Conservation Commission and 
conservation districts will be involved in the development and 
implementation of this exciting new initiative.
    As you can see, communication and collaboration among 
interested parties have established exciting programs and 
policies in NC. In many cases the success of the programs can 
be tied to a goal of locally led programs with involvement and 
support of conservation districts.
    The Sussex Conservation District in Delaware has four 
conservation planners on staff funded through a Nonpoint Source 
Pollution Section 319 Grant and the State of Delaware. These 
planners are funded to provide nutrient management plans to 
Sussex County landowners.
    Upon request, the Sussex Conservation District provides 
producers with technical and financial assistance. A 
conservation planner visits the farm to assess their resource 
concerns and provide the farmer with a comprehensive nutrient 
management plan. The District also provides financial 
assistance through a cost-share program for BMPs that address 
water quality issues. Some of the BMPs that the District 
provides cost-share assistance are poultry manure structures, 
poultry carcass composters, poultry incinerators, poultry 
windbreaks, animal waste systems, heavy use area protections 
(concrete pads at the ends of chicken houses or manure 
structures), and cover crops. With the District's cost-share 
program, structural BMPs have to be ranked because we always 
get more requests for funds than we have cost-share money.
    The District also administers a 3 percent low interest 
Agricultural Nonpoint Source loan program that allows farmers 
to finance, at a low rate, their portion of BMPs that is not 
covered through cost-share. The normal cost-share rate for BMPs 
is 75 percent meaning that the farmer must come up with the 
remaining 25 percent. For example, they can also use the 3 
percent loan to purchase a front-end loader for their 
composting operation or a calibratable manure spreader.
    The District also works closely with the Delaware Nutrient 
Management Program. Delaware's program, which was established 
with the passing of the Nutrient Management Law in 1999, 
mandates all landowners with 10 or more acres or 8 animal units 
be required to have a nutrient management plan by 2007. We are 
proud to say that the Sussex Conservation District assisted the 
Delaware Nutrient Management Program in meeting this goal.
    If there is conservation or nutrient management concerns on 
a farm, the District staff may accompany the representatives 
from the Nutrient Management Program to the farm to discuss 
alternatives or solutions to whatever issues the farmer is 
facing. The Delaware Nutrient Management Program also offers 
cost-share assistance to poultry operators for manure 
relocation and nutrient management planning. The manure 
relocation program takes manure from farms that have excess 
manure and ships it to farms that need the manure or for 
alternative uses. The cost-share is used to cover the 
transportation costs. In western Sussex County, there is a 
manure pelletizing plant that manufactures and packages 
pelletized manure to be sold to retail locations for 
fertilizer.
    The Cayuga County Soil and Water Conservation District in 
Auburn, New York has had many beneficial interactions with 
CAFOs in Cayuga County. The District has about half a dozen 
conservation professionals that work regularly with CAFOs on 
multiple projects including:BMPs, bunk silos, manure storage 
and transfer systems, milk house waste reduction, barn yard 
runoff, crop planning and erosion control. The District has 
worked extensively with farmers to educate them about 
conservation tactics, and efficient agricultural techniques. 
The nutrient management specialists have worked to lower the 
environmental impacts of manure waste on the community and 
environment. The District has been involved with 
vermacomposting, drag hose application; manure additives and 
wind powered manure agitators all of which limit CAFOs waste 
problems.
    The most ambitious of the District's projects has been the 
construction of a Community Methane Biodigester. The 
Biodigester will centralize manure collection from 3 local 
CAFOs on the District's campus. The manure, along with food 
waste, will be anaerobically digested to create 
``environmentally friendly'' biogas, liquid fertilizer and 
solid compost. The Biodigester will address nutrient runoff and 
loading problems in the Finger Lakes. The Biodigester will make 
the liquid fertilizer much more nutrient balanced for 
reapplication to the farm fields, while removing the solid, 
nutrient rich, compost out of the watershed by selling it 
separately to gardeners and nurseries. The Biodigester will 
also eliminate pathogens and odor caused by the spread of 
manure and that make community relations difficult for CAFOs.
    At a recent NACD Northeast Region meeting, a Conservation 
District shared a proactive approach in working with CAFOs. The 
district realized that in the event of an agriculture emergency 
such as a manure spill, they could provide assistance both to 
the operator and to emergency management personnel who would 
respond by serving in an advisory capacity.
    To that end, the district has established a relationship 
with 911 officials and local fire departments so that they are 
aware of agriculture related emergencies and how to respond. As 
a result, the local 911 center created a data base of resources 
to utilize for agriculture emergencies, including the local 
conservation district. The district has also provided outreach 
to local CAFO operators to provide instruction on how to 
develop agriculture emergency plans and procedures for 
contacting authorities in the event of an agriculture 
emergency. In doing so, the district is also helping CAFO 
operators stay in compliance with regulations, which require 
notification in the event of an emergency.
    As these examples demonstrate, each State or local 
conservation district may take a slightly different approach to 
addressing environmental concerns in the local area. We have 
provided only a few examples, but most states have similar 
efforts and Conservation Districts across the country are 
assisting in the delivery on Farm Bill Conservation Programs, 
prioritizing local projects and natural resource issues within 
the state. Each State may take a different approach, but there 
is a consistent theme of working with landowners, providing 
technical assistance, financial assistance and expertise to 
help them make changes to their operations, or alter practices 
that is critical to our success. Conservation Districts across 
the country have been working with landowners for 70 years, and 
we will continue to seek solutions that benefit our communities 
and protect natural resources. Proactively working with 
landowners, educating, teaching and providing useful 
information, expertise and guidance is critical to the success 
of our efforts. We believe that flexibility should be built 
into Federal programs and requirements to allow states to 
buildupon their own successful efforts. NACD and our member 
State associations and individual districts look forward to 
continuing to work with landowners to ensure the protection of 
our natural resources.

    Senator Boxer. Thank you very much, sir.
    We next turn to Thomas Bonacquisti, Water Quality Program 
Manager, Loudoun County Sanitation Authority, Association of 
Metropolitan Water Agencies.
    Welcome, sir.

   STATEMENT OF THOMAS P. BONACQUISTI, WATER QUALITY PROGRAM 
     MANAGER, LOUDOUN COUNTY SANITATION AUTHORITY, VA, AND 
           ASSOCIATION OF METROPOLITAN WATER AGENCIES

    Mr. Bonacquisti. Good morning, Madam Chairwoman, Senator 
Inhofe and distinguished members of the Committee.
    My name is Tom Bonacquisti, and I am currently the Water 
Quality Program Manager with the Loudoun County Sanitation 
Authority which serves drinking water and provides wastewater 
services to 175,000 people in eastern Loudoun County, Virginia. 
Previously, I worked as the Director of Water Quality and 
Production for the Fairfax County Water Authority also located 
in northern Virginia.
    Today, I am here on behalf of the Association of 
Metropolitan Water Agencies or AMWA, which is an organization 
of the largest publicly owned drinking water providers in the 
United States. AMWA's members provide clean and safe drinking 
water to more 127 million Americans from Alaska to Puerto Rico.
    AMWA commends you for holding this hearing to investigate 
the impact of concentrated animal feeding operations on 
regional water quality and safety and appreciates the 
opportunity to present its views on this important and timely 
issue.
    Thirty-five years ago this fall, Congress passed the Clean 
Water Act, landmark legislation that has greatly reduced the 
discharge of harmful pollutants into the Nation's waters and 
enabled their continued use as drinking water supplies.
    With the subsequent passage in 1980 of the Comprehensive 
Environmental Response, Compensation and Liability Act, CERCLA, 
also known as the Superfund Law, Congress sought not only to 
strengthen environmental protections but also to ensure that 
communities were able to recover from polluters the cost of 
cleaning up toxic and hazardous waste released into the 
environment.
    However, in recent years, the owners and operators of large 
concentrated animal feeding operations or CAFOs have 
increasingly advocated in favor of taking steps to exempt 
themselves from the critical environmental law.
    Today, I will discuss the negative impacts that components 
of animal waste have on America's drinking water supplies and 
testify that exempting these substances from the requirements 
of CERCLA would carry significant public health and financial 
cost for all Americans who depend upon access to clean and safe 
water.
    First, it is important to define what exactly constitutes a 
CAFO. According to EPA, a CAFO is a large farm that generally 
holds hundreds of animals such as more than 700 dairy cattle, 
1,000 beef cattle, 55,000 turkeys or 30,000 hens for a period 
of at least 45 days. Clearly, it would be difficult to confuse 
a large industrial CAFO with a small family farm which 
generally holds far fewer animals and, as a result, has much 
less of an impact on the surrounding environment.
    Over the past several decades, the number of corporate 
CAFOs in the United States has steadily increased while the 
number of small farms has declined and, as a result, today it 
is estimated that 54 percent of U.S. livestock are held on 
CAFOs, representing only 5 percent of livestock farms.
    These CAFOs alone generate approximately 570 billion pounds 
of animal waste per year. Because such a large volume of waste 
is generated each day at CAFOs, it is rarely economically 
feasible to have animal manure hauled away. As a result, the 
waste is usually stored in onsite lagoons until it is applied 
to fields as fertilizer.
    There are several problems with this process including poor 
maintenance of lagoons that will allow the waste to leach into 
the ground and surrounding water supply. For example, a study 
in Iowa found that more than half of the State's 5,600 
agricultural manure storage facilities consistently leaked in 
excess of legal limits, thereby allowing CERCLA-regulated 
contaminants commonly found in manure, such as nitrogen and 
phosphorus, to run off into the watershed.
    The increasing prevalence of such contaminants in drinking 
water contributed to EPA's finding in 2000 that agriculture is 
the leading contributor to State-reported water quality 
impairments with 29 States identifying livestock feeding 
operations as a source of such impairments.
    One of the most common drinking water quality problems 
related to animal manure is the increasing level of algae that 
grows in water supplies when phosphorus or nitrates are 
present. When too much a nutrient, such as phosphorus, is added 
to a reservoir, it stimulates plant algae and bacterial growth, 
leading to serious taste and odor problems.
    Senator Boxer. Sir, we have to ask you to finish up.
    Mr. Bonacquisti. OK.
    In conclusion, public drinking water systems have a duty to 
do all that they can to ensure that the water they deliver to 
their customers is clean and safe. Likewise, CERCLA, with its 
polluter pays principle, offers assistance to communities 
forced to clean up the mess.
    Senator Boxer. Sir, I am sorry. Our problem is, sir, we 
have just been told that the cloakroom is not going to postpone 
this vote. So the vote is actually going to start at 11:05.
    Mr. Bonacquisti. Thank you.
    [The prepared statement of Mr. Bonacquisti follows:]

  Statement of Thomas P. Bonacquisti, Water Quality Program Manager, 
      Loudoun County Sanitation Authority, VA, and Association of 
                      Metropolitan Water Agencies

    Good morning, Madam Chairwoman, Senator Inhofe and 
distinguished members of the committee. My name is Tom 
Bonacquisti, and I am currently the Water Quality Program 
Manager with the Loudoun County Sanitation Authority, which 
serves drinking water and provides wastewater services to about 
175,000 people in eastern Loudoun County, VA. Previously, I 
worked as the Director of Water Quality and Production for the 
Fairfax County Water Authority, also located in Northern 
Virginia. Today I am here on behalf of the Association of 
Metropolitan Water Agencies, or ``AMWA,'' which is an 
organization of the largest publicly owned drinking water 
providers in the United States. AMWA's members provide clean 
and safe drinking water to more than 127 million Americans from 
Alaska to Puerto Rico.
    AMWA commends you for taking the opportunity offered by 
this hearing to investigate the impact of concentrated animal 
feeding operations on regional water quality and safety, and 
appreciates the opportunity to present its view on this 
important and timely issue.
    Thirty-five years ago this fall Congress passed the Clean 
Water Act, landmark legislation that has greatly reduced the 
discharge of harmful pollutants into the nation's waters and 
has helped make them safe for multiple uses, including as 
drinking water sources. With the subsequent passage in 1980 of 
the Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA), also known as the Superfund law, 
Congress sought not only to strengthen environmental 
protections, but also to ensure that communities were able to 
recover from polluters the cost of cleaning up toxic and 
hazardous waste released into the environment. However, in 
recent years the owners and operators of large concentrated 
animal feeding operations (CAFOs) have increasingly advocated 
in favor of exempting themselves from this critical 
environmental law, by removing manure and its components from 
CERCLA's jurisdiction. Today, I will testify that providing a 
blanket exemption for manure from the requirements of CERCLA 
could damage the quality of drinking water sources that 
millions of Americans have come to depend upon.


                            what is a cafo?


    It is essential to first define what exactly is a ``CAFO.'' 
Despite the arguments made by some, concentrated animal feeding 
operations are very different from small family farms. 
According to the Environmental Protection Agency's 2004 Risk 
Management Evaluation for Concentrated Animal Feeding 
Operations, a CAFO is a large farm that generally holds more 
than 700 dairy cattle, 1,000 beef cattle, 55,000 turkeys, or 
30,000 hens (with a liquid manure system) for a period of at 
least 45 days.\1\ On an annual basis, these CAFOs can produce 
as much waste as a small-to-mid-size American city. Clearly, 
large operations of this size are not what one thinks of when 
envisioning a typical family farm.
---------------------------------------------------------------------------
    \1\EPA, Risk Management Evaluation for Concentrated Animal Feeding 
Operations, EPA/600/R-04/042 at 3-1 (May 2004) (``Risk Management 
Evaluation''), http://www.epa.gov/nrmrl/pubs/600r04042/600r04042.pdf.
---------------------------------------------------------------------------
    It must also be clear that small family farms are unlikely 
to be impacted one way or another by efforts to redefine 
CERCLA's application to agricultural operations. While some 
have painted the absence of a CERCLA animal waste exemption as 
a threat to the existence of family farms in the United States, 
responsible small farming operations are unlikely to pollute to 
the extent to which they would be found in violation of the 
Superfund law. However, the sheer magnitude of animals densely 
held in CAFOs cause such operations to have a far more serious 
impact on the surrounding environment and water quality. It is 
estimated that 54 percent of U.S. livestock are held on CAFOs 
representing only 5 percent of livestock farms,\2\ which 
generate approximately 575 billion pounds of animal waste every 
year.\3\
---------------------------------------------------------------------------
    \2\Gollehon N, Caswell M, Ribaudo M, Kellogg R, Lander C, Letson D 
(June 2001), Confined Animal Production and Manure Nutrients, Economic 
Research Service, U.S. Department of Agriculture, Agricultural 
Information Bulletin No. 771, http://www.ers.usda.gov/publications/
aib771/.
    \3\U.S. Department of Agriculture, Agricultural Research Service, 
Manure and Byproduct Utilization: National Program Annual Report: 
fiscal year 1, www.nps.ars.usda.gov/programs/
programs.htm?npnumber=206&docid=1076.
---------------------------------------------------------------------------
    Contributing to this problem is the growing prevalence of 
these CAFOs. In 1982 there were more than 1.2 million small 
farms in America holding fewer than 150 animals, but by 1997 
there were only about 920,000, a 26 percent reduction. During 
the same timeframe, large farms with more than 1,000 head of 
livestock increased 47 percent, from 5,442 to 8,021. Viewed a 
different way, over that fifteen-year period the total number 
of animals on small farms decreased from 45.8 million to 34 
million, while the animal population of large farms increased 
by 58 percent from 15.7 million to 24.9 million.\4\ The 
consequences of this shift are twofold: not only are large 
corporate-run animal feeding operations rapidly supplanting 
traditional family farms, but the typical manure disposal 
practices of CAFOs--which commonly involve holding waste in 
huge leak-prone cesspools and field application techniques that 
lead to increased runoff--pose serious dangers to the quality 
of nearby drinking water supplies. Waste from family farms, on 
the other hand, is usually generated and released in much 
smaller volumes, so it is more readily controlled.
---------------------------------------------------------------------------
    \4\Risk Management Evaluation at 3-1.
---------------------------------------------------------------------------


                 current manure regulation under cercla


    As the number of CAFOs in the United States continues to 
grow, industry representatives have increasingly argued that 
they deserve an exemption from pollution cleanup liability 
under CERCLA. Legislation has been introduced in both houses of 
Congress that would specifically exclude manure and its 
components from the law's definition of a ``hazardous 
substance'' under section 101(14) and from the definition of a 
``pollutant or contaminant'' under section 101(33). These 
proposals ignore the facts about CAFOs, CERCLA and animal 
manure in favor of giving large industrial farms the freedom to 
release regulated contaminants into the environment without 
consequence.
    Most importantly, it must be noted that under current law, 
animal manure itself is not considered a hazardous substance, 
pollutant or contaminant under CERCLA. Arguments from the farm 
industry that environmentalists are seeking to place animal 
manure in the same broad category as industrial waste are 
simply false. However, several toxins frequently found in waste 
emissions from CAFOs are regulated as hazardous substances 
under CERCLA, including phosphorus, nitrates, ammonia and even 
arsenic. Because a dangerous toxin remains a dangerous toxin 
whether it is released into the environment alone or as a 
component of another substance, it would be a mistake for 
Congress to relieve CAFOs of Superfund liability for each and 
every chemical and substance that may be found in animal 
manure. When deposited into the drinking water supply, 
community water systems must take additional treatment steps to 
remove these toxins and keep the water potable, regardless of 
their original source. If water systems were unable to recover 
excessive costs from polluters, all the citizens of the 
community would see their water rates increase just to maintain 
their previous level of drinking water quality, an outcome that 
is unfair and in direct conflict with the Superfund law's 
``polluter pays'' philosophy.
    Furthermore, some have argued that the Superfund law could 
enable the government to prohibit farms from spreading manure-
based fertilizers on their fields. This is plainly false. In 
fact, CERCLA already excludes liability for pollution related 
to the ``normal application of fertilizer.'' However, cost 
recovery is permitted against a CAFO that wrongly uses 
fertilizer as a way to dispose of waste in an attempt to avoid 
the law. This is a fair, common sense approach that prevents 
CAFOs from abusing the law, and therefore should not be 
tampered with.


                  the impact of cafos on water quality


    For a number of years there have been cases of components 
of untreated manure from CAFOs having harmful effects on public 
drinking water supplies across the country. For example, in 
2000 EPA's National Water Quality Report to Congress identified 
agriculture as the leading contributor to state-reported water 
quality impairments, with twenty-nine states identifying 
livestock feeding operations as a major source of water 
impairments.\5\ EPA has also reported that the sources of 
drinking water for 43 percent of the U.S. population have 
suffered some level of pathogen contamination related to 
CAFOs.\6\
---------------------------------------------------------------------------
    \5\EPA, ``National Water Quality Inventory, 2000 Report'' (August 
2002) EPA-841-R-02-001, http://www.epa.gov/305b/2000report/
    \6\Risk Management Evaluation at 4-2.
---------------------------------------------------------------------------
    As I previously mentioned, CAFOs typically dispose of their 
animal manure first by storing it in large lagoons, usually 
close by where the animals are kept. But because such a large 
volume of waste is generated each day at CAFOs, it is rarely 
economically feasible for a CAFO to have animal manure hauled 
away. As a result, the waste usually stays stored in onsite 
lagoons until it is applied to fields as fertilizer. There are 
several problems with this process. First, many manure lagoons 
are poorly maintained, and allow the waste to leach into the 
ground and surrounding water supply. For example, a study in 
Iowa found that more than half of the state's 5,600 
agricultural manure storage facilities consistently leaked in 
excess of legal limits.\7\ Even when applied to fields as 
fertilizer, many CAFOs are not large enough to absorb the 
massive amounts of nutrients contained in the manure. As a 
result, CERCLA-regulated contaminants included in manure, such 
as nitrogen and phosphorus, often runoff into the watershed and 
adversely impact the water supply.
---------------------------------------------------------------------------
    \7\Simpkins WW, Burkart MR, Helmke MF, et al. (2002) Potential 
impact of waste storage structures on water resources in Iowa. J Am 
Water Resources Assoc. 38:759--771.
---------------------------------------------------------------------------
    One of the most common drinking water quality problems 
related to animal manure is the increasing levels of algae that 
grow in water supplies when phosphorus--a common manure 
component and a CERCLA-regulated hazardous substance--enters 
the water supply. When too much of a nutrient such as 
phosphorus is present in a reservoir, it stimulates plant, 
algae, and bacterial growth. If left untreated this increased 
algae causes serious taste and odor problems with the water, 
making it unfit for human consumption. To counter this problem 
water utilities must undertake additional treatments to combat 
the algae, but the effectiveness of these treatments tend to 
diminish over a long period of time if nutrients continue to be 
added to drinking water sources. What's more, increased 
treatment made necessary by high levels of nutrients in water 
sources also contribute to the formation of disinfection 
byproducts that result from the reaction of natural organic 
matter with disinfectants such as chlorine, ozone, chlorine 
dioxide and chloramines. The entry of these disinfection 
byproducts into the water supply can be largely avoided if 
excessive nutrients are not deposited into drinking water 
sources in the first place.
    Finally, these additional disinfection measures are a 
sustained cost that water systems and ratepayers should be 
entitled to recoup from polluters--for the dual purpose of 
keeping costs under control and encouraging responsible 
environmental stewardship on the part of agricultural 
producers.
    Some recent examples of CAFO-related drinking water 
pollution include:

     Des Moines, Iowa
    The Des Moines Water Works supplies drinking water to 
approximately 350,000 people in 4 counties and 23 communities 
in Central Iowa. In 1991 it constructed the world's largest 
nitrate removal system (at a cost of $3.7 million to the 
utility) to clean water from the Raccoon and Des Moines Rivers. 
The plant costs approximately $3,000 a day when in use, and on 
average must operate between 45 and 60 days per year in 
response to upriver manure releases. Nitrate is a common 
component of animal manure and is also on the list of 
contaminants regulated by CERCLA.
     Oshkosh, Wisconsin
    The city of Oshkosh spends an extra $30,000 a year on 
copper sulfate treatment to kill algae in drinking water 
supplies from Lake Winnebago, which are attributed to excess 
nutrients like phosphorus from manure and other sources. In 
2004, there were 59 reported incidents of manure polluting 
water in Wisconsin, although the State says that the actual 
number was likely greater.
     Illinois River, Oklahoma
    The Illinois River, which flows through Arkansas and into 
Oklahoma, is the source of 22 public drinking water systems. 
But Arkansas's Illinois River watershed has one of the nation's 
densest poultry operations, producing waste equal to 10.7 
million people, greater than the combined populations of 
Arkansas, Kansas and Oklahoma. After 4 years of attempted 
negotiations and mediation with the industry, the State of 
Oklahoma sued 14 corporate poultry operations for polluting the 
Illinois River and the Tenkiller Lake.
     Chino Basin, CA
    The Chino Basin is the supply of drinking water for Orange 
County. In 1988, 40 percent of the wells in the basin had 
nitrate levels above drinking water standards. EPA found that 
dairies were a major cause of the nitrogen, which is a CERCLA-
regulated hazardous substance. Removing these nitrates costs 
more than $1 million per year. Chino also removes more than 
1,500 tons of salt per year, which comes from local dairies, at 
a cost of $320 to $690 for every ton.
     Waco, Texas
    Lake Waco supplies drinking water to 150,000 people. Dairy 
cows in CAFOs upstream from Lake Waco created 5.7 million 
pounds of manure per day that was over-applied to land and made 
its way into the lake. The State found that nearly 90 percent 
of the controllable phosphorus in the river came from CAFOs in 
the watershed, and an independent researcher who conducted much 
of the state's analysis found that dairy waste applied to 
fields supplied up to 44 percent of the lake's phosphorus. From 
1995 to 2005, the city spent $3.5 million on phosphorus-related 
water pollution, and has spent a total of approximately $70 
million to improve water treatment. To recoup costs the city 
filed suit against 14 large industrial dairies in 2003 and 
eventually reached a settlement with the defendants.
     Tulsa, Oklahoma
    The city of Tulsa supplies drinking water to 500,000 people 
in its metropolitan area, but pollution from poultry farms in 
Arkansas led to excessive algae growth in Lake Eucha, one of 
its main water sources. As a result the city spent more than $4 
million on increased drinking water treatments to address the 
problem, and unsuccessfully attempted to negotiate with poultry 
operations to reduce their manure applications. In 2002, the 
city sued six major poultry operations and the case was 
eventually settled, agreeing to a temporary moratorium on the 
application of litter and the installation of a new drinking 
water treatment system.


                               conclusion


    When properly managed, the animal waste from agricultural 
operations can have a minimal impact on their region's water 
quality. However, this outcome is dependent upon farm 
operators--particularly those overseeing CAFOs--implementing 
strong environmental management practices that adequately treat 
animal waste before releasing it into the surrounding 
environment. Unfortunately, too many large, corporate-run CAFOs 
have not implemented these practices on their own, which is why 
it is so essential for the communities and the public to 
continue to have recourses available through the Superfund law.
    Public drinking water systems have a duty to do all that 
they can to ensure that the water they deliver to their 
customers is clean and safe. Likewise, CERCLA, with its 
``polluter pays'' principle offers assistance to communities 
forced to clean up the mess when CAFOs ignore their 
responsibility to minimize harmful discharges into the 
environment. However, providing an entire industry with a 
waiver to discharge regulated hazardous substances such as 
phosphorus and nitrates into their region's watershed would 
result in a more polluted environment and higher costs for 
community water system ratepayers. As Congress celebrates the 
thirty-fifth anniversary of the Clean Water Act, such a waiver 
would turn back the clock to the days of unchecked pollution 
and declining water quality.

    Senator Boxer. Mr. Blackham, Utah Department of Agriculture 
and Food. We welcome you, sir.

STATEMENT OF LEONARD BLACKHAM, COMMISSIONER, UTAH DEPARTMENT OF 
    AGRICULTURE AND FOOD AND NATIONAL ASSOCIATION OF STATE 
                   DEPARTMENTS OF AGRICULTURE

    Mr. Blackham. Madam Chairman, members of the Committee, 
thank you for the opportunity to testify on concentrated animal 
feeding operations and the environmental issues facing 
agriculture.
    My name is Leonard Blackham. I am the Commissioner 
Agriculture for the Utah Department of Agriculture and Food.
    I appear here today to represent the National Association 
of State Departments of Agriculture, NASDA. NASDA represents 
the commissioners, the secretaries and directors of agriculture 
in 50 States and 4 territories.
    We share your commitment to the environment and have a long 
history of being good stewards of the land by implementing 
sound conservation practices. States are partners with the 
Federal Government and the Federal system in protecting the 
environment. For example, a majority of the 50 States' 
departments of agriculture have been the lead agency in 
implementing Federal pesticide laws.
    You may be surprised to hear that half of the State 
conservation agencies are housed within the State departments 
of agriculture. In this capacity, we oversee and implement soil 
and water conservation programs, non-point source water quality 
programs and a variety of other environmental resource 
programs.
    In my State of Utah, we jointly administer the concentrated 
animal feeding operation program in partnership with the 
Department of Environmental Quality and with non-governmental 
partners, all the major commodity groups, Farm Bureau and Utah 
State Extension.
    State agriculture departments have tackled many 
environmental, water quality, food safety and pesticide issues 
before they reach the national attention. In part, this is due 
because we have established a close working relationship with 
farmers and ranchers and a diverse group of local stakeholders.
    In Utah, we have had an amazing success in the CAFO, and I 
think one of the main reasons is that because when a knock 
comes on the door, it is either a farm bureau rep, someone from 
the conservation district or someone from the extension 
service, knocking on the door. We hear them say there is a 
little problem here, but we are here to help you, and it is one 
time when they believe that, that we are here to help. It is 
far different than if it is an EPA staff member knocking on the 
door, saying that there is a problem.
    State-led initiatives and Farm Bill conservation programs 
are providing significant and continuing opportunities for 
major environmental quality protection. Crop and livestock 
producers are among the most dedicated and effective stewards 
of our natural resources because agriculture depends upon the 
continued access of clean water, air and fertile land for its 
vitality.
    USDA conservation programs have increased in addressing 
water quality issues related to livestock operations. The 
Environmental Quality Incentives Program, EQIP, provides 
financial and technical assistance to install and implement 
conservation practices on working agricultural land. The 2002 
Farm Bill, in fact, requires 60 percent of EQIP funds to be 
targeted toward livestock production in this arena.
    EQIP and USDA conservation programs are critical to 
agriculture because meeting new environmental demands is a make 
or break challenge for most producers. Many on-farm 
environmental enhancements are beyond the short term and even 
long term economic payback for producers. For example, many 
conservation practices have high capital and management costs 
but do not generate any additional revenue. Agriculture is not 
organized in a fashion that allows increased costs to be passed 
on to the consumer.
    We have many State programs, and that is included in the 
written testimony, and I will skip that. You can look at that.
    We have provided you with three examples that report--
California, New York and Utah--on the CAFO program. You can 
read that and see some real success stories that are happening 
in the Country with those three examples, and many other States 
have similar success.
    NASDA believes in a market-based approach to agriculture 
environmental protection is more effective. We reach the 
producers. We provide greater environmental benefits, give 
States flexibility to address the most critical problems, 
target resources where most needed on a site-specific basis, 
increase local buy-in to find workable solutions, emphasize 
preventive measures which are more cost-effective and offer 
economic returns, and address the expanding list of emerging 
problems such as carbon emissions and air quality problems.
    A key component of our proposal for the 2007 Farm Bill is a 
new incentive to address agriculture conservation and natural 
resource and environmental priorities through a State 
partnership agreement. We are suggesting a block grant type 
approach to the departments of agriculture to address these 
important issues.
    A strong livestock----
    Senator Boxer. Sir, could you just wrap it up? You have 8 
seconds left.
    Mr. Blackham. You bet. Thank you.
    A strong livestock industry is important to all of us. We 
all enjoy food. We enjoy cheap food in this Country, and we 
don't want to do a program that is going to drive our livestock 
industry outside of this Nation.
    We want to protect the environment, and a partnership with 
the States and with local commodity and organizations and 
farming is the way to do it.
    Thank you.
    [The prepared statement of Mr. Blackham follows:]

    Statement of Leonard Blackham, Commissioner, Utah Department of 
 Agriculture and Food and National Association of State Departments of 
                              Agriculture

    Mr. Chairman and members of the Committee, thank you for 
the opportunity to testify on Concentrated Animal Feeding 
Operations (CAFOs) and environmental issues facing agriculture. 
My name is Leonard Blackham. I am the Commissioner of the Utah 
Department of Agriculture and Food, and I appear here today on 
behalf of the National Association of State Departments of 
Agriculture (NASDA). NASDA represents the commissioners, 
secretaries and directors of agriculture in the fifty states 
and four territories.
    We share your commitment to the environment and have a long 
history of being stewards of the land by implementing sound 
conservation practices. Today, I would like to broadly outline 
the important role that State agriculture departments play in 
environmental protection and describe our efforts and issues 
related to animal feeding operations. The challenge today is 
how to maintain an economically viable and healthy agricultural 
landscape producing the food and fiber on which our country 
depends, while improving the agricultural environmental 
benefits our citizens enjoy. Agriculture provides not only the 
food and fiber of America, but is the largest offset provider 
against human activity. A healthy agricultural landscape 
provides clean air, water and open space.


                 role of state agriculture departments


    States are partners in the Federal system of environmental 
protection. For example, a majority of the fifty State 
departments of agriculture have long been the lead State 
agencies for implementing Federal pesticide laws. You may be 
surprised to hear that about half of the State conservation 
agencies are housed within the State agriculture departments. 
In this capacity, we oversee and implement soil and water 
conservation programs, non-point source water quality programs, 
and a variety of other environmental resource programs. In my 
State of Utah, we jointly administer the program for 
Concentrated Animal Feeding Operations (CAFOs) in partnership 
with the Utah Department of Environmental Quality.
    State agriculture departments often tackle environmental, 
water quality, food safety, and pesticide management issues 
before they reach national attention. In part, this has 
occurred because we have established close working partnerships 
with farmers, ranchers, and a diverse mix of local 
stakeholders. However, the scope and range of our environmental 
activities are rapidly expanding. For instance, major 
initiatives on water quality, including proposals for Total 
Maximum Daily Loads (TMDLs), Concentrated Animal Feeding 
Operations (CAFOs), new Clean Air Act standards, and endangered 
species protection all have a significant impact on 
agricultural activities and individual farm and ranch 
operations. Implementing these new and ongoing regulatory 
activities are placing tremendous demands on State budgets and 
resources in the technical, financial, educational, and 
enforcement delivery system.


      agricultural conservation opportunities and accomplishments


    State-led initiatives and Farm Bill conservation programs 
have provided significant and continuing opportunities for 
major environmental quality protection. Crop and livestock 
producers are among the most dedicated and effective stewards 
of our natural resources because agriculture depends upon 
continued access to clean water, air and fertile land for its 
viability. Many of them have voluntarily adopted 
environmentally friendly practices that have local, regional, 
and even global benefits. However, the public is increasingly 
looking to the agriculture sector to address a growing agenda 
of environmental issuesincluding nonpoint source pollution and 
water quality, water shortages, air quality, urban sprawl, 
animal predation, and invasive species. Other emerging 
challenges include climate change, carbon emissions, pesticide 
use, and biodiversity.
    USDA conservation programs have increasingly addressed 
water quality management issues related to livestock 
operations. The Environmental Quality Incentives Program (EQIP) 
provides financial and technical assistance to install or 
implement conservation practices on working agricultural land. 
The 2002 Farm Bill required that sixty percent of EQIP funds be 
targeted at practices dealing with livestock production. 
Another important provision requires producers who receive 
cost-share money to complete a Nutrient Management Plan (NMP) 
or Comprehensive Nutrient Management Plan (CNMP). The 2002 Farm 
Bill provided an historic funding increase for EQIP authorizing 
$6 billion over 6 years, starting with $400 million in fiscal 
year and increasing to $1.3 billion in fiscal year 6. According 
to USDA, even with increased levels of funding, requests for 
EQIP contracts are exceeding available funding by almost six to 
one.
    EQIP and other USDA conservation programs are critical to 
agriculture because meeting new environmental demands is a 
``make or break'' challenge for producers. Many on-farm 
environmental enhancements are beyond the short-term and even 
long-term economic payback for producers. For example, many 
conservation practices have high capital or management input 
costs, but do not generate additional revenues. Agriculture is 
not organized in a fashion that allows increased costs of 
production to be passed on to consumers. As such, on-farm 
expenditures for conservation compete directly with servicing 
farm debt, and other family financial needs. In addition, 
implementing more stringent and complex standards usually 
increases the need for more costly approaches and technologies. 
Farmers are ready to do their part in accomplishing current and 
future national environmental goals. However, what will be 
expected of a cattle feeder in North Dakota will be quite 
different from the challenges faced by a citrus grower in 
Florida.

    Many State departments of agriculture have begun to move on 
our own to try and fill the gaps in exisiting programs. These 
initiatives have taken different forms in each region of the 
country, reflecting State and regional differences both in what 
our farmers produce and in the most pressing agricultural 
challenges that they face. For example:
     California began implementing a Dairy Quality Assurance 
Program (CDQAP) in the late 1990's to promote public health 
(food safety), animal care and welfare, and environmental 
stewardship. CDQAP is a partnership of government, educators, 
and the dairy industry. For example, the environmental 
stewardship component is designed to assist producers in 
meeting all Federal, state, regional, and local requirements 
related to manure management and water quality. The voluntary 
program provides education about their legal environmental 
obligations, resources, and funding for the certification of 
dairy operations.
     New York has developed the highly successful Agricultural 
Environmental Management (AEM) program. It's principal focus 
has been to provide direct assistance to farmers with the 
technical side of nutrient management planning, followed by 
cost sharing for improvements carried out under plans developed 
with that technical assistance. The primary environmental goal 
has been to assure that their dairy farms, which account for 
more than half of the state's agriculture output, can continue 
to operate within increasingly stringent water quality 
regulations.
     Kansas has focused on pesticide management as a key 
environmental challenge, developing programs to support 
integrated pest management and establishing Pesticide 
Management Areas designed to protect surface and groundwater 
quality.
     The New Jersey Urban Conservation Action Partnership 
concerns itself with the issues that arise when farming 
coexists with urban and suburban development.
     Southwestern states are looking at programs that have a 
large water conservation component.
     Utah has partnered with State agencies, farm 
organizations, commodity groups and others to achieve an 86 
percent succes rate in developing and completing CNMPs for all 
CAFOs in our State.

    Each of these State programs are designed to supplement 
those that already exist to help farmers carry out their 
stewardship function and bear the costs of what we see as 
substantial public benefits: open space conservation, resource 
preservation for future generations, clean air and water. Each 
is voluntary, incentive-based rather than sanction-based, 
designed to address local needs while complimenting existing 
programs, and carried out in collaboration with all Federal and 
State agencies already engaged in local environmental 
management activities.

    NASDA believes that such market-based approaches to 
agricultural environmental protection will be much more 
effective because they would:
     Reach more producers, thus provide greater environmental 
benefits overall;
     Give states flexibility to address their most critical 
problems;
     Target resources to where most needed on a site-specific 
basis;
     Increase local buy-in to find workable solutions;
     Emphasize preventive measures, which are more cost-
effective and offer more economic returns;
     Address the expanding list of emerging problems (i.e. 
carbon emissions, etc.).

    This is a high priority for State departments of 
agriculture and one of our key proposals for the 2007 Farm
    Bill is a bold, new initiative to address agricultural 
conservation, natural resource and environmental priorities 
through State partnership agreements. This new Agricultural 
Stewardship Partnership
    Agreement would be a ``block-grant'' type initiative that 
would give State and local governments more flexibility, 
innovative tools, and resources to implement agricultural 
conservation and environmental priorities.


                 animal feeding operations (cafos) and 
                        waste management issues


    A strong livestock industry is essential to our Nation's 
economy, a healthy and high quality food supply, and the 
viability of our rural communities. Animal Feeding Operations 
(AFOs) and Concentrated Animal Feeding Operations (CAFOs) 
present a number of natural resource protection and management 
challenges. In recent years, animal feeding operations have 
become increasingly consolidated, specialized, and regionally 
concentrated.
    If properly stored and used, manure from these operations 
can be a valuable resource. Applying manure to land can be an 
environmentally sound approach to fertilizing fields. With 
today's technology, manure can also be used in digesters to 
produce electricity and other beneficial by-products such as 
ethanol. If not managed correctly, wastes produced from animal 
operations can impact the environment and human health. We 
believe it is important to address waste management issues and 
water quality impacts in a way that is most appropriate for 
individual operations affected and which can be implemented 
with reasonable cost. States and producers need flexibility.


      state activities and regulation of animal feeding operations


    The Environmental Protection Agency (EPA) has been 
regulating Concentrated Animal Feeding Operations (CAFOs) for 
more than 25 years. In many cases, the states preceded the 
Federal Government in both recognizing and regulating issues 
related to animal feeding operations. Throughout the 1970's, 
1980's and 1990's, a number of states set higher or more 
restrictive standards for CAFOs, usually as a result of local 
issues or information. Some states developed permit programs 
and/or required design criteria for protection of both surface 
water and groundwater. Other states implemented voluntary, 
incentive-based programs with strategies for nutrient 
management. These efforts have been led by State agriculture 
and conservation agencies working together with Federal 
agencies, livestock and poultry industries, land grant 
universities, engineering consultants, scientists, and other 
local stakeholders.
    Both State and Federal CAFO rules have been reevaluated and 
updated over the past several years to keep up with industry 
changes, new technologies, and public perceptions. EPA 
finalized new regulations for CAFOs in 2003 which expanded the 
number of operations covered by the Clean Water Act (CWA) 
permit program to an estimated 15,500 operations. New permit 
requirements were added to include comprehensive nutrient 
management planning, and to extend coverage to include all 
poultry operations of a certain size. EPA is currently revising 
its 2003 CAFO rules to conform to a ruling of the 2d Circuit 
U.S. Court of Appeals in 2005. EPA proposed a revised rule in 
2006, but it has not yet been finalized.
    NASDA supports EPA's proposed 2006 revised rule. Now, the 
State agriculture departments and other agricultural 
stakeholders are anxiously awaiting the agency's final rule. We 
have urged EPA to limit the final rule to the issues addressed 
by the court ruling and to provide more clarity on the 
regulatory obligations of livestock operations. States will 
need time to modify their CAFO programs to conform with the 
final rule. In late July, EPA announced that certain compliance 
deadlines would be extended until February 2009. This is 
helpful and will allow the states and other stakeholders an 
opportunity to adjust to the new requirements.
    Although states have additional time to implement the new 
CAFO program requirements, the changes will create a resource 
and administrative challenge for State agriculture and 
conservation agencies. EPA has estimated that the CAFO 
regulations could result in compliance costs of $850 million to 
$940 million per year.
    States will need to increase our efforts to identify, 
permit and inspect CAFOs. A major challenge is the ability of 
producers and State agency personnel to prepare the thousands 
of new nutrient management plans that will be required under 
the new rule. Livestock operators will need to address multiple 
nutrients in their waste management plans. They will need 
additional technical assistance, education, and training to 
comply with their permits. This creates additional demands on 
the State agriculture and conservation agencies which provide 
technical and financial assistance.
    The key to achieving the national goal of assuring that 
animal feeding operations are managed to protect water quality 
is to provide states with the flexibility and resources to meet 
legal and programmatic responsibilities. We strongly believe 
that programs for managing animal nutrients are most 
appropriately implemented at the State and local level.


                     other environmental challenges


    While environmental improvements are being made, many 
challenges remain and new issues continue to emerge. NASDA 
believes there needs to be more recognition, evaluation and 
research on cross-media impacts from animal feeding operations. 
CAFOs can affect multiple pollutant media streams--soil, water, 
air? which could present management challenges or benefits. For 
example, methane emissions from an animal feeding operation 
could provide a potential energy source.
    Air quality concerns associated with agricultural 
production include odors, ozone precursors, particulate 
emissions, and greenhouse gases. More study is needed. Very 
little science exists for agriculture related air quality 
issues. In fact, agriculture is currently financing $15 million 
in research for EPA to help refine air quality issues.
    EPA and USDA should develop partnerships with State 
agriculture departments to address these issues in a voluntary, 
incentive based way because we will have better success. For 
example, odor is a local issue. Addressing air quality concerns 
is an area of increasing emphasis in USDA conservation 
programs. Livestock producers enrolled in EQIP can receive 
cost-share assistance for installing anaerobic waste digestors, 
which significantly reduce odors. The new Conservation Security 
Program (CSP) provides enhancement payments for action that 
directly benefits air quality, including improving visability, 
reducing near-surface ozone levels, reducing transport of fine 
and course particulates, reducing the potential for airborne 
agricultural chemicals and volatile organic compounds to affect 
human health, and increasing the sequestration of carbon on 
crop, range, and pasturelands.


                 superfund regulation of animal wastes


    Recent lawsuits are threatening livestock and poultry 
operations by potential liability for emissions or discharges 
from manure produced or used in their operations.
    NASDA strongly believes that it was never intended for 
agricultural operations and manure to be regulated under the 
Comprehensive Environmental Recovery, Compensation, and 
Liability Act (CERCLA) or the Environmental Protection and 
Community Right-to-Know Act (EPCRA), which are commonly known 
as Superfund.
    We are pleased that EPA has issued guidance to clarify this 
issue, but urge Congress to pass legislation and confirm that 
agricultural byproducts produced during routine agricultural 
operations should not be subject to the provisions of EPCRA and 
CERCLA. If this clarification is not put into place, farming 
operations of all sizes could be subject to unwarranted 
litigation which would negatively impact their operations and 
the nation's food supply.
    Animal agriculture operations and manure managements are 
already regulated under the Clean Water Act, Clean Air Act, and 
various State laws to protect the environment. These laws and 
regulations provide for permitting, enforcement, and if 
necessary, remediation.
    It is important to note that CERCLA/EPCRA clearly exempt 
the application of chemical fertilizers containing the same 
constituents as manure--orthophosphate, ammonia, and hydrogen 
sulfide--which occur naturally in the environment.
    This is not a large versus small farm issue. CERCLA/EPCRA 
current reporting requirements and liability thresholds for 
non-agricultural releases/emissions of regulated substances are 
quite low. This means virtually any agricultural operation 
producing, storing, and/or using animal manure could be held 
liable under laws. We do not want agriculture to be driven out 
of business or outside our borders by the heavy hand of 
government. CERCLA/EPCRA will only divert critical resources 
away from making agricultural environmental improvements to 
legal pockets.


    state surveys on concentrated animal feeding operations (cafos)


    NASDA's Research Foundation has been conducting periodic 
surveys on CAFOs since 1997 with the latest surveys conducted 
in 2003 and 2005. These surveys were developed to obtain 
detailed information about State efforts to address water 
quality concerns, provide an overview of State requirements and 
regulations, and development of nutrient management plans.
    The surveys show that many states have regulations more 
stringent and/or specific than Federal regulations for CAFOs. 
Most states have required the development and implementation of 
a nutrient management plan for the application of manure, while 
some use a voluntary, incentive-based approach in accordance 
with sound agricultural practices and agronomic rates. Some 
states have developed more inclusive individual permit programs 
and/or required design criteria for protection of both surface 
water and groundwater. Other states have specified additional 
surface water protection based on containment structure 
capacities. A number of states have mandatory training 
requirements for the operation of a variety of animal 
operations. In addition to the Federal EQIP cost-share program, 
many states have their own cost-share programs or a low-
interest loan program for best management practices. Most 
states have required inspections as part of their monitoring 
and enforcement process.
    In 2006, NASDA launched CNMP Watch, a complete web-based 
source for manure and nutrient management planning information. 
This website was designed to help producers in preparing NMPs/
CNMPs and provide all stakeholders with a portal for 
information on Federal and State activities. The website 
address is: www.CNMPWatch.com.


                            recommendations


    As we have emphasized throughout our testimony, states have 
already taken a strong lead in working with and regulating 
animal feeding operations. The Federal Government should 
capitalize on the proven strengths of the State CAFO programs 
by providing funding, guidance, and coordination of resources 
to effectively achieve environmental quality on animal 
operations. NASDA offers the following recommendations to 
enhance our capabilities: $ EPA should provide states with the 
flexibility to account for regional differences in approach and 
should recognize ``functionally equivalent'' State programs 
that meet the National Pollutant Discharge Elimination System 
(NPDES) goals.
     More coordination is needed between EPA and USDA 
regarding components of CNMPs, and other forms of nutrient 
management planning. The CNMP used in the regulatory program as 
a permit requirement must be the same as the CNMP used 
voluntarily by non-permitted AFOs. If two different plans are 
used, the incentive for producers to voluntarily develop CNMPs 
in hope of avoiding the regulatory program disappears.
     Fully fund the EQIP and Section 319 Nonpoint Source 
Management Program. NASDA has long believed that the 319 
program has been severely underfunded. Under the 319 program, 
states receive funds to support a wide variety of activities to 
address nonpoint source water quality issues, including 
technical assistance, education, training, technology transfer, 
demonstration projects, and monitoring.
     Provide and fund additional technical assistance from 
USDA's Natural Resource Conservation Service (NRCS). Thousands 
of CNMPs are currently waiting for technical support to be 
completed.
     Provide more research and funding for water quality data 
and air quality data. Current information and statistics on 
water quality are lacking in completeness and are dated. Very 
little science and data currently exists for agricultural air 
quality issues. More State and Federal funding is needed in 
these areas to get more accurate, science-based data. This 
evolving base of knowledge can be used to provide technical 
assistance and educational assistance to producers. From this 
knowledge, we also know which management practices and 
investments should be supported with financial assistance in 
the form of cost-share payments, loans, and grants.
     Additional research and technology development is needed 
to better understand cross media issues, such as air quality, 
odor, greenhouse gases.
     Congress should approve legislation to confirm that 
agricultural byproducts produced during routine agricultural 
operations should not be subject to the provisions of EPCRA and 
CERCLA.


                               conclusion


    One of the most significant trends in the last decade is 
the growing awareness of nearly all segments of the U.S. 
society in the importance of preserving our land, water and air 
resources. Agriculture--like other business sectors--has made 
substantial investments and taken great strides in protecting 
the environment.
    The challenge today is how to maintain an economically 
viable and healthy agricultural landscape producing the food 
and fiber on which our country depends, while improving the 
agricultural environmental benefits our citizens enjoy. 
Agriculture provides not only the food and fiber of America, 
but is the largest offset provider against human activity. A 
healthy agricultural landscape provides clean air, water and 
open space.
    NASDA urges you to carefully consider agriculture's needs 
as we continue efforts to enhance environmental protection 
while maintaining a viable farm production system. We would 
welcome the opportunity to discuss these critical issues and 
look forward to working with you.

    Senator Boxer. Thank you very much, sir.
    Senator Inhofe and I have been collaborating on how to deal 
with the time problem. We have come up with a plan.
    I would ask the second panelists, is there anyone on the 
second panel who could not come back at 2 p.m.?
    Can you all come back at 2 p.m.?
    That is excellent. So what we are going to do is take the 
rest of our time. We don't have that much left, but we will now 
hear from our final speaker on this panel.
    Catharine Fitzsimmons, Chief Air Quality Bureau, Iowa 
Department of Natural Resources, National Association of Clean 
Air Agencies, welcome.

STATEMENT OF CATHARINE FITZSIMMONS, CHIEF, AIR QUALITY BUREAU, 
 IOWA DEPARTMENT OF NATURAL RESOURCES AND NATIONAL ASSOCIATION 
                     OF CLEAN AIR AGENCIES

    Ms. Fitzsimmons. Thank you. Good morning, Madam Chairman 
and members of the Committee.
    Senator Inhofe. Move it a little closer, if you would, 
please.
    Ms. Fitzsimmons. Thank you.
    My name is Catharine Fitzsimmons, and I am Chief of the 
Iowa Air Quality at the Department of Natural Resources.
    I appear today on behalf of NACAA, the National Association 
of Clean Air Agencies, the association of air pollution control 
agencies in 54 states and territories and over 165 metropolitan 
areas across the Country.
    NACAA's members are responsible for ensuring that our 
citizens breath clean air. We are required under the Clean Air 
Act to develop State implementation plans demonstrating that 
areas attain and maintain the national ambient air quality 
standards. In developing these plans, we analyze every 
important source of pollution, large and small, ranging from 
electric utilities and other industrial sources, from cars and 
trucks to even bakeries and dry cleaners.
    In light of the fact that plan development is a zero-sum 
calculation, our agencies do not have the luxury of ignoring 
any significant sources of air pollution. Accordingly, we are 
troubled by legislative and regulatory efforts to exempt large 
industrial size CAFOs from environmental laws. If CAFOs emit 
air pollutants that exceed permitting thresholds or reportable 
quantities, then just like any other sources of pollution, 
CAFOs should comply with environmental laws.
    Our primary concern is with large industrial scale CAFOs 
that house thousands of dairy cows or beef cattle, tens of 
thousands of swine and hundreds of thousands, even millions, of 
chickens. These facilities are responsible for thousands of 
tons of manure and release in substantial quantities, air 
pollutants such as ammonia, hydrogen sulfide and particulate 
matter that can cause severe health effects including death, 
heart attacks and increased severity of asthma attacks.
    In light of this, it seems obvious that like every other 
industry that has an impact on human health and the 
environment, CAFOs should comply with environmental laws. 
Instead, however, there have been several attempts to exempt 
CAFOs from these important statutes. Let me give you a few 
examples.
    First, EPA entered into an agreement with the CAFO industry 
to fund a monitoring program to obtain emissions data in 
exchange for a safe harbor from Clean Air Act, CERCLA and EPCRA 
requirements.
    The agreement has several major problems. It contains a 
much too broad enforcement waiver. Given the small number of 
farms that are being monitored, the data collected will not 
likely be representative, and there is no assurance that 
participating CAFOs or any CAFOs will be required to reduce 
their air emissions as a result of the agreement.
    Second, we are concerned about regulatory and legislative 
efforts to exempt manure from CERCLA and EPCRA requirements. 
The implications of this exclusion are significant. Emergency 
responders would be prevented from having critical information 
about potentially dangerous releases, EPA or a State could not 
use CERCLA response authorities, and CAFOs would also be exempt 
from any natural resource damages, leaving the financial burden 
of any cleanup on the public.
    Finally, we are concerned about efforts by an industry-
dominated Federal advisory committee of the U.S. Department of 
Agriculture to limit the application of environmental laws to 
CAFOs. For example, last year the committee recommended 
defining the word, source, so narrowly that CAFOs might not 
face any requirements for controlling air emissions regardless 
of the results of the monitoring being conducted under the air 
compliance agreement for AFOs.
    In summary, the well documented adverse health effects and 
substantial levels of air pollutants from CAFOs warrant 
rigorous application of environmental laws to these sources. It 
is exactly such sources that statutes such as the Clean Air 
Act, CERCLA and EPCRA are intended to address.
    Attempts by Congress, EPA and other to exempt CAFOs from 
environmental laws and arguments made in support of such 
exemptions are inappropriate. Instead, CAFOs, like every other 
major industry in this Country, should be expected and required 
to accept their obligations and comply in full with 
environmental laws.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Fitzsimmons follows:]

  Statement of Catharine Fitzsimmons, Chief, Air Quality Bureau, Iowa 
 Department of Natural Resources and National Association of Clean Air 
                                Agencies



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Boxer. Thank you very much.
    We are going to start our questioning. We are going to do 
it the early bird rule, and each of us will have 4 minutes, and 
I am going to try to enforce the rule. Let me start.
    Mr. Blackham, you said at the end that you want to see 
cities and States and counties work together to resolve these 
issues, and I just wanted to pick up on the point because we 
have a list here of the folks who oppose weakening the health 
protections and the polluter pay principles, in other words, 
the people who support the current law. That includes the U.S. 
Conference of Mayors, the National Association of Counties, the 
National Association of City and County Health Officials, the 
American Public Health Association, the National League of 
Cities, the city of Waco, Texas, the city of Tulsa, Oklahoma, 
and it goes on.
    So I just wanted to point out that when we say that we want 
the cities and counties to work in a cooperative way and the 
States, they have already spoken out. I guess that would. lead 
me to a question to Mr. Grumbles.
    I am assuming that you would agree that, say, for example, 
the State of Oklahoma has the right to sue the CAFOs industry.
    Mr. Grumbles. I would agree that they have the right to 
sue. It always depends on what statute or authority you are 
focusing on.
    Certainly, the Agency respects and celebrates the fact, for 
instance, under the Clean Water Act, it is largely the States 
that carry out the programs that we oversee when we provide 
national standards. So throughout our efforts to strengthen 
control regulation over CAFOs and work.
    Senator Boxer. They are suing under Superfund is my 
understanding. Is that right?
    Mr. Grumbles. That is right.
    Senator Boxer. Attorney General Edmondson, suing under 
Superfund?
    Mr. Edmondson. That is one of our causes of action, yes, 
ma'am.
    Senator Boxer. OK, one of them. So I wonder if you could 
talk to us because it is a big step. You are going up against a 
lot of giants, and I would like to know what was the straw that 
broke the camel's back that you decided that you needed to do 
the lawsuit.
    Mr. Edmondson. We began negotiating with the industry in 
November 2001 and went through several years of unsuccessful 
negotiations. During that process, the city of Tulsa also found 
it necessary to file a lawsuit. They negotiated a settlement, 
and the industry began removing 70 percent of the litter out of 
the Eucha/Spavinaw of our watershed that provides drinking 
water to the city of Tulsa.
    Even after doing that, they continued to surface supply in 
the Illinois River watershed and the other watersheds of 
western Arkansas and eastern Oklahoma.
    The straw, if there was one, was simply a loss of patience. 
Every month that we negotiated was another month with litter 
being applied on the land.
    Senator Boxer. What did you hear from the people in 
Oklahoma? Why were they upset about this?
    Mr. Edmondson. They were upset about it in the State of 
Oklahoma for two reasons. One is this watershed is a 
recreational resource, and the water clarity and quality had 
declined dramatically over the last several decades, and the 
other is municipal and rural water districts rely on that 
watershed for drinking water.
    As was mentioned by another panelist, heightened levels of 
chlorine were necessary in order to treat the levels of algae, 
and the more chlorine you use, the more risk you have of 
producing trihalomethanes which are a carcinogen. So it is 
Hobbesian choice for those who want that water to drink. They 
either get it smelling bad and tasting bad or they up their 
risk of cancer.
    Senator Boxer. My last question, because I am running out 
of time, is to Mr. Hirsch. I really appreciated your very clear 
testimony, sir.
    Livestock operations use antibiotics and hormones to 
promote growth and to reduce the likelihood of disease 
outbreaks in areas where animals are tightly packed together. 
Could you describe some of the USGS' findings concerning 
antibiotics and hormones in relation to livestock operations 
and some of the concerns that have spurred USGS to examine 
these pollutants?
    Mr. Hirsch. I think I would prefer to respond for the 
record to that. There is a lot of research. I am not familiar 
with the details of it, and I don't think it would be wise for 
me to try to delve into that at this time.
    Senator Boxer. Do you agree that those antibiotics and 
hormones show up in the waste?
    Mr. Hirsch. Yes, they do.
    Senator Boxer. Thank you.
    All right, Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    First, Ms. Fitzsimmons, one quick question here: Are the 
public health departments in swine-intensive counties reporting 
higher incidents of respiratory problems than public health 
departments elsewhere?
    Ms. Fitzsimmons. I do not have data about every county in 
the State of Iowa or in other areas. However, Wellmark Blue 
Cross and Blue and the University of Iowa have conducted a 
number of health surveys that have annotated that.
    Senator Inhofe. OK, that is fine. I think the answer is no 
on that, but we are on a fast track here.
    Mr. Edmondson, your lawsuits against the poultry industry 
and you are asking the court to define animal waste as 
hazardous waste in 1972 CERCLA, my problem has been that it is 
not confined to the poultry industry, and I think that is the 
reason that the Farm Bureau and the Farmers Union and all the 
farmers are concerned about this. I would like to have you 
explain to us what you think the impact would be on those 
industries.
    Mr. Edmondson. Thank you, Senator.
    Our litigation was confined to the poultry industry.
    I understand the concern felt by the cattle industry and 
others as to the possible future ramifications of our lawsuit. 
I don't think those concerns are valid in regard to cattle that 
graze and cattle droppings in a field. The concentrated feeding 
operations, whether they are bovine or swine, are still subject 
to stricter regulation than animals in a field, and I think 
that will remain the case.
    We are not talking about rodeos. We are not talking about 
parades. We are talking about industrial level generation of 
waste.
    Senator Inhofe. Well, some of the cattle waste, for 
example, has been used very productively in types of fertilizer 
and even some suggestion on energy being produced from these. 
It is concerning to me that the method of disposal, should that 
be declared as a hazardous waste, would be to lose all that, 
which could be an asset. Have you thought about that as being a 
problem?
    Mr. Edmondson. I think it can be an asset, and I don't 
think the result of this lawsuit is going to keep that from 
happening. There are some very exciting ideas about there.
    Senator Inhofe. I hate to keep rushing here. But in the 
lawsuit, and you are a smart, smart lawyer--I know that--is 
there any way that you could construct this thing to somehow 
confine it to the poultry industry or alleviate some of the 
problems that we see, that I see and that you see, I am sure 
too, and as well as our farmers see in Oklahoma?
    Mr. Edmondson. Senator, we would be real happy in the event 
of a successful result to work with the court to make sure that 
the findings are so limited. Whether our lawsuit is successful 
or not, the chemicals are what is listed in CERCLA, and we are 
not going to add chemicals or remove chemicals from what is 
already covered under that statute.
    Senator Inhofe. Thank you. Thank you, sir.
    Mr. Sims, first of all, I wish there was more time. I could 
elaborate on the great loss that we have here, losing Craig 
Thomas. He and I were elected to the House at the same time and 
the Senate, and he served on this Committee, and he certainly 
is ably replaced by Senator Barrasso.
    We have in Oklahoma a program that has been very 
successful. We had a hearing there, and we passed this into 
legislation. It is the partnership program with Fish and 
Wildlife.
    I think you have commented in your written statement how 
successful these programs, the voluntary conservation programs, 
have been. Yet, I think there are probably some on this panel 
who feel that nothing is going to really be done and achieve 
environmental progress unless it is through a very heavy-handed 
regulation.
    I would just like to know your experience and your feelings 
about that.
    Mr. Sims. Excuse me, Madam Chairman.
    Senator, thank you for the opportunity.
    We have seen across the Country that probably one of the 
biggest issues in this whole subject that we are talking about 
today is just the lack of understanding of the existing rules 
and regulations that are in place.
    In many States across the Country, they already, the States 
themselves, the State environmental agency has more stringent 
regulations than the Federal Government, not in all States but 
in some States. And so, the States, a lot of them, have already 
been ahead of the curve on a lot of this.
    But you have got some smaller operations that, even though 
they fall under this threshold of the numbers that we talked 
about of whether it is livestock or chickens or whatever, for 
the fact that they have had facilities that are built on live 
streams, like our grandfathers did years ago when they settled 
our part of the Country. Even though they are a small 
operation, they still meet the technical criteria of 
unacceptable conditions. That throws them under this CAFO 
definition.
    So through voluntary efforts and education, we have been 
able to educate those folks and really make a lot of change out 
there on the ground to improve the water quality issue.
    Senator Inhofe. Thank you, Mr Sims.
    Senator Boxer. Thank you, Senator Inhofe.
    Senator Carper.
    Senator Carper. Thank you, Madam Chair.
    When I was the Governor of Delaware, we wrestled with, as 
most States did, what to do about welfare, how to make sure 
people got off welfare and were better off. We wrestled with 
how do we reduce incidents of teenage pregnancy. We wrestled 
with what do we do with agriculture runoff for years and years, 
and folks would clean out their chicken houses and simply use 
the litter as fertilizer on their fields.
    What we did on welfare is we brought together a lot of 
folks who received welfare and said: You know this is not a 
good system. What can we do to make it better?
    For teen pregnancy, we brought in teenagers from high 
schools all over our State and asked them to help us figure out 
what we ought to do on teenage pregnancy.
    With respect to reducing agriculture runoff, really from 
chicken litter, we pulled together all kinds of farmers, 
environmentalists from our State. The EPA was good to 
participate. State offices were good to participate, Natural 
Resources and so forth, Department of Ag.
    We said: Help us figure out what to do about this problem. 
We know there is a problem, and we can't keep going on this 
way.
    We came up with the idea of requiring nutrient management 
plans to be developed and adopted for most of our significant, 
actually almost any animal operation of any size, and to train 
the folks, the farmers from those, whose nutrient management 
plan was adopted for their farm, to train them how to use it, 
how to implement it.
    It is now enforced. It is enforced by the Department of 
Natural Resources, Department of Agriculture, and even the EPA 
from time to time will come by and get after somebody who needs 
to be gotten after. So this is something we have thought a 
whole lot about.
    We have, in Delaware, 300 chickens for every person who 
lives in my State. So we have a fair amount of chicken litter. 
We have worked very hard for actually the last six or 7 years, 
and I am real proud of what we have done.
    While I am not interested in completing exempting every 
animal feeding operation, certainly in Delaware or other 
places, from Superfund, I am interested in figuring out how do 
we provide some certainty, some protection that I would call 
the good actors as opposed to the bad actors.
    If we wrote legislation here that clearly defined the 
normal application of fertilizer to be the use of a certified 
nutrient management plan, would that provide the peace of mind 
that the good actors are looking for and without exempting 
improper management from their liability?
    That is my question. Let me just ask a couple of you to 
respond to it, if you will, starting with Mr. Grumbles, if you 
would share your thoughts on that question.
    Attorney General Edmondson, welcome. We are glad you are 
here. Thanks for coming.
    Mr. Sims, I was interested in asking you what size jacket 
you wear. I mean we would like to sign you up to play football 
for the University of Delaware.
    [Laughter.]
    Mr. Sims. Is there a signing bonus?
    Senator Carper. And Commissioner Blackham, we would like to 
ask you to respond. If the four of you would take a shot at 
that, I would be grateful and just try to be succinct, if you 
will. Thanks.
    Mr. Grumbles. Very succinctly, Senator, right now one of 
EPA's highest enforcement priorities is on the bad actors at 
CAFOs across the Country. That is one of our national 
priorities, enforcement priorities. So, like you, we want to 
focus on going after the bad actors and also encouraging and 
working with good actors.
    In terms of the legislation, we are happy to work with you 
on that and look for ways to make progress.
    A key for us is to advance the ball on nutrient management. 
One of the things you mentioned is a very positive one, and 
that is looking for incentives, which we are also doing with 
USDA, on getting CAFOs and AFOs across the Country to develop 
comprehensive nutrient management plans and nutrient management 
plans under the Clean Water Act regulatory program. We think 
that is the key to reducing nitrogen, phosphorus and other 
types of pollutants.
    Senator Carper. Thank you.
    Senator Boxer. Senator Carper, because of the time, we are 
really going to have to move on. Do you want to pick one other 
person to be brief on that question?
    Senator Carper. The attorney general.
    Mr. Edmondson. Thank you, Senator Carper, and I will be 
brief.
    We have best management practices in Oklahoma, and I don't 
think any farmer is violating those.
    The problem is the other half of the statute says that in 
no event shall surface application result in runoff, and that 
is what is happening. I think it would be very difficult to 
craft a statute that says you can apply at industrial levels 
and guarantee no runoff into the water.
    Senator Carper. If I could, Madam Chairman, I would like to 
ask Mr. Sims and Commissioner Blackham to respond for the 
record, please.
    Senator Boxer. Would you do that, respond for the record?
    Thank you.
    Senator Boxer. Senator Barrasso, you have been very 
patient.
    Senator Barrasso. Thank you, Madam Chairman.
    I am very pleased to have Olin Sims here today to testify 
on behalf of the National Association of Conservation 
Districts.
    Senator Carper, we have a lot more like him at home, and we 
would be happy to find a place on our football schedule for 
anyone from Delaware.
    Senator Carper. We don't want to play you guys.
    [Laughter.]
    Senator Barrasso. We did beat the University of Virginia 
this last weekend, 23 to 3, so it was a great weekend in 
Wyoming.
    Senator Boxer. Well, Cal beat Tennessee, if we really want 
to get into it. I was at the game, but let us go on.
    Senator Barrasso. That is good.
    [Laughter.]
    Senator Barrasso. Well, Mr. Sims' family runs a cow-calf 
operation, Madam Chairman, in south central Wyoming. From his 
experience on the ranch, as well as from his years of elected 
service on the Conservation District Board, he understands the 
challenges that livestock producers face on a yearly basis.
    Many families in Wyoming run operations and elsewhere. They 
are concerned about how confined animal feeding operation 
regulations are going to impact their future. So Wyoming 
ranchers are concerned that expanding CAFO regulations are 
going to change their lives forever and not for the better.
    Wyoming ranchers fear that as urban areas encroach upon 
rural communities across the West, that conflicts will grow and 
well funded special interest groups will force them to spend 
their hard-earned money in courtrooms rather than improving 
their land or investing in the future of our State. So they are 
frustrated by the refusal of so many to acknowledge that people 
who live and rely on the land for economic survival are often 
the best stewards of the land as we have seen time and time 
again in Wyoming.
    After reading Mr. Sims' testimony, I have to say I am 
impressed by the efforts of our producers and by the 
conservation districts to improve the situation by doing it 
voluntarily and with incentives. I believe that their approach 
has been extremely successful, and their use of EQIP funds has 
been equally impressive.
    As we listen to the testimony today, I hope all of us will 
remember that there are a lot of good things that are happening 
in America's agriculture community and that pursuing a one size 
fits all solution is, in fact, not a solution at all.
    Mr. Sims, I would like to ask you to talk about the 
importance of flexibility, allowing States to have more 
responsibility to build their own successful programs and to 
tailor programs for the unique circumstances that each State 
develops individually.
    Mr. Sims, please.
    Mr. Sims. Madam Chairman, members of the Committee, Mr. 
Barrasso, thank you very much.
    I completely agree. I think the Federal Government, the 
regulatory agencies have a responsibility to set the goal, to 
set the environmental regulation that we need and then allow 
the States then to find the approaches, the best approaches 
that fit each area because we have got areas of the semi-arid 
West and Southwest.
    Then we go to the South, the North Carolina folks that are 
dealing with hurricanes, and we go to New York, the State of 
New York, where they have 300 inches of snow. So we can't find 
the cookie cutter type regulation that is going to address all 
of these issues.
    Let the Federal Government establish the goal. Let us 
figure out to achieve it. Yes, there needs to be consequences 
along the line, but there is a lot of good work on the ground.
    I don't know that we need new regulation. We need to better 
implement what we have right now to look at new technologies. 
Conservation technical assistance is key. We need to make sure 
that the Federal Government funds NRCS to an appropriate level, 
to have producers out on the ground who work, excuse me, to 
have field technicians out on the ground to work with 
producers.
    Producers want to do the right thing. Sometimes they just 
don't know what they need to do.
    Senator Barrasso. Thank you, Mr. Sims.
    No further questions. Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Senator, one thing you said struck me because there already 
is an exemption in the law for the normal application of 
fertilizer. I just want to make sure you were aware of that.
    The next on our list is Senator Lautenberg.
    Welcome, sir.
    Senator Lautenberg. Thank you, Madam Chairman.
    Coming from a State like New Jersey, these problems aren't 
quite as apparent. But, of course, we are, in this Committee 
and in this body, very much interested in reducing risks to the 
population from wherever it comes.
    Oddly enough, the subject of waste removal here today 
accompanies a statement that was made on television this 
morning about what happens with ship exhausts, one ship 
producing more in a day than 365,000 cars. So we are 
overwhelmed by excessive pollution coming from all kinds of 
sources.
    Mr. Edmondson, if we were to exempt factory farms from the 
authority of Superfund, would that not result in costs being 
passed along to the taxpayers?
    Mr. Edmondson. I think it would result not in only costs 
going to the taxpayers. That is assuming that States or the 
Federal Government engage in cleanup of the mess. The 
alternative is untreated, uncorrected destruction of our 
environment and our waters.
    Senator Lautenberg. If we did that, it would remove any 
incentive for these farms to reduce pollution from waste on 
their own. If we took it away from Superfund and had to pass 
other costs along, I don't know that we would get the 
cooperation that we need to solve some of these problems.
    Madam Chairman, in the interest of time, I am going to ask 
that other questions that I have be able to be submitted for 
the record. The record, I assume, will be kept open for that 
purpose.
    Senator Boxer. Yes, in fact, it will.
    Senator Lautenberg. Thank you.
    Senator Boxer. Senator Bond.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Madam Chair, thank you very much for giving 
us an opportunity in this format. I regret that I have 
commitments in the Intelligence Committee this afternoon and 
will not be able to join you. We have a witness from Missouri 
on the second panel. I will have some questions for her.
    Some of you may know that Missouri is home to extensive 
beef, hog, poultry and dairy farms and ranchers providing the 
food and dairy products for the Nation. We have a comprehensive 
set of laws with which they must abide, and Mr. Blackham's 
comment on pollution control through cooperative efforts 
reflects precisely what is going on in Missouri.
    You can be very proud of what you are doing in your State 
and the other States. We have found that that works. I am very 
proud of our Missouri farmers and ranchers who make an honest 
living by playing by the rules to bring us nutritious and 
affordable beef, pork and poultry products.
    As I mentioned, Chris Chinn from Emden, Missouri, will be 
testifying on the second panel. She is an example of the future 
of agriculture. I would note that the 2004 Missouri Farm Bureau 
Young Farmers and Ranchers Achievement Award went to Mrs. 
Chinn, and I am grateful for her willingness to come and share 
with us how she and her husband manage their hog farms and 
their parents' sow farrow-to-finish operation, respecting the 
environment and providing high quality pork products.
    The Chinns and farmers in Missouri and across the Country 
have to follow a host of Federal and State Clean Water 
permitting nutrient management plan requirements, and they do 
so with pride. Together with their partners at the district, 
State and Federal level, they ensure adequate storage of 
manure, litter and wastewater. They ensure that clean water is 
diverted from production areas. They prevent contact between 
confined animals and waters.
    They ensure that chemicals handled onsite are not disposed 
of in any manure. They identify site-specific conservation 
practices to implement, including buffers and controlled runoff 
of pollutants into waters, and they establish protocols for 
applying their manure in accordance with site-specific nutrient 
management practices. Our universities have been in the lead in 
helping with the Federal agencies, the development of those 
standards.
    After EPA's coming CAFO rule is finalized, plans to apply 
these requirements will be open for public comment and 
contained in enforceable permits. That is an example of working 
together in partnership, which I support, and I support 
strongly punishing those who violate the law. We have the laws, 
and we have an obligation to protect the environment. When 
mistake are made, penalties must be paid and problems fixed.
    What I do not support are efforts by some in Congress and 
certain groups to misuse our laws in ways never intended such 
as applying the Superfund Law intended for toxic industrial 
waste pollution instead to farmers and agriculture.
    For organic farmers who use manure as a fertilizer, this 
would mean that their food products would come from a Superfund 
site. Would they have to disclose that?
    The result of such a strategy seen here today in Oklahoma's 
lawsuit is litigation gridlock with endless court motions and 
no resolution. They don't improve the environment. Efforts to 
pay bounty contingency fees to trial lawyers bringing charges 
of violating the public trust and creating conflicts of 
interest by giving a financial interest to lawyers who may have 
given campaign contributions, that is not the way to improve 
the environment.
    Supporters of Superfund abuse try to deny their efforts 
will hurt farmers. They neglect to mention that Superfund 
strict liability schemes makes anyone who contributes anything 
to the situation, no matter how small, liable for the entire 
cost of cleanup and, yes, it would apply to rodeos and parades.
    Madam Chair, the vote has started. We are out of time. I 
thank you, and I ask unanimous consent to submit the rest of my 
statement and the questions for Mrs. Chinn for the record.
    Senator Boxer. Absolutely, Senator Bond.
    [The prepared statement of Senator Bond follows:]

       Statement of Hon. Christopher S. Bond, U.S. Senator from 
                         the State of Missouri

    Thank you Madame Chairman for holding this hearing on 
animal feeding operations. You may know that Missouri is home 
to extensive beef, hog, poultry and dairy farms and ranches 
meeting the needs of families across the Nation.
    I am so proud of our Missouri farmers and ranchers who make 
an honest living playing by the rules to bring us nutritious 
and affordable beef, pork and poultry products.
    Chris Chinn, from Emden, Missouri, is an example of the 
future of agriculture. I am grateful to her for sharing with us 
how she and her husband manage their hog farm and their 
parents' sow farrow-to-finish operation with respect for the 
environment.
    The Chinns and farmers and ranchers across the country must 
follow a host of Federal and State clean water permitting and 
nutrient management plan requirements, and they do so with 
pride. Together with their partners at the district, State and 
Federal level they:
    -ensure adequate storage of manure, litter and wastewater,
    -ensure that clean water is diverted from production areas,
    -prevent contact between confined animals and waters,
    -ensure that chemicals handled onsite are not disposed of 
in any manure,
    -identify site-specific conservation practices to implement 
including buffers to control runoff of pollutants into waters, 
and
    -establish protocols for applying their manure in 
accordance with site-specific nutrient management practices.
    After EPA's coming CAFO rule is finalized, plans to apply 
these requirements will be open for public comment and 
contained in enforceable permits. This is an example of working 
together in partnership to manage the land, which I fully 
support.
    I also fully support punishing those who violate the law. 
We all have an obligation to protect the environment. When 
mistakes are made, penalties must be paid and problems fixed.
    What I do not support are efforts by some in Congress and 
certain groups to misuse our laws in ways never intended, such 
as trying to apply the Superfund law intended for toxic waste 
and industrial pollution instead to farmers and agriculture.
    The results of such a strategy seen here today in 
Oklahoma's lawsuit is litigation gridlock with endless court 
motions and no resolution. That does not improve the 
environment. Efforts to pay bounty contingency fees to trial 
lawyers bring charges of violating the public trust and 
creating conflicts of interest by giving a financial interest 
to lawyers who may have given campaign contributions. That is 
not the way to improve the environment.
    Supporters of Superfund abuse try to deny that their 
efforts will hurt small farms. They neglect to mention that 
Superfund's strict liability scheme makes anyone who 
contributed anything to the situation, no matter how small, 
liable for the entire cost of cleanup.
    This provision has already bankrupted countless small 
businesses caught up in toxic dump cases. I refuse to condemn 
farmers to that fate.
    Supporters of Superfund abuse try to cite provisions of the 
Superfund law to support extending it to farms. However, they 
do not recite the provisions they could be violating by 
diverting recovered funds, which the law requires must go 
solely to clean up and restoration, instead to trial lawyers 
working on contingency they hired to pursue their suits.
    We in the Heartland know that farmers overwhelmingly are 
great stewards of the land. They share our commitment to 
protecting the environment. We thank them for their commitment 
to providing affordable, abundant, and nutritious beef, pork, 
poultry and dairy products.
    Thank you.
    Senator Boxer. I want to put in the record an article from 
the Kansas City Star: Neighbors Say Nearby Dairy Farm 
Contaminates Their Wells With Manure. I want to put that in 
because I think sometimes we get off into the weeds of 
jurisdiction and argument.
    [The referenced article can be found on page 150.]
    To me, it has always been what is the real facts on the 
ground. What happens to our people? What is their quality of 
life?
    I think we need to balance. I come from the largest 
agricultural State in the Union. People seem to forget that. We 
do have Hollywood and Silicon Valley, but we are the No. 1 ag 
State.
    So we have to balance all of our needs, but there is no 
reason why we can't balance a clean and healthy environment 
with a prosperous, growing industry if people just had some 
sense of corporate responsibility because we are not talking 
about a few chickens. We are talking about some farms that have 
up to a million animals, and these folks don't live on the 
land. That is why I think we have to make a distinction between 
the people Senator Barrasso was so eloquent about and these 
huge, large scale operations.
    This panel has been terrific. You have all brought your 
expertise.
    We will leave the record open, and we look forward at 2 to 
hearing from panel two.
    Senator Carper. Madam Chair, just one last thing.
    Senator Boxer. Yes, yes.
    Senator Carper. Several of our witnesses talked about 
things we can do in a technological way.
    Senator Boxer. Yes.
    Senator Carper. One of the things we are proudest of in 
Delaware--I just visited it recently--is the folks from Perdue, 
Jim Perdue, who is actually a marine biologist and runs the 
Perdue poultry company, and the State of Delaware teamed up in 
a partnership to take about 10 to 15 percent of all the chicken 
litter off of the DelMarVa Peninsula and to pelletize it and 
sell it as a fertilizer, organic fertilizer all over the 
Country. That is the kind of solutions that are part of the way 
out of this as well.
    Senator Boxer. Absolutely, Senator, I believe you are 
right, that we can protect the health of the people and still 
grow our economy. That always comes down to where I am at.
    So I thank you very much.
    We stand in recess, actually, until 2.
    [Recess.]
    Senator Boxer. The Committee shall come to order.
    I want to thank Senator Inhofe for his very good suggestion 
that we work on this panel this afternoon. I really do 
appreciate our terrific witnesses waiting around, and I hope 
that you had some enjoyable lunch or chat.
    So why don't we just get started?
    Each of you will have 5 minutes. We will start with Chris 
Chinn, Farmer, American Farm Bureau Federation.

    STATEMENT OF CHRIS CHINN, FARMER, AMERICAN FARM BUREAU 
                           FEDERATION

    Mrs. Chinn. Thank you, Chairman Boxer, and I would like to 
thank the entire Committee for allowing me to speak today.
    My name is Chris Chinn, and I am the Young Farmers and 
Ranchers Chair for the American Farm Bureau Federation. I also 
serve on the Board of Directors for the American Farm Bureau 
Federation.
    My husband, Kevin, and I are fifth generation farmers, and 
we raise hogs along with other family members in northeastern 
Missouri. Kevin and I are also raising the sixth generation of 
family farmers. We have two young children. Their names are 
Conner and Rachelle.
    Kevin and I actively support our local Lions Club, our 
county fair, our church, and we are active in our community 
with other civic and youth organizations. I also serve on the 
Board of Directors for the YMCA, and Kevin and I are both very 
active in our local and State Farm Bureaus.
    Some Americans have a very nostalgic view of what they 
think agriculture should be. They think that we should raise 
our animals the same way that farmers did 50 years ago, but 50 
years ago life on the farm was a lot harder, harder for the 
farmer, harder for the farm family and harder on our hogs.
    As recently as 30 years ago, my family raised hogs in what 
people call a traditional manner. Our hogs were not protected 
from the weather, diseases or predators. But, today, our hogs 
are housed in climate-controlled facilities. This allows us to 
not only raise our hogs, but it also allows us to protect our 
environment.
    Our farm is a family farm. Our parents, our siblings and 
our children live and work there. Many people would say that we 
are big farm. While my family farm may fulfill the perception 
of a big farm in terms of size, my family cares about the 
environment, we care about our community, and we care about our 
animals.
    We follow and, in fact, many times, often go above and 
beyond Federal and State rules and regulations. My family has a 
comprehensive nutrient management plan as well as an 
environmental management system in place on our farm. Together, 
they ensure quality continued improvements as well as 
protecting our environment and our community.
    We monitor daily rainfall, we test our soil, and we use 
best management practices. This is only a very short list of 
the many things that we do to protect our environment and keep 
our farm productive.
    In fact, I am so certain that the air and water around my 
farm is clean that Kevin and I recently built a home within 200 
yards of our water treatment lagoon. Visitors to our farm and 
my home think that the pretty patch of water out back is a 
pond. They don't know it is my lagoon unless we tell them.
    My kids' favorite place to be on our farm is inside our hog 
barns, working beside their dad, and I feel that environment is 
just as safe as their schools. When they are in our barn----
    Senator Inhofe. Let me interrupt to point out to everyone 
who is here that we are showing some of these charts of your 
farm that you are talking about, so it gives a little visual 
for your presentation.
    Mrs. Chinn. Thank you, Senator.
    As I said, my kids' favorite place to be is inside the 
barns, working with their father. They learn great, valuable 
lessons about how to care for our animals and all the 
intangible ethics that come from growing up on a farm.
    I know that that environment inside our buildings, as you 
can see, is just as safe and clean as it can be. We have 
computer-controlled ventilation systems that ensure healthy 
air.
    But Kevin and I are not alone in protecting our 
environment. We know many farmers across this Country who care 
for their land, their environment and their animals in the same 
manner that we do. This Country is very diverse with livestock 
operations, but the one thing that we all have in common is our 
desire to protect our environment.
    American farmers and ranchers produce the most safe and 
abundant supply of food in this world, and I hope that I never, 
ever see a day when the majority of our food comes from China 
like my children's toys do today.
    American farmers produce a safe and abundant supply of 
food, and it is dependable from farm to fork, and it is also a 
system that protects our environment.
    Finally, please do not assume that just because my family 
farm may be big, it must be bad. Our farm supports multiple 
family owners representing five different families. We employ 
40 people, not to mention all the other farmers who we work 
with in our community. We purchase all of our grain locally 
from our local farmers. That creates another market for their 
corn.
    When you consider enacting new legislation or rules and 
regulations upon us, please keep in mind the impact that these 
rules and regulations will have on farmers like me, the 
communities that we represent and the other farmers that we 
support because without farmers, my rural community will die.
    Thank you for the opportunity to be here today.
    [The prepared statement of Mrs. Chinn follows:]

   Statement of Chris Chinn, Farmer, American Farm Bureau Federation

    The American Farm Bureau Federation (AFBF) respectfully 
submits our views to the committee as it reviews the impact of 
Confined Animal Feeding Operations (CAFOs). As the Nation's 
largest general farm organization and the representative of 
millions of farmers and ranchers in every State in the Nation, 
AFBF has a vital interest in how animal care issues affecting 
our members are perceived, examined and decided.


                                overview


    Many people outside of agriculture and the livestock 
industry have concerns about the environmental and health 
impacts of livestock operations. Some have gone so far as to 
demonize livestock operations, calling them factory farms and 
industrial livestock production. In fact, many of these 
livestock farms continue to be family owned and operated. 
Contrary to anti-livestock rhetoric, this nation's livestock 
industry is proficient at producing safe and abundant food 
while protecting our natural resources. The industry is highly 
regulated and farmers often surpass requirements when 
fulfilling their roles as caretakers of the environment and 
good citizens of their communities.
    It is often overlooked, but the vast majority of farmers 
who operate CAFOs are involved in a family based business, are 
highly educated college graduates, community leaders, and 
experts in science and technology. Most are trained in humane 
animal husbandry and environmental sciences and spend great 
amounts of time, money and other resources ensuring that their 
operations do not harm the environment. More good news is that 
the efficiency of livestock production in the United States 
ensures Americans can purchase beef, pork, eggs, turkey, 
chicken and milk that is safe, nutritious and affordable. 
Providing meat to the United States and international markets 
also supports hundreds of thousands of jobs on farms, in rural 
communities, and in value-added food chain facilities 
nationwide.
    Livestock production helps drive our bedrock agricultural 
economy in the United States with receipts annually on par with 
crop receipts. This means that the total value of cattle, hog, 
sheep, broiler, turkey, egg, milk, butter, cheese, honey, and 
farm-raised fish sales is roughly equivalent to the dollars 
generated from selling wheat, corn, rice, hay, cotton, 
soybeans, peanuts, tobacco, fruits, nuts, vegetables, and 
greenhouse/nursery crops. Typically, cattle and sheep 
production has been located in areas where crop production is 
not economically practical, thus making efficient use of land 
resources that would otherwise lack an economic use. Hog, 
dairy, poultry, and egg production has historically been co-
located with crop production to make the most efficient use of 
crop production and crop aftermath. This co-location continues 
today, with livestock operations locating near biofuels 
production and making highly efficient use of the by-products 
of ethanol production.
    Livestock farms and ranches employ hundreds of thousands of 
workers, providing rural residents with jobs and benefits that 
would otherwise not exist. In the hog business alone, Iowa 
State University researchers estimate more than 34,000 full-
time jobs are directly attributable to farm-level production, 
with more than 110,000 additional jobs in the processing/
packing sector. In the cattle industry, the American Farm 
Bureau Federation estimates more than 23,000 employees work in 
feedyards alone. America's livestock producers work hard, not 
only to feed their own families, but the families of thousands 
of others whose livelihoods depend on producing and processing 
livestock and meat products. By virtue of feed they purchase 
for their livestock, these farmers also are supporting farmers 
involved in crop production.
    America's livestock producers face generally low profit 
margins. They must watch expenses closely, so economics as well 
as science ensures they make judicious decisions when it comes 
to the use of livestock inputs. They consider carefully the 
impact of their activities on not only the quality of the end 
product, but on the quality of life of the livestock under 
their care.
    America's livestock producers are the most efficient 
producers in the world, providing safe and wholesome meat, 
poultry, egg, and milk products despite regulatory burdens that 
far exceed those faced by their competitors in Asia and South 
America. Here in the United States, feed and other inputs cost 
more, labor costs more and is less available, yet despite this, 
our nation's innovative farmers and ranchers still produce 
among the best and safest all-around product in the world. That 
being said, this cannot continue indefinitely. Many operations 
are near the tipping point where needless regulation that 
accomplishes no real environmental or food safety goal will 
drive them out of business. Additional regulation means dollars 
out of the pockets of farmers and ranchers, pure and simple. 
While other facets of our economy simply pass along costs such 
as these, farmers--independent livestock producers in 
particular--do not have this option. The vast majority of 
farmers are price-takers, rather than price-setters, in our 
economic system. While America's livestock producers recognize 
the need for adequate regulations to ensure environmental 
quality, food safety and other science-based endeavors, they 
increasingly find their livelihoods threatened by government 
regulations that cross the threshold of common sense in 
attempts to address any number of perceived societal ills.
    The population of the United States passed 300 million 
people in 2006. Many demographers predict that number will 
exceed 400 million by 2040. A sober question that must be asked 
is ``how will we feed one-third more people in just 35 more 
years?'' A short and equally sober answer would be ``not from 
domestic food production if irrational regulations shift 
production of meat, milk, poultry, and eggs outside the United 
States.''
    If Americans are concerned about the environmental impacts 
of agricultural production and the safety of their foods and 
beverages, the Nation would be well-served to preserve food 
production here at home. Our nation has the best environmental 
and food safety protocols in the world. Recent concerns about 
the safety of imported foods point out the simple fact that if 
we make it so hard and cost-prohibitive for America's farmers 
and ranchers to stay in business, our nation will be forced to 
import a larger portion of our food. We will import most of 
that food from nations which have significantly fewer 
environmental, food safety and labor safeguards. Simply put, in 
a misguided effort to stamp out problems here at home that are 
either marginal or do not exist, we will create larger problems 
that are arguably more serious.


                            clean water act


    CAFOs are regulated by the Clean Water Act. They must 
either have zero discharges, or obtain a National Pollutant 
Discharge Elimination System (NPDES) permit. Contrary to the 
assertions of some, it would be incorrect to presume that all 
or even most CAFOs experience actual discharges to navigable 
waters. The evidence clearly demonstrates that CAFOs as a class 
cannot be presumed to be discharging, that the vast majority of 
CAFOs do not discharge, and that the probability is extremely 
high that a majority of CAFOs will never have a discharge in 
the future.
    Livestock producers whose operations are classified as 
CAFOs, however, are highly regulated with some of the most 
stringent fines and enforcement actions available under the 
Clean Water Act. As with any regulated group, there are events 
and actors that cause a catastrophic failure of the regulatory 
system, and they must always be dealt with swiftly and in full 
accordance with the law. Spills and discharges can occur, but 
in spite of the rhetoric of anti-livestock groups, they are not 
the norm and do not represent the practices of the overwhelming 
majority of livestock producers.
    In particular, we note that any animal feeding operation 
(pork, poultry, beef, dairy or horse) of almost any size faces 
potential enforcement and severe penalties for even a single 
discharge from the operation to waters of the United States. 
This was not the case (and was certainly not perceived to be 
the case) prior to EPA's 2003 CAFO rule. Perhaps even more 
important is that the 2003 rule extended CWA protections to the 
application of manure to CAFO lands. Under this change, the 
application of manure to these lands without appropriate and 
documented agronomic and conservation best management practices 
would make any resulting storm water runoff of pollutants to 
waters of the United States a CWA ``discharge'' potentially 
subject to substantial penalties.
    These changes are monumental shifts in the Federal policies 
and regulations that govern animal feeding operations. They 
have created substantial and effective incentives for CAFOs to 
prevent any discharge from CAFO production areas and to use 
sound and effective manure application practices in land 
application areas. They represent substantial improvements in 
water quality protection. Moreover, these benefits will be 
realized even for CAFOs that do not need a Federal NPDES 
permit. This is a sound policy outcome because certain aspects 
of the Second Circuit Court of Appeals Waterkeeper ruling will 
make the permitting process for CAFOs that do seek permit 
coverage more bureaucratic, more cumbersome, and less adaptable 
to changing operational circumstances.


                       nutrient management plans


    EPA's CAFO rule will require every permit to include a 
nutrient management plan. These plans contain management 
practices and procedures necessary to implement applicable 
effluent limitations and standards. NMPs will:

     Ensure adequate storage of manure, litter, and process 
wastewater, including procedures to ensure proper operation and 
maintenance of the storage facilities;
     Ensure proper management of mortalities (i.e., dead 
animals) . . . ;
     Ensure that clean water is diverted, as appropriate, from 
the production area;
     Prevent direct contact of confined animals with waters of 
the United States;
     Ensure that chemicals and other contaminants handled 
onsite are not disposed of in any manure, litter, [or] process 
wastewater . . . ;
     Identify appropriate site-specific conservation practices 
to be implemented, including as appropriate buffers or 
equivalent practices, to control runoff of pollutants to waters 
of the United States;
     Identify protocols for appropriate testing of manure, 
litter, process wastewater, and soil;
     Establish protocols to land apply manure, litter or 
process wastewater in accordance with site specific nutrient 
management practices that ensure appropriate agricultural 
utilization of the nutrients in the manure, litter or process 
wastewater; and
     Identify specific records that will be maintained to 
document the implementation and management of the minimum 
elements.

    These provisions require (1) minimization of phosphorus and 
nitrogen transport from the field to surface waters through 
land application rates; (2) annual testing of manure for 
nitrogen and phosphorus content and 5-year testing of soil for 
phosphorus content; (3) periodic inspection of land application 
equipment; and (4) land application setbacks from waters or 
vegetated buffers.


                               innovation


    Beyond design and engineering of adequate structures to 
perform waste management, livestock producers today are 
employing new methods to reduce nutrients in a CAFO's internal 
waste stream. Modifying animal diets to reduce nutrient 
excretion and improvements in biological, physical, and 
chemical treatment processes for manure and wastewaters can 
reduce the acres of land needed to utilize manure nutrients. 
Furthermore, byproduct recovery processes are being developed 
that can transform waste into energy and other value-added 
products to be marketed off the farm. Additional management 
practices include costly and burdensome requirements like the 
daily inspections of water lines, weekly inspections of storm 
water and runoff diversion devices, and manure, litter or 
process wastewater impoundments, and maintenance of records 
documenting these daily and weekly inspections.


                          two-tiered assurance


    Existing data have established the fact that the vast 
majority of CAFOs do not discharge and should not be presumed 
to discharge.
    The major livestock, poultry and egg producing states have 
State regulatory programs that involve permitting requirements. 
Under these programs, many states keep records of manure 
releases or discharges from livestock operations. Some also 
have strict requirements that CAFOs report not only 
``discharges'' to the waters of the State or U.S., but also 
other types of permit violations, as well as manure spills, 
releases, or other incidents regardless of whether they involve 
waters of the U.S. Some of these states actively accept and act 
on public complaints about incidents, releases, or violations 
and they record the complaints and the actions taken in 
response. Some of these states require each regulated CAFO to 
have a periodic visit from a State regulator/inspector to check 
compliance.
    The scope, extent and consistency of these publicly 
available release or discharge records have grown extensively 
since the late 1990's. While there are differences in the 
information collected and reported; there is a sufficient 
quantity and quality of information available to indicate just 
how rare CAFO discharges to waters of the U.S. really are. 
Professor Terence Centner of the University of Georgia argues:
    ``To assume that data from 10 years ago reasonably 
describes the current water quality conditions requires that 
the locations and practices of AFOs have not undergone any 
significant changes. It also assumes that if any changes have 
occurred due to the expansion or demise of operations, they 
have not markedly altered the pollution reported in the early 
1990's. Furthermore, reliance on this data assumes polluters of 
the 1990's are engaged in the same activities today and that 
they have not implemented new pollution-prevention practices. 
Given the available data on current AFO practices, these 
assumptions are simply not realistic'' (4).\1\
---------------------------------------------------------------------------
    \1\See Centner (126-7) for a fuller explanation of recent changes 
in the AFO industry.
---------------------------------------------------------------------------


                         protecting air quality


    The vast majority of farmers and ranchers live on or near 
their livestock operations. This means they and their families 
breathe the same air as their neighbors. Most livestock farms 
are proactively instituting practices to reduce air quality 
concerns for the welfare or their workers, neighbors, animals, 
and their own families. Most operations are now using natural 
barriers such as tree screens to help mitigate air quality 
issues. These screens help to direct air flow from our barns 
and lagoons away from other rural residences. Modern facilities 
are now being built with computer controlled ventilation 
systems to ensure healthy indoor air. Although these common 
management practices help reduce emissions of odors, air 
particles, and gases, such as ammonia, there is much more that 
we do not understand about animal facilities and air emissions. 
A 2003 study conducted by the National Research Council of the 
National Academy of Sciences\2\ and commissioned by the U.S. 
Environmental Protection Agency determined that there is 
insufficient data to fully understand the environmental and 
health impacts of large animal operations. In response to the 
NAS study, U.S. EPA is partnering with agricultural operations 
and land grant universities to measure air emissions from 
various types of livestock facilities. The aims of the National 
Air Emissions Monitoring\3\ study are to collect accurate data 
and develop procedures to better estimate emissions from 
livestock facilities. It is important to note that over 2,500 
livestock farmers are helping to share the cost of this study 
though voluntary participation. The USDA Air Quality Task 
Force\4\ has brought more attention to agricultural air quality 
research needs; however, funding and support has fallen short. 
Scientific studies currently available have only scratched the 
surface, and the current patchwork of air regulations does not 
make sense for agriculture.
---------------------------------------------------------------------------
    \2\National Research Council. Air Emissions from Animal Feeding 
Operations: Current Knowledge, Future Needs. 2003. Washington, DC. 
National Academies Press.
    \3\http://cobweb.ecn.purdue.edu/?odor/NAEMS/
    \4\http://www.airquality.nrcs.usda.gov/AAQTF/
---------------------------------------------------------------------------
    While the Clean Air Act sets national standards for 
criteria pollutants--such as nitrous oxides and fine and coarse 
particulate matter (PM), each State is charged with developing 
its own implementation plan to meet these standards in areas 
that have been given a non-attainment designation by U.S. EPA. 
EPA often offers guidance to states to reduce emissions, but 
this does not insure uniform treatment of agricultural 
operations across all states. As national air quality standards 
continue to be tightened, states with large agricultural 
production will be more apt to regulate agricultural sources in 
order to meet the Federal emissions mandates. Because air 
quality reviews are conducted every 5 years, it is difficult to 
deal with regulations that are constantly changing. In addition 
to Federal standards, individual states often impose additional 
air quality regulations and permitting requirements. In 
Missouri, State regulations set limits on odor emissions and 
require odor control plans separate of any Federal standards. 
Missouri also has optional programs to prevent pollution from 
agricultural feeding operations. This fragmented approach to 
air quality creates an uncertain environment for producers.


                         the overkill of cercla


    In addition to all the Federal and State laws that already 
regulate agriculture, livestock and poultry producers, and 
anyone else who uses or transports animal manure have yet 
another looming concern. Recent lawsuits from activists and 
local and State municipalities seek to expand Superfund 
liability to animal manure. Collectively, the litigation argues 
that manure should be considered a hazardous substance--just 
like radioactive and toxic waste--under the Superfund laws.
    The Superfund laws--the Comprehensive Environmental 
Response, Compensation and Liability Act (CERCLA) and the 
Emergency Planning and Community Right-to-Know Act (EPCRA)--
were crafted to address toxic or abandoned waste situations 
such as the notorious Three Mile Island and Love Canal sites. 
Animal manure has not been regulated under these laws, nor do 
we think that the congressional record indicates that Congress 
ever intended for a natural substance like manure to be 
regulated under such a strict liability scheme.
    Compounds are typically regulated under Superfund without 
regard to facility size. Further, the threshold amounts of 
compound triggering clean-up requirements are from a business 
perspective, very small. Superfund was designed to mandate 
cleanup of compounds that are very harmful even in small 
amounts--manure is a beneficial and natural product that does 
not fit that description. Proper production use, storage and 
disposal of manure is certainly not harmful to human health or 
the environment. Numerous Federal and State laws are in place 
to regulate farms when and where manure is found in areas and 
quantities that could pose an environmental or health risk if 
handled improperly. If the courts do eventually classify manure 
as a hazardous substance under Superfund, then the liability 
and consequences to farmers and ranchers will negatively alter 
the viability and structure of American livestock and poultry 
production.
    Most farms with animals could be exposed to severe 
liabilities and penalties as a result of being brought under 
the Superfund laws. Farmers may lose the option of using manure 
and be forced to rely on commercial fertilizer at three or more 
times its cost. And, ironically, manure and commercial 
fertilizer pose similar risks to the environment from over-
application, runoff and air emissions. Congress did exclude the 
normal application of ``commercial fertilizers'' from Superfund 
liability, so it seems only reasonable that land application of 
manure as fertilizer should be afforded the same status.
    Superfund already has a legacy of bankrupting small 
businesses caught in its path. If manure is determined to be a 
hazardous substance, the cost of technical monitoring and 
compliance will drastically affect small-and medium-sized 
farmers the most, while large producers with far greater 
financial resources would be better able to absorb the 
compliance and cleanup costs.
    The risk of potential liability under the Superfund laws 
has compelled companies in other industries to relocate or 
significantly shift their facilities out of the U.S. American 
animal production is integrated, and future relocation 
decisions could result in the loss of animal-production 
contracts for farmers, leaving thousands of folks in financial 
ruin with empty barns.
    The organic foods industry would be affected by any 
decision to classify as hazardous the use of manure as 
fertilizer. It is unclear how farmers who use organic methods 
would be allowed to continue applying manure to their crops, 
just as it is uncertain whether any effective, alternative 
fertilizer would be certified for use under organic standards.
    Farmers and ranchers support research into new uses for 
manure. Using manure as a fuel source to generate energy shows 
great promise and Federal, State and private investment is 
being made into research. Moreover, hazardous substances simply 
are not used for energy generation. Which is precisely why 
petroleum based fuels are exempted from Superfund liability. 
Superfund liability would stifle innovation just as the promise 
of developing renewable energy from manure is getting under 
way. If manure is classified as hazardous waste under 
Superfund, using manure to generate energy--through methane 
digesters, for instance--could result in entrepreneurs and 
scientists being held liable for cleanup costs under CERCLA 
which would preclude the use of manure as a potential energy 
source.


                               conclusion


    Farmers and ranchers understand their roles in improving 
and maintaining the health and safety of the nations' 
environmental resources. Farmers are sensitive to the 
environment because they own and manage two-thirds of the 
nation's land. They are doing their part to promote the 
principles of environmental stewardship by being good 
caretakers of the nation's soil, air and water resources. But 
the cost of this stewardship is not cheap. Meeting the demand 
for food, feed and fuel as well as society's demands for 
improved environment quality requires farmers and ranchers to 
balance, and often individually bear, the cost of achieving 
many competing goals and objectives.
    Agriculture's impacts on the environment are closely 
intertwined with countless human activities that yield a higher 
quality of life for all Americans. Our ability to increase 
agricultural productivity--with the use of modern crop 
production tools like fertilizers--has enabled our nation's 
farmers and ranchers to increase the production of food, feed 
and fuel without increasing the acreage of cropland. Our 
productive capacity is unprecedented in the world's history and 
allows our farmers and ranchers to meet the demands of our 
nation's growing population as well as growing world 
populations and markets abroad. On top of this unprecedented 
productivity, there is little doubt that farmers and ranchers 
have made great strides in improving our environment over the 
last three decades. By nearly every measure, our environment 
and natural resources are in better condition than any other 
time in recent history.
    Last, we ask members to seek a balanced policy that will 
avoid business as usual, and steers way from classic command 
and control approaches. Agriculture is a delicate and 
interdependent economic activity and the originating link in 
the nations' food chain. Livestock production in the United 
States must survive and profit. It is essential to the health 
and livelihoods of many related aspects of agriculture, such as 
feed grain production, and many support sectors of our rural 
economies. If animal agriculture loses its economic 
sustainability due to overregulation, American consumers would 
be left to depend on foreign food imports, likely grown with 
less regard for food safety.

    Senator Boxer. Thank you so much, Chris.
    Nick Nemec, and let me say Farmer, Western Organization of 
Resource Councils and Dakota Rural Action.

   STATEMENT OF NICK NEMEC, FARMER, WESTERN ORGANIZATION OF 
           RESOURCE COUNCILS AND DAKOTA RURAL ACTION

    Mr. Nemec. Thank you, Madam Chair and members of the 
Committee for giving me this opportunity to testify.
    My name is Nicholas Nemec, and I farm and ranch on 4,100 
acres in Hyde County, South Dakota. From 1993 to 1996, I 
represented my area in our State Legislature.
    I am here today as a member of the Western Organization of 
Resource Councils and Dakota Rural Action, two non-profit 
organizations with over 9,700 members in 7 western States.
    My roots in agriculture in South Dakota run deep. My great-
great-grandparents and great-grandparents immigrated to America 
from Eastern Europe early in the last century and homestead in 
South Dakota in 1907.
    Those roots were threatened in early 1997 when Tyson Foods 
approached our county commissioners with a plan to construct 
over 100 hog confinement barns that would feed over a half 
million hogs each year and plans to build more barns in future 
years. With the endorsement of the county commissioners and 
city council in hand, Tyson Foods thought the door was open for 
a major expansion into South Dakota. Little did they know that 
the South Dakota State motto is Under God, the People Rule, and 
in Hyde County, the people eventually did rule.
    My wife and I and our neighbors were worried because we 
knew that our county had no zoning ordinances of any kind of 
even a requirement for building permits. We were worried that 
we might wake up some day and find a large hog barn being built 
across the fence or down the road from our farms.
    Hyde County is an area with tens of thousands of acres of 
shallow lakes and wetlands and many intermittent streams. 
People were concerned about the pollution that could be caused 
if the dikes around one of the manure cesspools at the proposed 
hog farms would fail. The manure would run into our lakes and 
streams, killing wildlife and vegetation and contaminating our 
shallow aquifers. These kinds of failures occurred in North 
Carolina.
    We were also concerned about runoff from fields where 
manure had been applied at rates greater than the crops could 
use.
    We are rural people and are used to and not afraid of the 
smell of a little manure, but promises by Tyson Foods to be a 
good neighbor and glowing testimonials from Hughes County, 
Oklahoma, where Tyson had a similar operation, did not allay 
our concerns about odor and pollution.
    We were able to contact citizens of Hughes County, who told 
a very different story. They told of being prisoners in their 
own homes and being unable to open the windows because the 
stench of manure cesspools permeated everything. They told of 
being unable to enjoy the outdoors because the stench was so 
overwhelming that it made their eyes water and gave them 
headaches. In short, their quality of life was what we feared 
ours would become.
    My oldest daughter has asthma. My wife and I had read that 
particulate matter in the air around large hog confinement 
barns and the stench from the manure cesspools triggers asthma 
attacks in some people. Watching your child fight to get air 
during an asthma attack and rushing her to a hospital is a 
scary experience that we didn't want to ever have to go through 
again.
    With the help of Dakota Rural Action, we began drafting an 
ordinance that prohibited locating a manure management system 
for livestock housed in barns closer than four miles from any 
existing residential structure. The ordinance passed by a 
margin of 56 to 43 percent.
    The rural vote of 75 percent in favor versus the town vote 
of 46 percent of the ordinance reveals the divisive nature this 
issue had on our small community, pitting urban against rural 
with the rural residents, mainly ag producers, supporting 
stricter controls.
    It also illustrates the distinction that many of us in 
agriculture make between this new model of livestock production 
and the family farm model that is traditional in our rural 
communities. I call these new operations, factory farms, to 
distinguish them from traditional family farms.
    The factory farm model is often promoted as the next 
logical step in the modernization and industrialization of 
agriculture. It is, in fact, bringing with it a host of new 
concerns. Communities are suddenly dealing with regulating and 
permitting operations that are touted as agriculture when, in 
fact, they are more similar to industrial production facilities 
than traditional family farms. The result is that factory farms 
have proven to have many unanticipated consequences to the 
environment and the high quality of life that sets our rural 
communities apart.
    Townships, counties and even States across the Nation are 
struggling to handle the impacts of these factory farms. Many 
have established moratoriums in an attempt to put in place 
adequate laws and regulations to protect their citizens, 
natural resources and their quality of life from the unintended 
consequences of factory farm development.
    While we in Hyde County have tried to protect our local 
environment, we also knew that a local county zoning ordinance 
couldn't protect us from manure spills in counties upstream. 
Water, creeks and, for that matter, manure run downhill and 
don't respect county or State lines.
    In closing, I understand that there are proposals to exempt 
factory farms from some of our Federal environmental laws, and 
I urge you to oppose these efforts and to preserve the clean 
air and water standards we have for factory farms and all of 
agriculture as well as those to ensure that toxic waste sites 
are cleaned up and that the public is given information about 
emissions of pollutants and contaminants.
    As a farmer and rancher, I do not feel threatened by these 
laws. They are not designed to punish responsible farmers of 
any size or type, and I am not aware of a single instance where 
they have been used to do so. These laws are designed to ensure 
the health and well being of my family, my land and my 
downstream and downwind neighbors. Today, more than ever, we 
need to maintain and even strengthen them to protect the 
communities in which factory farms are operating.
    Thank you.
    [The prepared statement of Mr. Nemec follows:]

 Statement of Nicholas Nemec, Farmer, Western Organization of Resource 
                    Councils and Dakota Rural Action

    Thank you, Madam Chair and members of the Committee for 
giving me this opportunity to testify. My name is Nicholas 
Nemec. I am a farmer and rancher from central South Dakota 
where I raise cattle, wheat, sunflowers, corn, and hay on 4,100 
acres in Hyde County. From 1993-1996, I represented six central 
South Dakota counties in the State legislature.
    I am here today representing the Western Organization of 
Resource Councils (WORC) and Dakota Rural Action (DRA), two 
non-profit organizations that have worked proactively for 
family farm agriculture in the West for nearly 30 years. WORC 
is a network of grassroots organizations from seven western 
states that includes 9,700 members and 44 local community 
groups. About a third of WORC's members are family farmers and 
ranchers. WORC has many members who are affected by or could be 
affected by large factory farms and are working on the issue in 
local, state, and Federal Government settings.
    My roots in agriculture and South Dakota run deep. My 
great-great-grandparents and great-grandparents immigrated to 
America from Eastern Europe early in the last century. They 
homesteaded in South Dakota in 1907 and in their struggle to 
establish a foothold in this country and a future life for our 
family they experienced all the hardships that were so common 
to homesteaders, including the death of my great-great-
grandmother, who was bitten by a rattlesnake at the door of her 
sod house. That original homestead is now owned by my uncle and 
last week, at the South Dakota State Fair, was recognized as a 
Century Farm.
    Those roots were threatened in early 1997, when Tyson Foods 
approached our county commissioners with a plan to construct 
over 100 hog confinement barns that would feed nearly 520,000 
hogs each year and plans to build more barns in future years. 
All this would happen that spring in a small county of only 860 
square miles and 1,600 people. The county commissioners and the 
city council both passed resolutions welcoming Tyson Foods and 
their hogs to our county under the guise of ``economic 
development''. With the endorsement of the two local governing 
bodies in hand, Tyson Foods thought the door was open for a 
major expansion into South Dakota. Little did they know that 
the South Dakota State motto is ``Under God the People Rule'' 
and in Hyde County the people would eventually rule.
    My wife and I and our neighbors were very worried because 
we knew that our county had no zoning ordinances of any kind or 
even a requirement for building permits. We were worried that 
we might wake up someday and find a large hog barn being built 
across the fence or down the road from our farms. Hyde County 
is in the Prairie Pothole region of South Dakota. It is an area 
with tens of thousands of acres of shallow lakes and wetlands 
and many intermittent streams. This area is one of the premier 
duck nesting areas in North America. One of those streams, 
South Medicine Knoll Creek, meanders for two miles through my 
farm. I have several shallow wells on the banks of the creek 
that I use to water cattle. I have watched this creek grow from 
a few isolated fishing holes to a river 100 yards wide and 8 
feet deep in less than a day. Our county was experiencing 
severe flooding that spring. The creeks were high and the lakes 
were full. People were concerned about the pollution that could 
be caused if the dikes around one of the manure cesspools at 
the proposed hog barns would fail. That manure would run into 
our lakes and streams, killing wildlife and vegetation and 
contaminating our shallow aquifers. Those kinds of failures had 
occurred in North Carolina. We were also concerned about runoff 
from fields where manure had been applied at rates greater than 
the crops could use.
    We are rural people and are used to and not afraid of the 
smell of a little manure. But we also know that the more manure 
you have the worse it smells and we didn't want to wake up 
every morning and spend everyday smelling hog manure. Promises 
by Tyson Foods to be a good neighbor and glowing testimonials 
from Hughes County, Oklahoma, where Tyson had a similar 
operation did not allay our concerns. With very little 
difficulty we were able to contact citizens of Hughes County 
who told a very different story about living amongst tens of 
thousands of hogs. They told of being prisoners in their own 
homes, unable to open the windows because the stench of manure 
cesspools permeated everything. They told of being unable to 
enjoy the outdoors because the stench was so overwhelming that 
it made their eyes water and gave them headaches. In short, 
their quality of life was what we feared ours would become.
    Our oldest daughter has asthma. My wife and I had read that 
particulate matter in the air around large hog confinement 
barns and the stench from the manure cesspools triggered asthma 
attacks in some people. Watching your child fight to get air 
during an asthma attack and rushing her to a hospital is a 
scary experience that we didn't want to go through ever again 
that I wish no other parent has to go through.
    The opponents to the Tyson plan began meeting and formed an 
ad hoc group to determine what, if anything, could be done to 
slow or stop Tyson Foods. We contacted several lawyers and 
learned that in our State the citizens of a county have the 
right to circulate petitions to force a special election on an 
initiated measure. With the help of Dakota Rural Action, we 
began drafting an ordinance to require a setback from 
residential structures. We also set up several informational 
meetings to gauge the level of concern. Eventually an ordinance 
was written that prohibited locating a manure management system 
for livestock housed in barns closer than four miles from any 
existing residential structure.
    The hard fought election divided our county with the rural 
residents, farmers, and ranchers supporting the proposed 
ordinance and the local business community in town opposing it. 
Tyson Foods' purchase of multiple full page ads in the local 
eight page newspaper was seen as another heavy-handed attempt 
to sway the election. The ordinance passed by a margin of 56 
percent-43 percent. The rural vote of 75 percent-25 percent 
versus the town vote of 46 percent-54 percent reveals the 
divisive effect this issue had on our small community pitting 
urban against rural, with the rural residents, mainly ag 
producers, supporting stricter controls.
    It also illustrates the distinction that many of us in 
agriculture make between this new model of livestock production 
and the family farm model that is traditional in our rural 
communities, and that I still believe is the most sustainable 
for our rural communities.
    I call these new operations ``factory farms'' to 
distinguish them from traditional family farms. When 
neighboring landowners challenged a huge pork feeding facility 
in Grand Forks County, North Dakota, District Judge Bruce 
Bohlmann hit the nail on the head when he said the facility was 
``not a farming operation'' but a ``pig factory.''
    This term refers to the model of production only. I do not 
use it as a negative term to pass judgment on the individual 
owners or farmers who are developing these large-scale farming 
operations. I know that there are many responsible, 
conscientious farmers who work diligently to prevent their 
factory farming operations from having the environmental 
consequences that my neighbors and I are so concerned about. 
However, I also know that, regardless of these efforts by some 
factory farm operators, these operations inherently have 
impacts and pose risks that traditional family farms do not.
    For this reason, factory farms have become an extremely 
polarizing issue in our rural communities as an aging 
population of farmers struggles to provide financially 
successful options to bring young farmers back to rural areas, 
while weighing the inherent impacts and risks of the factory 
farm model of production.
    The factory farm model is often promoted and presented as 
an essential shift for the future of our rural economy, and the 
logical next step in the modernization and industrialization of 
agriculture. It is, in fact, bringing with it a host of new 
concerns, never before presented by traditional family farms. 
Communities are suddenly dealing with regulating and permitting 
operations that are touted as agriculture, when in fact, they 
are more similar to industrial production facilities than 
traditional family farms.
    The reality is that factory farms have proven to have many 
unanticipated consequences to clean air, pristine landscapes, 
precious water resources, and the high quality of life that 
sets our rural communities apart. What's more, the promises of 
jobs, income and prosperity remain largely unfulfilled.
    The unplanned, unregulated expansion of these operations 
threatens the very communities that their proponents claim they 
will enhance, yet they have expanded dramatically over the past 
30 years, and are continuing to do so.

     South Dakota Ag statistics show that by 2002, our State 
lost more than 80 percent of the dairy farms and more than 83 
percent of the hog farms that were operating in 1982. However, 
over the same time period, we only lost 20 percent of our hogs 
and half of our dairy cows. In other words, South Dakota's 
remaining dairy farms are two and a half times larger than they 
were 25 years ago, and our hog farms nearly five times larger 
than they were 25 years ago.
     In Iowa the average inventory of hogs per farm increased 
from 250 in 1980 to 1,430 in 2000--over five times larger.
     In Missouri, while the total number of hogs stayed the 
same, the average size of an operation grew from 180 in 1985 to 
1,227 in 2005--nearly seven times larger.

    This shift in farming methods is recent and far-reaching 
enough to have swamped many local and State governing bodies 
with ballooning costs to school districts, road maintenance, 
and environmental costs.
    Townships, counties and even states across the Nation are 
struggling to handle these impacts. Many have established 
moratoriums as they attempt to put into place adequate, 
comprehensive laws and regulations to protect their citizens, 
natural resources, and their quality of life from the 
unintended and often accidental consequences of factory farm 
development.
    Hyde County, South Dakota, is not unique in setting tough 
standards for factory farms. Throughout the network of WORC 
chapters in seven western states, we can point out numerous 
examples of agricultural leaders and communities standing up to 
the industrial scale feedlots and attempting to protect their 
natural resources and quality of life.
    In Hyde County and elsewhere, we are protecting our local 
environment, but stronger State and national rules are needed. 
Pollution doesn't know or care about State lines. While we in 
Hyde County have tried to protect our local environment, we 
also knew that we couldn't protect ourselves from manure spills 
in counties upstream with a county zoning ordinance. Water, 
creeks and for that matter manure run downhill and don't 
respect county or State lines.
    I understand that there are proposals to exempt factory 
farms from some of our Federal environmental laws, and I urge 
you to oppose these efforts, and to preserve the clean air and 
water standards we have for factory farms and all of 
agriculture, as well as those that ensure that toxic waste 
sites are cleaned up, and that the public is given information 
about emissions of pollutants and contaminants.
    As a farmer and rancher, I do not feel threatened by these 
laws, and I do not believe that any factory farm operator need 
fear them either. They are not designed to punish responsible 
farmers of any size or type, and I am not aware of a single 
instance when they have been used to do so.
    These laws were designed to insure the health and well-
being of my family, my land, and my downstream and downwind 
neighbors. Today more than ever, we need to maintain and even 
strengthen them to protect the communities in which factory 
farms are operating. If factory farm operators are going to 
manage large numbers of livestock in small, confined units, let 
them do so by internalizing the full costs of their operations 
by managing and treating the wastes, and containing harmful 
emissions, and by receiving an appropriate penalty if they fail 
to do so.
    Thank you.

    Senator Boxer. Thank you, sir.
    Dr. Dicks from Oklahoma State University, welcome.

             STATEMENT OF MICHAEL DICKS, OKLAHOMA 
                        STATE UNIVERSITY

    Mr. Dicks. Good afternoon. My name is Mike Dicks, and I am 
a professor of agricultural economics.
    Thank you. I want to thank the Committee for holding this 
hearing and for providing me with an opportunity to provide 
input.
    I provided written testimony to include in the record and 
want to focus my time here on just a specific few points. I 
listened to the comments this morning, and I think these points 
are interesting to be sure.
    My main point is that we need to stop dealing with the 
waste, with animal manure as a waste and start dealing with it 
and viewing it as a natural resource, as a valuable natural 
resource. By treating it as a waste, we have employed all 
efforts and resources to contain and eliminate rather than 
collect and utilize.
    The animal industry implements the best manure management 
strategies provided by public and private research efforts. To 
demand that an industry continue to adopt cost-effective BMPs 
is not unreasonable, but to be unhappy with the result of that 
implementation and then pose new regulations or restrictions on 
the industry without either the available technologies or 
financial ability to implement those technologies would seem 
unreasonable.
    I also don't know of a single study that has actually 
measured the benefits and the costs of implement known BMPs in 
the Nation's CAFOs. Few studies have attempted to evaluate the 
benefits and costs of discharge abatement in specific 
watersheds and most are loaded with assumptions where 
scientific data is unknown or uncertain. For the most part, 
Federal, State and local actions have been taken to contain and 
eliminate animal manure under the assumption that the damages, 
real or perceived, exceed the abatement costs.
    Environmental regulation of CAFOs should only impose costs 
where the value of corresponding benefits is greater. 
Considering all available abatement technologies, only those 
that have the costs for specific operations where the value of 
corresponding benefits is greater should be implemented. 
Otherwise, individuals, communities, regions and societies have 
lower welfare than before the abatement technologies were 
implemented.
    Most States are implementing animal manure and water 
quality standards that exceed those established in Federal law. 
We have heard that this morning.
    These tighter standards are in response to environmental 
conditions unique to specific area and the public's perception 
of problems. Certainly, Oklahoma is no exception and has been 
actively engaged in addressing air and water quality concerns 
associated with animal manure
    The current focus of BMPs is on containment and 
elimination. The most obvious forms of containment are manure 
ponds, lagoons and holding pits.
    Examples of successful alternative manure management 
strategies that stress collection and utilization include the 
Mason-Dixon Dairy in Gettysburg, Pennsylvania, S&S Aqua Farms 
in West Plains, Missouri, the Solar Aqua Farms in Sun City, 
California, and there are many more that I could list.
    These farms incorporate animal manure into a production 
system to produce energy, fertilizer, chemical-free quality 
food, bedding and fresh water. These are all examples of farms 
that have moved from monoculture production schemes to multiple 
product systems. These farms have incorporated animal manure 
into the production process. They collect and utilize.
    There are many of these new types of farming systems 
developing throughout the world, but they are still far outside 
the mainstream thinking.
    In addition, considerable research efforts are underway at 
private and public universities and businesses. Some examples 
of these research thrusts include improving nutrient content of 
foods and better animal genetics to reduce the total quantity 
of manure, new collection systems to move manure from feed pens 
to storage facilities and new storage facilities that actively 
process manure for incorporation into new products.
    On average, CAFOs have funds available for the adoption of 
new technologies. However, the amount of funds in a given year 
are highly variable. Because of the return to investment in 
these operations are often below the returns to limited risk 
investments, the decision to implement new technology in these 
operations is frequently not a good business decision.
    The contain and eliminate paradigm has led to environmental 
issues of great concern to those individuals and communities 
near and downstream from the animal feeding operations. In 
response, new State and Federal Government regulations have 
been promulgated to address these concerns and have not, as 
yet, been fully implemented.
    The new regulations require many operations to make major 
investment in plant or operational changes that are not part of 
their original operation plans. We are currently unsure of the 
costs of implementing these strategies is exceeded by the 
benefits of doing so.
    BMPs developed to incorporate animal manure into food and 
fuel production may provide added benefits and increase the 
economic feasibility of both private and public support of 
adoption. CAFO initial operation plans contain the best 
technologies of the time. As we learn more about how animal 
manure interacts with the environment through different 
operations and unique ecological systems, the best management 
practices today will be changed.
    The animal feeding operations have limited funds to 
incorporate new technology and, of course, technological 
economies of size exist in this industry. Thus, a requirement 
to adopt new technologies puts a greater burden on smaller 
operations. In response to financial constraints, Federal and 
State Government have provided cost-share assistance and 
adequate timelines and consideration for financial burden.
    The industry is engaged in developing nutrient management 
plans and implementing BMPs, but these efforts won't be fully 
realized for several years. After full implementation of the 
new EPA National Pollutant Discharge Elimination System 
permitting requirements and Effluent Limitations Guidelines and 
Standards rule, we can revisit the environmental concerns 
related to animal feeding operations and determine a future 
course of action.
    However, until we change to a paradigm of collect and 
utilize, we will never fully address the issues surrounding 
animal manure.
    Thank you for your time, and I will be open to questions.
    [The prepared statement of Mr. Dicks follows:]

         Statement of Michael Dicks, Oklahoma State University

    Animal manure management has always been a major component 
of the design and operation of confined animal production 
facilities but has certainly increased in importance over the 
last 30 years. I have been involved with animal production and 
manure utilization for more than 35 years and been part of the 
design and implementation of manure utilization technologies in 
the U.S. and Africa. I am currently a Professor of Agricultural 
Economics at Oklahoma State University and specialize in the 
areas of agricultural policy and farm and ranch management. The 
issues surrounding animal manure are important and I thank the 
Senate Public Works and Environment Committee for holding this 
hearing and providing me the opportunity to bring a new 
perspective to the debate on animal manure management. I am 
going to focus my remarks on public and private efforts too 
minimize the adverse impacts of animal manure on human health 
and the environment.
    Oklahoma has 799 registered poultry feeding operations, 220 
licensed confined swine feeding operations, 66 licensed 
confined cattle feeding operations and 12 licensed confined 
dairy operations. These represent only those operations with 
actual or potential discharge that are large enough to be 
required to be licensed or registered under current State or 
Federal statues and thus there are certainly more animal 
feeding operations in the state. These Animal Feeding 
Operations (AFOs) are spread throughout the State but tend to 
be lumped by species in specific regions of the state.
    Oklahoma also contains approximately 11,611 miles of 
shoreline, (slightly less than the estimated combined general 
coastline of the Atlantic, Gulf, Pacific, and Arctic Coasts) 
and approximately 78,578 miles of rivers/streams. From 1996 
through 2007 roughly 1,000 complaints have been received by the 
Oklahoma Department of Agriculture Food and Forestry (ODAFF) 
related to animal manure concerns from cattle, swine, horse, 
rabbit, poultry, goat, and dog confined production operations. 
These complaints dealt with potential or actual water quality 
problems, odor, dust and noise.
    The combination of abundant AFOs, number of water bodies 
and concerned citizens in Oklahoma provides an excellent 
opportunity to study the interaction of the three. To assert 
there are no problems in animal manure management in the State 
of Oklahoma would be nothing short of ridiculous, but to assume 
that the owners of livestock production, feeding and processing 
firms are not actively engaged in pursuing changes to meet new 
standards and implement the latest ``Best Management 
Practices'' (BMPs) would also be ridiculous. The management of 
animal manure is just one complicated issue in a very complex 
industry. Few understand either and even fewer understand both.
    My main message is the need to change from dealing with 
animal manure as a waste and place more focus on fully 
utilizing this valuable resource through greater support of 
research and development. By treating manure as a waste we 
employ all efforts and resources to contain and eliminate 
rather than collect and utilize. We seem to have abandoned this 
resource, valuable for energy and food production, in favor of 
other less efficient sources such as chemical fertilizers and 
ethanol. The demand for cheap food and international 
competition from countries with cheaper capital assets has 
induced the proliferation of the large CAFOs over the last four 
decades. These facilities were initially constructed to 
efficiently provide abundant and cheap sources of animal 
protein with little thought toward their combined environmental 
impact. As we have become aware of this impact the industry has 
changed and devoted a considerable amount of their net earnings 
to meeting the problem. The industry has and continues to 
implement the strategies provided by public and private 
research efforts. To demand that an industry continue to adopt 
cost effective BMPs is not unreasonable but to be unhappy with 
the result of implementation of these BMPs and then pose new 
regulations or restrictions without either the available 
technologies or the financial ability to implement those 
technologies is unreasonable. And, the continued promulgation 
of new regulations here and not abroad will eventually shift 
the industry abroad.
    Some view regulation and litigation as the answer to 
problems and others seek innovation and incentives. Solutions 
that are profitable and adaptable will be readily adopted by 
industry. These facts support the idea that our scarce 
resources are best spent not on forcing change through 
regulation and litigation but rather inducing change through 
research and education.


                    do we need new cafo regulations?


    The purpose for this hearing is to address the impacts of 
CAFOs on human health and water quality to determine the need 
for increased regulation in an attempt to mitigate any adverse 
impacts from animal manure. The nutrients in animal manure have 
found their way into natural waters and the odor and dust from 
CAFOs has found its way into the air we breathe. However, I do 
not know of a single study that has actually measured the 
benefits and costs of implementing known BMPs in the nations 
CAFOs. Few studies have attempted to evaluate the benefits and 
costs of discharge abatement in specific watersheds and most 
are loaded with assumptions where scientific data is unknown or 
uncertain. For the most part, Federal, State and local actions 
have been taken to contain and eliminate animal manure under 
the assumption that the damages, real or perceived, exceed the 
costs. In theory, environmental regulation of CAFOs should only 
impose costs where the value of corresponding benefits is 
greater. In considering all available abatement technologies, 
only those that have costs for specific operations, where the 
value of corresponding benefits is greater should be 
implemented. Otherwise, individuals, communities, regions and 
society have lower welfare than before the abatement 
technologies were implemented. To impose this restriction would 
end the debate pending a benefit/cost assessment. However, to 
move us beyond this point we will assume that the 
implementation of nutrient management plans that choose from 
amongst a set of best management practices is accomplished such 
that the costs do not exceed the benefits of this 
implementation.
    To induce a change in current behavior we can employee 
either the stick or the carrot approach. In terms of Federal 
policy, we have used, and continue to use both approaches. The 
most commonly known carrot approaches include technical and 
cost-share assistance, subsidies and the less commonly included 
approaches of research and education. On the stick approach we 
have Federal, state, and local regulations, taxes, and permits 
that pose constraints on behavior. In either the stick or the 
carrot approach there are two conditions required to induce or 
force behavior change. First, there must be clear, cost 
effective alternatives to current behavior and second the 
targeted party must have the ability to adopt the alternatives. 
Of course this presumes that with respect to the CAFOs, we wish 
to change their behavior regarding manure management rather 
than eliminate them all together. If the purpose of the debate 
regarding the further regulation of CAFOs is an indirect 
attempt to deal with issues of structure in the animal 
production and processing industry then I would submit that the 
attempt is misguided and likely to lead to more concentration 
rather than less.
    Current Efforts--Most states are implementing animal manure 
and water quality standards that exceed those established in 
Federal law. These tighter standards are in response to 
environmental conditions unique to areas within the state. 
Certainly Oklahoma is no exception and has been actively 
engaged in addressing issues specific to air and water quality 
concerns resulting from animal manure. For instance;

     In 1998, the Oklahoma USDA-NRCS revised their 
Conservation Practice Standard, Waste Utilization (Code 633), 
with a provision specifically for the Eucha/Spavinaw Watershed 
to restrict poultry litter application on land with a 
phosphorus index of 300 lbs/acre or greater.
     In 2000, the Oklahoma Water Resources Board required 
poultry producers in nutrient limited watersheds and nutrient 
limited groundwater areas to test their soil prior to litter 
application every year, rather than every 3 years as is 
required for non-nutrient limited watersheds.
     In 2001, the Oklahoma USDA NRCS published the Nutrient 
Management standard (Code 590), replacing the Waste Utilization 
(Code 633) standard from 1995 and 1998. The new standard made 
phosphorus, rather than nitrogen, the limiting factor in all 
nutrient management plans. In non-nutrient limited watersheds, 
the phosphorus index has an upper limit of 400 lbs/acre, after 
which no additional litter may be applied. In nutrient limited 
watersheds, 300 lbs/acre is the threshold. The standard is 
applicable statewide.\1\
---------------------------------------------------------------------------
    \1\Note that there is no scientific basis for this phosphorus 
constraint. No upper limit on phosphorus has been found that limits 
plant growth potential.
---------------------------------------------------------------------------
     The Food Security and Rural Investment Act of 2002 
extended and expanded funding for the Environmental Quality 
Incentives Program (EQIP). The program called for 60 percent of 
funding to be spent on livestock operations. In order to reach 
this goal, NRCS has developed the National Animal Agriculture 
Conservation Framework (December 2003). This National Framework 
is built from State and Basin Area efforts and presents a 
vision for voluntary, proactive efforts to foster 
environmentally sound and economically viable livestock and 
poultry production. It envisions collaboration among Federal, 
State, tribal, and local governments; producers; the public; 
and the private sector to bring the initiative, resources, and 
commitment to support environmental stewardship in animal 
agriculture.
     In 2003, The Office of the Secretary of Environment 
issued a Coordinated watershed Restoration and protection 
Strategy for Oklahoma's Impaired Scenic Rivers''.
     In 2003, Oklahoma and Arkansas signed a ``Statement of 
Joint Principles and Actions,'' outlining how the states would 
work together to improve water quality in Oklahoma's scenic 
rivers. The pact calls for ``The states of Arkansas and 
Oklahoma, acting through their environmental agencies, to work 
together in partnership with the Arkansas-Oklahoma Arkansas 
River Compact Commission toward the goal of producing a 
Watershed Plan.
     In 2007, Oklahoma signed a $20.6 million cooperative 
conservation partnership agreement between USDA and Oklahoma 
that will create up to 9,000 acres (or 370 miles) of riparian 
buffers and filter strips under the Conservation Reserve 
Enhancement Program or CREP.

    In 2005 and 2006 NRCS spent just over 60 percent of the 
EQIP funds on livestock operations but less than 20 percent on 
CAFOs. However, the 20 percent includes transportation 
subsidies and other cost-share assistance not directly tied to 
changes in the operation of the CAFOs. This is important as the 
impacts of animal manure more frequently occur at the land 
applicationsite than at the CAFO. With both the Oklahoma CREP 
and EQIP, funds have been targeted to produce buffers and 
filter strip and to fence livestock out of these areas. Because 
phosphorous readily attaches to soil particles most phosphorous 
contamination of water is the result of soil erosion. Reducing 
this erosion or reducing the ability of eroded soil particles 
from entering the water will reduce phosphorous induced water 
quality degradation. These fenced buffers and filter strips 
offer the additional benefits of wildlife nesting habitat and 
stockpiled forage for emergency use.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    In Oklahoma, about 16 percent of the 2006 EQIP funds were 
spent on storage, composting, sprinkler systems and other 
practices for CAFOs and another 8 percent was spent on 
transport and application of manure. Another large portion of 
the funds were used to produce and fence buffers and filter 
strips.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Source: USDA/NRCS
    These actions represent a timeline of involvement of CAFO 
operators, State and Federal agencies, and conservation and 
community groups in an attempt to pursue solutions to local 
water quality problems posed by animal manure. Also important 
are the education, research and extension efforts of the State 
agencies and Oklahoma Agricultural Experiment Station in 
addressing animal manure issues. This is not an exhaustive list 
of all the activities of Federal, state, and local governments, 
community groups and private and public research and education 
efforts dealing with CAFOs in this decade. To list all these 
efforts would fill several hundred pages. But these efforts 
symbolize the engagement of the industry and community in 
dealing with manure management issues.
    Clearly, CAFOs are actively implementing the nutrient 
management practices as per the NRCS technical guides. The EQIP 
practices are provided with 50-75 percent cost share and the 
transportation subsidies of $4 to $12.50/ton depending on the 
distance between production and use sites. Current farm bill 
proposals however, seek to reduce eligibility to EQIP cost 
share assistance based on producer's gross income. As I will 
show later, because of the low profit margins in many animal 
feeding operations (particularly cattle) large gross incomes 
are needed. The cost ?shared practices that NRCS provides 
through EQIP are frequently part of other changes that must be 
implemented simultaneously. Thus, the total cost of 
implementing the practice often exceeds the cost-share. 
Restrictions on payments based on income will reduce the 
ability of EQIP to induce change.


                     are there clear alternatives?


    The current emphasis is on containment and elimination of 
animal manure from animal feeding operations. The most obvious 
forms of containment are the manure ponds, lagoons, and holding 
pits for manure storage and the elimination through land 
application. Increased efficiency in land application would 
alone solve many of the water quality issues. But as I stated 
previously the current paradigm of contain and eliminate is at 
the core of the problem. Are there alternatives for collection 
and use?
    This question can be broken into 1) are the technologies 
available and 2) can they be implemented. Let's first consider 
whether there are clear alternatives to current behavior.
    The U.S. Department of Agriculture's Natural Resource 
Conservation Service (NRCS) is charged with providing technical 
assistance to agribusiness to both improve production and 
minimize the impacts of the production activities on the 
environment. The NRCS has been active in assisting animal 
agricultural by providing technical guides for every type of 
production agriculture. With respect to the CAFOs, the USDA/
NRCS has a national technical guide for developing a 
comprehensive nutrient management plan. According to the NRCS 
National Planning Procedures Handbook (Subpart B, Part 600.51 
Draft Comprehensive Nutrient Management Planning Technical 
Guidance) ``a CNMP is a conservation plan that is unique to 
animal feeding operations. It is a grouping of conservation 
practices and management activities which, when implemented as 
part of a conservation system, will help to ensure that both 
production and natural resource protection goals are achieved. 
A CNMP incorporates practices to utilize animal manure and 
organic by-products as a beneficial resource. A CNMP addresses 
natural resource concerns dealing with soil erosion, manure, 
and organic by-products and their potential impacts on water 
quality, which may derive from an AFO. A CNMP is developed to 
assist an AFO owner/operator in meeting all applicable local, 
tribal, State, and Federal water quality goals or regulations. 
For nutrient impaired stream segments or water bodies, 
additional management activities or conservation practices may 
be required to meet local, tribal, State, or Federal water 
quality goals or regulations.''
    Many States have their own set of BMPs that are more 
restrictive, have been in place longer, and provide their own 
programs to assist in implementation. As we have more 
experience with the management of animal manure in the various 
feeding structures, in unique environments these BMPs may 
change. A list of common list of BMPs is provided below, 
divided into four categories, covering a specific operation or 
management task: grounds, buildings, lagoons, settling basins 
and holding ponds, and land application\2\.
---------------------------------------------------------------------------
    \2\http://www.epa.state.il.us/water/cafo/publications/pork-bmp.pdf
---------------------------------------------------------------------------
    Grounds--BMPs involving the grounds at pork production 
facilities are basically common sense and being considerate of 
your neighbors. Below are examples of BMP activities that you 
may be able to implement at your facility:
     locating the facility as far as possible from surface 
water bodies
     locating the facility in an area with sufficient soil 
drainage
     having wind breaks and buffer strips around the facility
     diverting rain water away from areas where it could 
become contaminated
     maintaining proper gravel cover and landscape gradient so 
that water does not stand in access roads and around the 
production facility
     scraping away manure in open feed lots to reduce buildup 
of solids and to control odor and fly production
     collecting runoff from lots through settling basins for 
subsequent land application
     immediately loading manure into a manure spreader and 
directly applying to the field
     removing spilled feed promptly
     keeping feeder equipment in good repair
     keeping watering devices in good repair

    Buildings--Routine maintenance and good housekeeping 
practices are the two easiest ways to prevent pollution in 
buildings. Some ways that you can use BMPs in buildings are:
     constructing interior surfaces with smooth materials to 
reduce dust and grime accumulation and facilitate cleaning
     maintaining adequate ventilation in the building to 
prevent buildup of dusts, gases, moisture and heat
     preventing liquids from collecting under animals and 
watering equipment by using slotted floors or other 
technologies
     repairing leaking water lines immediately
     maintaining clean and dry buildings
     installing an under floor ventilation system in 
confinement buildings where below floor manure storage is used
     using a power washer when hosing down walls, dividers and 
floors in order to reduce water usage
     covering feeders and extending feed downspouts to 
minimize dust
     scraping off or flushing away manure in confinement areas 
on a frequency which is adequate to minimize odors
     covering sumps at lift stations
     pumping manure from accumulation areas to storage areas 
on a frequency which is adequate to prevent odors and overflow

    Lagoons, settling basins and holding ponds--Undersized or 
poorly designed lagoons, settling basins and holding ponds can 
cause pollution. Below are some examples of ways to improve 
your lagoons, settling basins and holding ponds:
     locating lagoons, settling basins and holding ponds away 
from valleys which can trap odors in low lying areas
     constructing lagoons, settling basins and holding ponds 
so that wastes do not overflow or leach into groundwater and so 
that odor is minimized
     covering the lagoon, settling basin or holding pond to 
reduce surface odors being released
     adding aeration
     pumping or draining manure to a lagoon in small enough 
quantities to avoid slug loadings, maintaining a stable 
microbial population within the lagoon
     maintaining sufficient storage capacity to prevent 
overflow of lagoons, settling basins and holding ponds
     using a pump and a solids separator to lower solids 
loading
     removing sludge from the primary lagoon frequently enough 
to prevent overloading or carryover of solids to a second stage 
lagoon
     equipping lagoons and holding ponds with a free board 
gauge that shows when it is time to pump out and land apply 
supernatant, preventing overflows
     dewatering lagoons only down to the minimum treatment 
volume level as indicated on the lagoon marker
     filling new or emptied lagoons with water to the minimum 
treatment level before manure is introduced

    Land application--Manure as a fertilizer can be 
environmentally beneficial. However, there are additional 
opportunities for reducing pollution when applying the manure 
to the land. Some examples of BMPs in land application 
practices are:
     developing a manure management plan
     scheduling application times that are compatible with 
crop rotations
     having sufficient land available to apply during various 
times of the year so that the rate of application will be at or 
below agronomic rates
     applying manure early in the morning until early 
afternoon
     applying manure on days with low humidity and little or 
no wind
     applying manure at a site remote for neighboring 
residences if manure is not injected or immediately 
incorporated into the soil
     applying manure on land which is not frozen or snow-
covered
     preventing contaminated runoff by not applying manure to 
land which is saturated or contains ponded water
     preventing contaminated runoff by not applying manure 
near a creek or river
     preventing contaminated runoff by not applying manure 
during precipitation or when precipitation is imminent
     injecting manure
     determining the necessary application rate and properly 
calibrating your equipment
     using injection equipment which leaves crop residue 
intact and creates a level surface to plant crops without 
further tillage
     applying liquid waste at low pressure with little 
agitation if spreaders or sprayers are used to land apply
     fixing leaks in over-the-road manure hauling equipment 
and cleaning tillage equipment used to incorporate manure if 
travel on public roads is necessary

    This list is both complete and reflective of the current 
``contain and eliminate'' manure management paradigm. This list 
is what the industry is being asked to implement and is engaged 
in implementing. However, there are other less known 
alternatives and research is underway to minimize the amount of 
nutrients in the manure and the quantity of manure, 
transportation and storage of manure, and more efficient 
utilization of the manure in the production of alternative 
products from fuel to food. Examples of successful alternative 
manure management strategies include the Mason-Dixon Dairy in 
Gettysburg, Pennsylvania, S&S Aqua farms in West Plains, 
Missouri and the Solar Aqua Farms in Sun City, California.
    The Mason-Dixon operation produces 80,000 quarts of milk 
daily from over 2,000 cows, designs and manufacturers its own 
innovative equipment, producing energy, fertilizer and bedding 
from the dairy cow manure in a nearly self contained operation.
    Solar Aqua Farms raises 5 million pounds of tilapia in the 
middle of the desert, in tanks under greenhouses. A patented 
treatment and recycling system purifies the water and converts 
fish waste to organic fertilizers. The process was developed 
from efforts to turn human sewage into edible outputs and fresh 
water.
    S&S Aqua farms also uses a closed cycle, self balancing 
system and the natural nutrients from a biological source to 
grow safe, chemical-free, quality food.
    These are all examples of farms that have moved from 
monoculture production schemes to multiple product systems. 
These farms have incorporated animal manure into the production 
process-- ``collect and utilize''. There are many of these new 
types of farming systems developing throughout the world but 
they are still far outside mainstream thinking.

    In addition, considerable research efforts are underway at 
private and public universities and businesses. Some examples 
of these research thrusts include;
     Improving nutrient content of feeds (e.g. high oil corn) 
and better animal genetics will reduce the total quantity of 
manure while improved feed additives may enable more efficient 
uptake of feed nutrient.
     New collection systems to move manure from feed pens to 
storage facilities.
     New storage facilities that actively process manure for 
incorporation into new products (e.g. feed, fertilizer, soil 
additives, fuel)
     Use of manure as an input into fuel production (e.g. 
heat, methane, ethanol), food production (e.g. aquatic plants 
and animals, land based crops)

    Prior to the 1980's research in all these areas received a 
great deal of Federal support but today are almost exclusively 
funded through private industry. Currently, some $7.5 billion 
is provided to the ethanol industry through the $0.52 per 
gallon ethanol subsidy. Perhaps this level of funding on manure 
management could also induce more efficient use of the 
resource.


                  can the alternatives be implemented?


    The animal feeding industry is actively seeking new 
technologies for manure management and use, and implementing 
the currently available BMPs. However, they face financial 
constraints in the adoption of new technologies.
    Livestock producers typically exhibit extremely high levels 
of gross profitability although recent increases in energy and 
feed prices has severely reduced the profitability of poultry 
and hog production enterprises. Except in drought areas beef 
and dairy producers have been somewhat successful in 
maintaining high levels of gross profitability through the 
substitution of forage for feed. Gross profitability, defined 
as cash sales less cash expenses divided by cash sales (profit 
margin) has been consistently maintained at 15-30 percent from 
2000 to 2005. However, because the amount of sales generated 
per dollar of fixed assets has been low (due to land prices), 
the return on investment has been low relative to other 
businesses with equal risk.
    The beef feedlots, poultry processors and other similar 
downstream agribusinesses tend to have similar returns on 
investment. However, the low return on investment is the result 
of low profitability and high rates of sales per dollar of 
assets (Asset Turnover). The return on investment represents 
the potential income available to management for salaries and 
new investment, the funds available for constructing new 
structures and adopting new practices. The numbers provided 
below are averages and do not reflect the variation between 
years or within the industry. For example, the typical 30,000 
head feedlot had losses of nearly $1 million and profits of 
$600 thousand over a 10 year period from 1997 to 2006. Poultry 
production operations had negative incomes over the last 2 
years as a result of the high energy costs associated with 
heating and cooling and higher than normal feed costs.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Thus, while some funds are available for the adoption of 
new technologies, the amount of funds in a given year are 
highly variable and will reduce ownership's income. Because the 
return to investment is often below the returns to limited risk 
investments such as Certificate of Deposits, the decision to 
continue the operation is frequently not a good business 
decision but rather a decision that includes non-business 
factors such as desired lifestyle. Increased regulations that 
required the adoption of costly new technologies may lead to a 
relocation of the firm (to avoid the regulations) or exit from 
the industry. In most cases the exit is by smaller firms less 
able to spread the cost of new technologies over larger numbers 
of production units. The smaller operations assets are then 
acquired by larger firms, increasing industry concentration.


                   should new regulations be imposed?


    The Environmental Protection Agency (EPA) (Final rule: 40 
CFR Parts 122 and 412) extended certain compliance dates in the 
National Pollutant Discharge Elimination System (NPDES) 
permitting requirements and Effluent Limitations Guidelines and 
Standards for concentrated animal feeding operations (CAFOs) as 
a result of the decision of the U.S. Court of Appeals for the 
Second Circuit in Waterkeeper Alliance et al. v. EPA, 399 F.3d 
486 (2d Cir. 2005).

    The final rule revised the dates established in the 2003 
CAFO rule by which facilities;
     newly defined as CAFOs
     defined as CAFOs after April 14, 2003, due to operational 
changes
     and permitted CAFO's required to develop and implement 
NMPs

    must seek permit coverage and develop and implement their 
nutrient management plans from July 31, 2007, to February 27, 
2009

    Major changes made by EPA in its revised CAFO Rule include:
     All large CAFOs must apply for an NPDES permit, or 
demonstrate that they have no potential to discharge into 
waters of the United States.
     Large poultry operations using dry waste management 
systems are now covered by the CAFO Rule.
     New source poultry, swine, and veal operations, as 
defined by EPA in the Rule, must meet a ``no discharge'' 
standard. This standard only allows for discharge from the 
production area in the event of a 100-year, 24-hour storm or 
greater.

    EPA proposed to require only owners or operators of those 
CAFOs that discharge or propose to discharge to seek 
authorization to discharge under a permit. Second, EPA proposed 
to require CAFOs seeking authorization to discharge under 
individual permits to submit their NMPs with their permit 
applications or, under general permits, with their notices of 
intent. Permitting authorities would be required to review the 
NMP and provide the public with an opportunity for meaningful 
public review and comment. Permitting authorities would also be 
required to incorporate terms of the NMP as NPDES permit 
conditions.
    This rule follows the 1999 USDA/EPA United National 
Strategy for Animal Feeding Operations. This National Strategy 
is based on a national performance expectation that all Animal 
Feeding Operations should develop and implement technically 
sound, economically feasible, and site-specific CNMPs to 
minimize impacts on water quality and public health.
    This regulation requires that CAFOs have NMPs in place by 
2009 and that these NMPs will incorporate the best management 
practices as indicated in the NRCS National Technical Guide. 
Thus, by 2009, CAFOs will have plans in place for implementing 
best available technology.
    Some have suggested that we move animal manure under the 
Comprehensive Environmental Response, Compensation, and 
Liability Act of 1980 (CERCLA). Will this improve upon the 
results obtainable under the EPA NPDES rule?

    CERCLA Overview:
    The Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA), commonly known as Superfund, was 
enacted by Congress on December 11, 1980. This law created a 
tax on the chemical and petroleum industries and provided broad 
Federal authority to respond directly to releases or threatened 
releases of hazardous substances that may endanger public 
health or the environment. Over 5 years, $1.6 billion was 
collected and the tax went to a trust fund for cleaning up 
abandoned or uncontrolled hazardous waste sites.

    CERCLA:
     established prohibitions and requirements concerning 
closed and abandoned hazardous waste sites;
     provided for liability of persons responsible for 
releases of hazardous waste at these sites; and
     established a trust fund to provide for cleanup when no 
responsible party could be identified.

    The law authorizes two kinds of response actions:
     Short-term removals, where actions may be taken to 
address releases or threatened releases requiring prompt 
response.
     Long-term remedial response actions, that permanently and 
significantly reduce the dangers associated with releases or 
threats of releases of hazardous substances that are serious, 
but not immediately life threatening. These actions can be 
conducted only at sites listed on EPA's National Priorities 
List (NPL).

    CERCLA also enabled the revision of the National 
Contingency Plan (NCP). The NCP provided the guidelines and 
procedures needed to respond to releases and threatened 
releases of hazardous substances, pollutants, or contaminants. 
The NCP also established the NPL.
    Does the suggestion to move animal manure under CERCLA mean 
that a tax will be levied on the animal feeding industry, the 
animal industry, or agriculture in general? Do the proponents 
of this move intend that we fund the oversight agency with 
personnel sufficient to define manage each CAFO in the United 
States as a hazardous waste site?
    Are we prepared to fund the economic assessment of 
implement such a far reaching policy as required by statute? 
While the answers to these questions are important to determine 
the feasibility of redefining animal manure as a hazardous 
material, that fact that we already have regulations that have 
yet to be fully implemented makes the questions moot.


                                summary


    The fact that we are here today discussing the animal 
manure issue conveys the importance of the issue. Animal manure 
has too long been treated as a waste to be contained and 
eliminated rather than as a valuable resource that should be 
collected and utilized. The ``contain and eliminate'' paradigm 
has led to environmental issues of great concern to those 
individuals and communities near and downstream from the animal 
feeding operations. In response, State and Federal Government 
regulations have been promulgated to address these concerns and 
have not as yet been fully implemented.
    The new regulations will require many operations to make 
major investments in plant and operational changes that were 
not part of the original operation plans. We are currently 
unsure if the costs of implementing these strategies is 
exceeding by the benefits of doing so. BMPs developed to 
incorporate animal manure into fuel and food production may 
provide added benefits and increase the economic feasibility of 
both private and public support of adoption.
    CAFO initial operation plans contained the best 
technologies of the time. As we learn more about how animal 
manure interacts with the environment through different 
operations and in unique ecological systems, the best 
management practices of today will be changed. The animal 
feeding operations have limited funds to incorporate new 
technology and of course technological economies of size exist 
in the industry. Thus, requirements to adopt new technologies 
puts a greater burden on smaller operations. In response to 
financial constraints Federal and State governments have 
provided cost-share assistance and adequate timelines and 
consideration for financial burden.
    The industry is engaged in developing NMPs and implementing 
BMPs but these efforts won't be fully realized for several 
years. After full implementation of the new EPA National 
Pollutant Discharge Elimination System (NPDES) permitting 
requirements and Effluent Limitations Guidelines and Standards 
rule we can revisit the environmental concerns related to 
animal feeding operations and determine a future course of 
action. However, until we change to a paradigm of collect and 
utilize we will never truly address the issues surrounding 
animal manure.

    Senator Boxer. Thank you, sir.
    Our last speaker is Rick Dove who is a community 
representative from North Carolina, who works as a volunteer 
for Waterkeepers is my understanding, and other clean water 
organizations.
    Welcome, sir.

        STATEMENT OF RICK DOVE, COMMUNITY REPRESENTATIVE

    Mr. Dove. Thank you, Madam Chairwoman and Committee 
members. It is a pleasure to be here today.
    I am from North Carolina. I am here, as you stated, as an 
individual representing my family, my grandchildren and the 
many citizens of North Carolina who share my thoughts on the 
matter before this committee.
    When I retired from the Marine Corps in 1987, I walked out 
the front gate of Camp Lejeune, North Carolina and headed for 
my home on the Neuse River in North Carolina just below New 
Bern. I immediately traded my uniform and spit-shined shoes for 
a pair of waterman's boots and some old clothes. Then, with my 
son, Todd, I became a waterman, a fisherman, on the Neuse 
River.
    It was a childhood dream that I had to be a fisherman. For 
the first few years on the Neuse, things were fine. We were 
having a great time. My son and I owned a seafood store, three 
boats and 800 crab pots; life was good.
    Then, all of sudden, things changed. The fish began to die. 
My son and I began to get sick. We had sores on our bodies. I 
began to suffer memory loss. We didn't know at the time that 
all of what was happening to us was attributed to working on 
the river, but we knew was not healthy.
    My dream had turned into a nightmare. We had to walk away 
from the seafood business.
    During the next 8 years, the environmental transition in 
North Carolina was dramatic. In 1991, 1 billion fish in a 40-
square-mile area died in the Neuse River. Most had open, 
bleeding sores all over their bodies. Pictures of this are in 
my written statement, a copy of which I ask to be attached to 
the record.
    It wasn't just the dead fish. Algae was also covering the 
streams and creeks to the point where people couldn't get out 
on the water and use their boats. Some of these people lived on 
these waters in multi-million dollar homes.
    In 1995, another 20 to 200 million more fish died. And the 
algae continued to be a problem. I don't have time to cover all 
the bad things that were happening but it's all discussed in my 
prepared statement.
    Eventually, a large portion of the river was shut down. 
Signs were posted warning people not to go near the river. Some 
fishermen working on the water were breathing neurotoxins 
present in the air. As a result, they suffered memory loss and 
were unable to find their way back to the dock. When they got 
out of the water, they couldn't find their way home. These 
stories were all documented in North Carolina. Very similar 
accounts were reported and documented on the Pocomoke River in 
Maryland.
    We knew what was causing these problems and so did State 
authorities. It was nutrient pollution; too much fertilizer 
being discharged in the rivers. The Neuse River and many of the 
other waters in North Carolina were so polluted with nutrients 
they were declared nutrient-sensitive beginning as far back as 
1993 or 1994.
    After being driven from the river, I was fortunate to get a 
job with the Neuse River Foundation. I was hired as their 
Riverkeeper. For the next 7 years, I patrolled the Neuse to 
find and eliminate all sources of pollution. After my 
Riverkeeper assignment ended in 2000, I continued working as a 
volunteer for the Neuse River Foundation and its umbrella 
organization, the Waterkeeper Alliance.
    Working on the Neuse River, I got the chance to find out 
exactly what had happened to the river and who was polluting 
it. Many contributed but none more than the swine industry. 
When I got in an airplane and viewed the watershed from the air 
at a thousand feet, I could count 100 lagoons. At 2,000 feet, I 
could often smell the hog waste. There were so many hog 
lagoons. They were everywhere next to wetlands, streams, creeks 
and rivers.
    Often, especially during periods of heavy rain, the lagoons 
were full and the fields where they sprayed the waste were 
ditched. Most of these fields have pipes under them to carry 
the swine waste and rainwater directly to ditches and streams. 
The bottom line was that often this hog waste was being applied 
to fields not to grow crops, but to simply get rid of it by 
dumping.
    Let me give you an idea of just how much waste is produced 
in eastern North Carolina. Imagine I-95 cuts down through the 
State and divides the State. East of I-95 is the coastal plain 
of North Carolina. In the coastal plain of North Carolina, an 
environmentally sensitive area, there are 10 million hogs 
producing more fecal waste each and every day than would be 
produced by all the people in the States of North Carolina, New 
York, California, Texas, Pennsylvania, New Hampshire and North 
Dakota.
    It is stored in eastern pits called lagoons. Imagine if 
that were human waste. There is not a lot of difference between 
pig waste and human waste. Fecal waste is fecal waste 
regardless of where it comes from, and it is being slopped on 
fields under the pretext of growing crops.
    In North Carolina, when it rains, everything just goes 
crazy. The lagoons fill with rain and swine waste. Often, the 
fields are so wet they shouldn't be spraying but they do it 
anyway.
    Waste management plans are suppose to prevent this, but 
those plans are not worth the paper they are written on. Once 
the rain starts filling those lagoons, the pig waste is applied 
regardless of the weather.
    In North Carolina, some fear these sprayfields are so 
poorly suited, and you are going to have a hard time believing 
this, many swine producers simply turn their lagoons into 
fountains. They spray their waste into the air for the purpose 
of lowering the lagoon by misting the swine waste into 
surrounding communities where people live.
    I ask you to please play this little DVD, entitled, . . . 
the Rest of the Story. It is a14-minute video produced by the 
Environmental Justice of North Carolina. This video can be 
viewed on at http://www.riverlaw.us/healthissues.html In this 
video, you will see the suffering of the people in North 
Carolina. Listen to the people whose kids are breathing these 
harmful gases, people who live near these facilities. Most of 
these people were there before the swine factories moved in 
around them.
    My time is running out. I want to move along.
    Senator Boxer. You are going to need to just summarize in 
10 seconds. I know that is terrible.
    Mr. Dove. OK, in 10 seconds, I will. Senator, thank you.
    What is the hurry in addressing the exemption? We have had 
the CERCLA and EPCRA laws on the books for 30 years, and it has 
not impacted the CAFO industry. Why is the industry, now, all 
of a sudden, worried about this? Why is a preemptive strike 
necessary?
    The Congress does not have to be in a hurry to address 
this. In the testimony before this committee or in the record 
overall, is that any evidence that CERCLA or EPCRA has ever 
been misused so far as the CAFO industry is concerned? Why 
should relief be given if there is no misuse of the law? We 
need this law in North Carolina to help protect the people.
    Thank you.
    [The prepared statement of Mr. Dove follows:]

            Statement of Rick Dove, Community Representative

    Thank you, Madam Chairwoman and Members of the Committee on 
Environment and Public Works for the opportunity to testify 
today.


                              introduction


    My name is Rick Dove. I reside at 427 Boros Road, New Bern, 
NC 28560. I am a thirty-two year resident of North Carolina. I 
am here today speaking on behalf of myself, my family, 
especially my four grandchildren, and the many other citizens 
of North Carolina who share my view on the present and imminent 
dangers posed by industrial meat production in Confined Animal 
Feeding Operations (CAFOs). My short biographical sketch is 
attached as Exhibit 1.


                               background


    After retiring as a Colonel from the Marine Corps in 1987, 
I settled down with my family in eastern North Carolina on the 
south shore of the Neuse River below the city of New Bern. 
There, I worked to fulfill a childhood dream of becoming a 
commercial fisherman. At first, my business flourished, and 
with a small fleet of boats my son and I crabbed and fished a 
forty square mile area of the Neuse estuary. Part of our catch 
was sold at a local seafood store we owned. The remainder was 
sold on the wholesale market.
    In the mid 1980's, the Neuse was a much different river 
than it is today. The fish were healthy and plentiful. There 
were some water quality problems caused by failing waste water 
treatment plants and unsustainable development, but water 
quality was more than sufficient to safely support a high level 
of fishing and recreation. By the mid 1990's, this all had 
changed.
    In September 1991, more than a billion fish died in the 
area where my son and I fished. These dead and dying fish were 
covered with open, bleeding lesions on their bodies. Some fish, 
both alive and dead, had holes completely through their bodies. 
The stench was unbearable. There were so many dead fish that at 
one place on the north shore, the fish had to be buried with a 
bulldozer.\1\ Historically, small numbers of fish had always 
died on the Neuse during the hot summer months. But this fish 
kill was different. Never before had so many fish died in this 
manner.
---------------------------------------------------------------------------
    \1\http://www.abe.msstate.edu/csd/references/pfiester.htm
---------------------------------------------------------------------------
    At the same time as the fish were dying, my son and I both 
suffered the same type of lesions on our bodies that appeared 
on the fish. There were other symptoms. I experienced memory 
loss and respiratory problems. It would take years for doctors 
and scientists to medically link those symptoms to river 
pollution. Nevertheless, for my son and me, the consequence of 
what surrounded us was immediate. We had to stop fishing. 
Giving up on this long held dream was a tough decision, but 
there was no other choice. Not only did we have serious 
concerns for our health, we also worried about the safety of 
what we were catching and selling.
    Since 1991, fish have continued to perish in large numbers 
in the Neuse and other coastal waters of eastern North 
Carolina. Depending on conditions, such as when rainfall causes 
runoff, these kills quickly climb into the millions. In the 
Neuse, nearly all these kills were located in an area near New 
Bern. This area is the receiving and settling place for 
upstream waters, much of which originates and flows from the 
state's farmlands and cities.
    By the mid 1990's, the cause of these fish kills on the 
Neuse and other coastal rivers of North Carolina was identified 
by State officials as resulting from nutrient pollution, much 
of which, according to State officials, was coming from CAFOs. 
In fact, by 1993, the entire Neuse River watershed was listed 
by the State as nutrient sensitive, a designation it richly 
deserved. Normally, nutrient pollution simply deprives the 
water of oxygen and the fish suffocate. However, in 1995, 
nutrient pollution led to another, far more dangerous, 
consequence--Pfiesteria. Pfiesteria is a one-celled animal so 
tiny 100,000 could fit on the head of a pin. It produces a 
neurotoxin that paralyzes fish and sloughs their skin in order 
to devour the fish's blood cells. Simply put, it is a vampire 
organism. Once the news of these fish kills reached the public, 
the economic consequences that followed were swift and severe. 
After the 1995 fish kill, the tourism and fishing industries 
suffered substantial financial losses. So too did the real 
eState and development sectors of our community. Many of these 
consequences linger today.\2\
---------------------------------------------------------------------------
    \2\http://www.riverlaw.us/fishkills.html
---------------------------------------------------------------------------
    From April 1993 until July 2000, I served as the Neuse 
Riverkeeper. This was a full time, paid position funded by the 
Neuse River Foundation, a grassroots, non-profit environmental 
group. As the Neuse Riverkeeper, it was my responsibility, 
assisted by a corps of more than 300 citizen volunteers, to 
patrol the 6,100 square mile Neuse watershed by water, land and 
air. Importantly, it was our job to find, investigate, document 
and eliminate sources of river pollution. Over that period, 
more than 30,000 pictures and hundreds of hours of video were 
taken. In addition to boat and boot patrols, I personally spent 
more than 1,000 hours in the air locating and documenting non-
point sources of pollution, most of which involved CAFOs. 
During this period, I also had the good fortune of working with 
a number of dedicated State officials and renowned scientists 
whose peer reviewed research into water quality and CAFO 
related issues were extensively published. These include but 
are not limited to Drs. JoAnn Burkholder and Viney Aneja of 
North Carolina State University; Lawrence Cahoon and Michael 
Mallin of the University of North Carolina, Wilmington; Stanley 
Riggs of East Carolina University and Steve Wing of the 
University of North Carolina, Chapel Hill. Since stepping down 
as the Neuse Riverkeeper in 2000, I have stayed current on CAFO 
issues by volunteering my time with environmental and community 
groups monitoring CAFO issues.


         industrial animal production in eastern north carolina


    Nationally, North Carolina is the No. 2 producer of 
swine.\3\ Two eastern North Carolina Counties, Duplin and 
Sampson, rank one and two as having the highest concentrations 
of swine to be found anywhere in the United States.\4\ Other 
counties in eastern North Carolina rank in the top ten. Most of 
these CAFOs are located in poor communities, often of African-
American descent. CAFO confinement buildings, lagoons and 
sprayfields are routinely situated within a few feet of the 
houses of local residents. In most cases, these residents were 
there first. It was the CAFOs that moved into their 
neighborhoods.\5\ Overall, in the coastal plain of North 
Carolina, a tiny area located east of where I-95 divides the 
State, there are now approximately 2,500 industrial swine 
facilities with approximately 4,000 lagoons raising 10,000,000 
hogs.\6\ These lagoons are so concentrated that from an 
airplane flying at 1,000 feet over Duplin and other counties, 
more than 100 lagoons can be counted from a single spot in the 
air.
---------------------------------------------------------------------------
    \3\http://www.ncagr.com/stats/livestock/hoginv.htm
    \4\http://www.ers.usda.gov/publications/agoutlook/sep2000/
ao274g.pdf
    \5\hhttp:// www.unc.edu/news/archives/mar99/wing2.htm
    \6\http://www.riverlaw.us/consequences.html; http://
www.enr.state.nc.us/files/hogs/hogplan.htm
---------------------------------------------------------------------------
    This is a radical change from conditions that existed prior 
to the mid 80's. Then, there were 24,000 family farmers raising 
2.000,000 swine.\7\ It was a time in North Carolina's history 
when family farmers raised their livestock in close proximity 
to their neighbors without complaint. It was also a time when 
the waters and air of North Carolina safely supported the needs 
of its citizens.
---------------------------------------------------------------------------
    \7\http://www.riverlaw.us/
---------------------------------------------------------------------------
    That situation changed in the late 1980's, when North 
Carolina State senator, Wendell Murphy, along with the 
Smithfield Foods' slaughterhouse operations, helped invent a 
new way to produce pork. Thousands of genetically enhanced hogs 
would be shoehorned into pens and tiny cages in giant metal 
warehouses, dosed with sub therapeutic antibiotics and force-
fed growth enhancers in their imported feeds. Their prodigious 
waste would be dumped, sprayed, spilled and discharged onto 
adjacent landscapes, waterways and into the air.
    The amount of fecal matter produced by industrial swine in 
eastern North Carolina is staggering. Based upon a study by Dr. 
Mark Sobsey, professor of environmental sciences and 
engineering at the University of North Carolina School of 
Public Health\8\ that compared hog to human waste, the 
10,000,000 hogs in eastern North Carolina produce more fecal 
waste each day than is produced by all the citizens (combined) 
in North Carolina, California, Pennsylvania, New York, Texas, 
New Hampshire, and North Dakota.
---------------------------------------------------------------------------
    \8\http://www.riverlaw.us/realhogfacts.html
---------------------------------------------------------------------------
    In North Carolina, this incredible amount of fecal matter 
is constantly being flushed from the confinement buildings 
where these animals are kept. Once flushed, the feces and urine 
from these animals is stored in the open environment in huge 
earthen sewage pits called lagoons. These lagoons constantly 
discharge to the surrounding environment by leaking into the 
groundwater and vaporizing their compounds through the air. As 
the lagoons fill up, the waste is sprayed onto fields 
frequently tiled with drainage pipes that promote direct runoff 
to nearby ditches. Most all of these ditches are connected to 
public trust waterways.\9\ Since many CAFO sprayfields are 
located in areas with extremely high water tables and sandy 
soil, applied swine waste to fields at agronomical rates is 
literally ``thrown to the wind.'' Under these conditions the 
swine waste is not used to fertilize crops. Instead, CAFO 
owners simply spray the liquefied swine feces and urine into 
the air in order to lower lagoon levels through vaporization. 
It is a process that breaks the liquefied swine waste into 
small particles so it can be misted into surrounding areas. 
CAFO owners have no control over this swine waste as it is 
indiscriminately deposited throughout the surrounding 
community. This practice is growing in popularity among CAFO 
owners in North Carolina. State officials are aware of the 
process. They have advised me that they can find nothing in the 
law to prevent this from happening.
---------------------------------------------------------------------------
    \9\Impacts of Waste from Concentrated Animal Feeding Operations on 
Water Quality Volume 115 number 2, February 2007, Environmental Health 
Perspective
---------------------------------------------------------------------------
    The lagoon and sprayfield method of swine waste disposal is 
best characterized as an ``outhouse'' system. It causes 
substantial runoff to the public trust waters and pollution of 
the air in neighboring communities. It is especially 
problematic during periods of above average rainfall, which 
occur approximately one-half the time. It is a major polluter 
of both air and water through the release of ammonia, hydrogen 
sulfide and methane gases.
    North Carolina is also heavily populated with poultry 
operations. Each year, in CAFOs, more than 700,000,000 chickens 
and 40,000,000 turkeys are produced.\10\ Like swine waste, the 
feces and urine produced by these animals is overwhelming. It 
is also disposed of in a similar manner, except that there are 
usually no lagoons. Instead, poultry waste is composted prior 
to being applied to fields. As with swine CAFOs, most of the 
fields where poultry waste is applied contain drain tiles 
(pipes) and ditches to promote runoff to surface waters.
---------------------------------------------------------------------------
    \10\http://www.ncagr.com/stats/livestock/broilerprod.htm
---------------------------------------------------------------------------
    Please see Exhibit 2 for pictures that pertain to the 
testimony provided above.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    broken promises--lessons learned


    In the late 1980's and early 1990's, as the swine industry 
was busy setting up its CAFOs in eastern North Carolina, 
industry leaders told concerned citizens and political leaders 
that there would be no problems resulting from the use of 
lagoons and sprayfields. They claimed that as swine CAFOs were 
built, everyone would prosper; that new, good, high paying jobs 
would be created; and that local crop farmers would benefit as 
they produced crops needed for animal feed. They also calmed 
neighbors' fears by stating that the odors would be nonexistent 
or minimal and that infestation of flying insects, such as 
black flies would not occur. When health concerns were raised, 
swine CAFO promoters were quick to deny any possible link 
between human illnesses and hog waste, including the gasses 
emitted from that waste. They also boldly claimed that their 
operations would not adversely impact the environment because 
they were regulated as ``Zero Discharge Waste Facilities.'' 
These were claims and promises that could not and would not be 
kept. This is what followed:

    JOBS:
    The new jobs that were promised turned out to be low paying 
and undesirable. Moreover, it is an absolute falsehood that 
converting from traditional farming practices to CAFOs creates 
jobs. In fact, it destroys them. The very basis of CAFO 
production is to produce meat by reducing cost. Everything is 
consolidated and concentrated. CAFOs employ the fewest possible 
workers. The number of hog producers in the United States was 
more than 1,000,000 in the 1960's. By 2005, it had dropped to 
67,000.\11\ While some new jobs may have been created in North 
Carolina as the industry consolidated its production in the 
state, those gains clearly came at the expense of traditional 
family farmers throughout the United States. New jobs are not 
being added due to the need for increases in hog production. 
According to the U.S. Department of Agriculture, the number of 
hogs in the U.S. inventory today is nearly the same as it was 
in 1915.
---------------------------------------------------------------------------
    \11\Community Health and Socioeconomic Issues Surrounding 
Concentrated Animal Feeding Operations Environmental Health 
Perspective, Volume 115 number 2, February 2007

    ODOR AND INSECTS:
     Of all the statements made by CAFO owners, the one that 
claimed that there would be no offensive odors and no increase 
in flying insects, like black flies, is most reprehensible. 
Citizens throughout eastern North Carolina where CAFOs are 
located have complained about these problems since the CAFOs 
first arrived. Today, when questioned about the problem, the 
best swine industry officials offer is that ``odor is in the 
nose of the beholder.'' While the problem with odor and insects 
is well documented in scientific reports and the complaints of 
citizens, nothing of real substance has been done to alleviate 
the problem.\12\
---------------------------------------------------------------------------
    \12\ http://www.rollingstone.com/politics/story/12840743/porks--
dirty--secret--the--nations--top--hog--producer--is--also--one--of--
americas--worst--polluters/4

    THE HUMAN HEALTH COSTS OF CAFOs:
    Like similar operations across the country, North Carolina 
swine and poultry CAFOs emit significant amounts of particulate 
matter (fecal matter, feed materials, volatile organic 
compounds, skin cells, bioaerosols,etc.), ammonia, hydrogen 
sulfide, sulfur dioxide and other harmful contaminants into the 
air. Air pollution from CAFOs has been directly linked to 
increased respiratory diseases (such as asthma, 
hypersensitivity pneumonitis, industrial bronchitis) 
cardiovascular events (sudden death associated with particulate 
air pollution), and neuropsychiatric conditions (due to odor as 
well as delayed effects of toxic inhalations). People working 
in and near CAFOs have experienced increased headaches, sore 
throats, excessive coughing, diarrhea, burning eyes and reduced 
quality of life compared to more distant residents. CAFO air 
pollution is especially problematic, because residents close to 
these facilities are exposed on a near constant basis.\13\
---------------------------------------------------------------------------
    \13\For information on these pollutants and the human health 
impacts identified in this paragraph see the following: Iowa State 
University and The University of Iowa Study Group, Iowa Concentrated 
Animal Feeding Operations, Air Quality Study, Final Report (2002) 
(``Iowa Air Quality Study''), http://www.publichealth.uiowa.edu/ehsrc/
CAFOstudy.htm; Minnesota Planning Agency Environmental Quality Board, 
Final Animal Agriculture Generic Environmental Impact Statement (2002), 
(``Minnesota EIS for Animal Agriculture''), http://www.eqb.state.mn.us/
geis/ for information concerning health impacts of particular AFO air 
pollutants; North Carolina Residents, 108 Envtl. Health Persp. 223-38 
(2000); S. Wing & S. Wolf, Intensive Livestock Operations, Health, and 
Quality of Life Among Eastern K. Thu et al., A Control Study of the 
Physical and Mental Health of Residents Living Near a Large-Scale Swine 
Operation, 3 J. Agric. Safety & Health 1, 13-26 (1997)
---------------------------------------------------------------------------
    Ever since the hog industry established CAFOs in North 
Carolina, citizens have been complaining and expressing their 
health concerns as hog waste was being sprayed on their persons 
and property, odors and black flies invaded their houses and 
their wells became contaminated. They also complained about the 
lack of redress on these matters from State officials and CAFO 
owners. Recently, a number of these citizens from across 
eastern North Carolina recorded their concerns and feelings in 
a locally produced documentary entitled:. . . .the Rest of the 
Story: Corporate Hog Farming in North Carolina. This 14 minute 
documentary more appropriately presents the environmental 
injustice these citizens suffer far better than I could 
possibly do through my testimony. A copy is attached as Exhibit 
3. Your review of this material is highly encouraged.

    THE SAD TRUTH:
    In North Carolina, like the rest of the country, none of 
the air pollution emitted by CAFOs is regulated or controlled 
by State or Federal agencies. None of these operations has 
Clean Air Permits or anything equivalent under North Carolina 
law. As a result, there are few, if any, regulatory 
requirements to address air and odor pollution from swine and 
poultry factories and citizens have little legal recourse when 
they experience these afflictions. As Pickle Robins, a local 
farmer living next to a swine CAFO once told me, ``They can 
just put the stink on you and there isn't anything you can do 
about it and that's the sad truth.''

    DRINKING WATER CONTAMINATION:
    Throughout eastern North Carolina, residents depend heavily 
on private wells to supply drinking water for their families. 
Due to widespread concerns voiced by these citizens that their 
wells might be contaminated with nitrates from animal waste, in 
his second term, Governor James B. Hunt, Jr., made free well 
water testing for nitrates available to all North Carolina 
citizens living adjacent to industrial swine facilities. During 
the next 2 years, a total of 1,595 wells in 57 counties which 
were adjacent to swine facilities had been tested for nitrates. 
The results were alarming. Of the tested wells, 163 (10.2 
percent) showed nitrate contamination at or above the drinking 
water standard of 10 mg/L. In some counties, the percentage of 
contaminated wells was near 50 percent.\14\ Contaminated wells 
continue to be discovered and the North Carolina General 
Assembly has been pressed by local citizens to address the 
problem
---------------------------------------------------------------------------
    \14\http://www.epi.state.nc.us/epi/mera/ilocontamination.html

    CAFOs POLLUTE OUR WATERWAYS:
    Nutrient pollution from swine CAFOs has been scientifically 
linked to the fish kills previously mentioned in this testimony 
and the growth of algae and other aquatic vegetation that 
clogged North Carolina waterways. Along the Trent River, a 
major tributary of the Neuse, more than 71 miles of waterway 
was identified as impaired by State officials as a direct 
result of nutrient pollution from CAFOs.\15\ As a result of 
these fish kills and the dangers presented by Pfiesteria 
outbreaks, State officials posted the Neuse River estuary with 
signs warning citizens not to go in or near the water when fish 
are distressed and/or dying.
---------------------------------------------------------------------------
    \15\http://H<INF>2</INF>O.enr.state.nc.us/list--303d/listnar.pdf
---------------------------------------------------------------------------
    What impact has pollution from swine and other CAFOs had on 
the Neuse River? In 1995, 1996 and 1997, due to nutrient 
pollution from CAFOs and other sources, the Neuse was listed as 
one of the most threatened rivers in North America. That 
listing, coupled with media attention and lawsuits brought by 
the Neuse River Foundation, forced State officials to take 
affirmative action aimed at reducing nutrient loading to the 
Neuse. Unfortunately, these efforts have only been partially 
effective. What success has been achieved in nutrient reduction 
has been credited more to drought conditions and the 
corresponding lack of runoff than anything the State has done, 
especially as it relates to pollution from CAFOs.
    In 2006, a number of internationally renowned North 
Carolina scientists (Dickey, Burkholder, Reed, Mallin, Cahoon 
et al) released the results of a 10-year data collection and 
analysis project undertaken for the purpose of determining 
water quality trends in the Neuse River estuary. The study 
period was from May 1993 to June 2003. All sampling and 
analytical procedures were recognized by both State and Federal 
regulatory agencies, and any modifications were sanctioned by 
the Environmental Protection Agency. The study found that the 
loading of nutrients, especially nitrogen, should have been 
substantially reduced over the period due to a reduction goal 
legislated by the North Carolina General Assembly. This goal of 
attaining a 30 percent reduction in nitrogen arriving at the 
Neuse estuary required major adjustments by nearly all major 
contributors. Based upon the actions taken, a substantial 
reduction should have resulted. Many crop farms have ceased 
production and those remaining have cut their use of fertilizer 
by as much as 40 percent. Industrial and municipal wastewater 
treatment plants substantially upgraded their facilities to 
reduce nutrient discharges. At the Neuse estuary and upstream 
to Goldsboro, 11 wastewater dischargers committed to the 
removal of their river discharges (most now removed). 
Additionally, mandatory buffer protections were enacted along 
with rules substantially restricting the discharge of sediments 
and stormwater. Unfortunately, there was no reduction. To 
everyone's dismay, the report noted an alarming increase in 
ammonia levels found in the Neuse estuary. It also revealed 
that concentrations of ammonium, the most destructive form of 
nitrogen, dramatically increased by 500 percent. Ammonia not 
only stimulates prolific alga blooms, it is also the agent that 
promotes fish kills. Where is all that ammonia coming from? 
According to State authorities, ``Approximately 2/3 of the 
nitrogen in the swine excretions is emitted to the air in 
accordance with the design of a lagoon and sprayfield system. A 
DENR study estimates that swine facilities produce 20 percent 
of North Carolina's total atmospheric nitrogen compounds which 
react with other constituents in the air and is deposited to 
land, vegetation, and water bodies. This figure is 53 percent 
for just Eastern North Carolina''\16\
---------------------------------------------------------------------------
    \16\http://www.enr.state.nc.us/files/hogs/hogplan.htm (originally 
publish at this site--no longer available) Excerpts available at 
www.riverlaw.us
---------------------------------------------------------------------------
    The Neuse is not alone in the degradation suffered from 
CAFO pollution. In a related set of trend analyses, a 
significant increasing trend in ammonium concentrations was 
also found for an adjacent, more rapidly flushed system, the 
Cape Fear Estuary.\17\
---------------------------------------------------------------------------
    \17\Burkholder, J.M., D.A. Dickey, C. Kinder, R.E. Reed, M.A. 
Mallin, G. Melia, M.R. McIver, L.B. Cahoon, C. Brownie, N. Deamer, J. 
Springer, H. Glasgow, D. Toms and J. Smith (2006) Comprehensive trend 
analysis of nutrients and related variables in a large eutrophic 
estuary: A decadal study of anthropogenic and climatic influences. 
Limnology and Oceanography, volume 51, pp. 463-487.
---------------------------------------------------------------------------
    Millions of fish died in other rivers as well. Many had 
open, bleeding lesions on their bodies similar to those in the 
Neuse. In 1995, the New River near Jacksonville, North Carolina 
was severely impacted when a CAFO lagoon broke through its 
earthen wall. More than 20,000,000 gallons of swine waste 
spilled into the river killing millions of fish.\18\ Large fish 
kills related to nutrient pollution have also been reported in 
the Tar-Pamlico River and the Pamlico Sound and in other waters 
across North Carolina.\19\
---------------------------------------------------------------------------
    \18\http://scholar.lib.vt.edu/VA-news/VA-Pilot/issues/1995/
vp950626/06260030.htm
    \19\http://www.esb.enr.state.nc.us/Fishkill/fishkill.htm
---------------------------------------------------------------------------
    It is not surprising that in 2007, in large measure due to 
CAFO pollution, the Neuse was placed back on the list of the 10 
Most Endangered Rivers in America.\20\
---------------------------------------------------------------------------
    \20\http://www.americanrivers.org/site/PageServer?pagename=AR7--
MER2007--Neuse

    WIND, RAIN AND FLOODS:
    When hurricanes, tropical storms and heavy rains routinely 
threaten to flood North Carolina, pollution discharges from 
CAFOs substantially increase. In aerial flights over swine 
CAFOs immediately preceding heavy rain events, large numbers of 
CAFOs are observed dumping animal waste just hours before the 
storm's scheduled arrival. The number of CAFOs spraying waste 
under these conditions far exceeds what would be observed on a 
normal day. Clearly, these operators understand that what they 
are applying on their fields will, for the most part, be washed 
into the wetlands, streams and rivers once the heavy rains 
arrive. For these operators, it doesn't matter. Their only 
objective is to do everything they can to lower their lagoon 
levels in advance of the storm.\21\ North Carolina is often 
referred to as ``hurricane alley.'' It is a well deserved 
label. Unfortunately, the swine lagoons in eastern North 
Carolina lay directly in the path of these storms. The results 
are often catastrophic. In 1999, when hurricane Floyd made its 
way across North Carolina's coastal plain, more than 50 lagoons 
were flooded. So much hog waste was spilled that its pinkish 
color could be clearly observed running down the river. 
Thousands of hogs, both alive and dead, were also observed in 
the river, on the tops of flooded confinement buildings and in 
piles waiting to be buried. Estimates of dead hogs ranged 
widely between 30,000 and 400,000. The correct number may never 
be verified. After the storm, Governor Hunt promised that all 
of the flooded lagoons as well as those in the flood plain, 
would be shut down. Later, he changed his mind and proclaimed 
that only those CAFOs that were damaged by more than 50 percent 
would be eliminated. In the end, only a handful were shut down. 
Most still remain in harms way waiting for the next storm and 
new promises of corrective action.\22\
---------------------------------------------------------------------------
    \21\http://www.riverlaw.us/hurricanefloyd/hurricaneisabel.html
    \22\http://www.riverlaw.us/hurricanefloyd.html http://www.mhhe.com/
biosci/pae/es--map/articles/article--53.mhtml
---------------------------------------------------------------------------
    Some years the State experiences excessive rainfall. This 
last occurred in 2003 when rainfall exceeded 100 year record 
levels. The rains began in January and continued through 
October. The fields were so saturated that farm tractors were 
unable to plow many of the fields. On many farm fields, what 
crop was able to be planted, drowned under the onslaught of 
water. Meanwhile, the rains continued to fill the lagoons. This 
situation was exacerbated by the inability of swine CAFO 
operators to apply swine waste to fields at agronomical rates 
as required by law and their waste management plans. As the 
hogs kept eating and defecating, the lagoons filled even 
faster. One solution would have been to reduce the size of the 
swine herd. That didn't happen. The swine inventory at the 
beginning of the year was reported at 9,000,000. At year's end, 
it was recorded at 10,000,000. Under these conditions, it was 
impossible for most CAFOs to follow the law and apply their 
swine waste at agronomical rates. So where did all that waste 
go? No doubt--it went down the river. This is clearly 
documented in the pictures and video that were taken during the 
year.\23\
---------------------------------------------------------------------------
    \23\http://www.riverlaw.us/enforcement.html
---------------------------------------------------------------------------
    As a result of the developing problems in CAFO operations, 
since 1997, the North Carolina General Assembly has imposed a 
moratorium on the construction of new hog lagoons and 
sprayfields (except for those obtaining permits before the 
effective date of the moratorium).

    ANTIBIOTICS AND CAFOs:
    Industrial meat producers routinely dose their animals with 
sub-therapeutic antibiotics for non-medical purposes, primarily 
to stimulate unnaturally rapid growth in hogs. The excessive 
use of antibiotics is an integral part of the production system 
both to bring them to market faster and to keep them alive in 
otherwise unlivable conditions. Many of the antibiotics given 
to livestock, such as tetracycline, penicillin, and 
erythromycin, are important human medicines. Up to 80 percent 
of antibiotics administered to hogs pass unchanged through the 
animal to bacteria rich waste lagoons. This soup is then spread 
on sprayfields, allowing the antibiotics to enter groundwater 
and run off into surface waters.
    Routine administration of sub-therapeutic antibiotics 
endangers public health by contributing to drug-resistant 
pathogens with which humans and animals may come in contact 
through groundwater, surface water, soil, air, or food 
products. Once antibiotics have entered hog factory effluents, 
they can enter waterways and spread through the environment in 
low concentrations--killing susceptible bacteria and leaving 
resistant survivors to multiply. Resistant bacteria can then 
infect people who swim in lakes and rivers or drink well water. 
The Environmental Protection Agency has found antibiotics 
administered to swine, in lagoons, groundwater, air above 
sprayfields, adjacent waterways and the main stream of the 
Neuse River.
    In January 2001, the Union of Concerned Scientists issued a 
report that included the following shocking statistic: 84 
percent of all antibiotics consumed are used in livestock, the 
vast majority for non therapeutic purposes! The hog industry 
uses 11 million pounds of antibiotics annually while a 
comparatively modest three million pounds are used in human 
medicine.\1\
---------------------------------------------------------------------------
    \1\NRDC, Cesspools of Shame, How Factory Farm Lagoons and 
Sprayfields Threaten Environmental and Public Health, 2001.
---------------------------------------------------------------------------
    Antibiotics administered to hogs are now making their way 
into the air, groundwater and our rivers and streams .At one 
North Carolina CAFO, swine antibiotics have been found in the 
tap water. The EPA has also reported finding antibiotics used 
in swine production in the main stream of the Neuse River.\2\
---------------------------------------------------------------------------
    \2\http://www.factoryfarm.org/docs/CivEngSeminarPresentation.pdf
---------------------------------------------------------------------------


                        the governors speak out


    Having credibility on CAFO issues is critically important. 
The industry works hard and spends a great deal of money on 
lawyers and lobbyists who attack critics in an effort to 
confuse the issues. While there are countless peer reviewed 
scientific studies that clearly support my testimony, some of 
the strongest support for what I have stated comes from two of 
North Carolina's leading State officials who served as Governor 
during the establishment of CAFOs and the aftermath that 
followed. These were: Governors Hunt (1993--2001) and Easley 
(2001--). Their positions on swine CAFOs are set forth below:
Governor James B. Hunt, Jr. (1993--2001)
    In the late 1990's, then North Carolina Governor James B. 
Hunt, Jr's administration strongly condemned the pollution 
practices of swine CAFOs.
    Here are some excerpts from his State sponsored website:\3\
---------------------------------------------------------------------------
    \3\http://www.enr.state.nc.us/files/hogs/hogplan.htm (originally 
publish at this site--no longer available) Excerpts available at 
www.riverlaw.us

    ``Background''
    Swine production has mushroomed over the last decade. 
Despite a decreasing number of swine facilities, the number of 
hogs has increased threefold to ten million. . . .There are 
approximately 2,400 major swine facilities in North Carolina 
with approximately 4,000 active anaerobic lagoons, and there 
are about 650 inactive swine lagoons. . . ..

    Economic Impacts
    . . . .swine production in North Carolina can produce 
significant odor, reduce neighboring property value, and harm 
tourism.
    Environmental and Public Health Impacts
    . . . .the environmental and public impacts of the swine 
industry demand further action by the State and the swine 
industry. Swine production impacts to the environment and 
public health are listed below.

     Surface Water. Surface water can be contaminated by 
discharges from the lagoons or run-off from sprayfields. In 
1998, there were 107 documented discharges from swine 
facilities with 31 of these reaching the surface waters.
     Groundwater. Groundwater can be contaminated either 
through leaking lagoons or leaching of sprayfield applied 
waste. An NCSU study showed that waste from 38 percent of 
older, unlined anaerobic lagoons leaked nitrogen compounds into 
the groundwater at ``strong'' or ``very strong'' levels, while 
preliminary estimates of a Department of Environment and 
Natural Resources (DENR) study indicate that 25 percent of 
lined facilities may leak to contaminate groundwater. DENR data 
show that conventional sprayfields seem to be just as 
problematic as lagoons.
     Odor. Odors are generated from lagoons, sprayfields, or 
swine houses. When odors are not confined to the property of 
the operations, they have the potential to cause health 
problems, heightened community tensions, and losses in property 
values. . . .
     Atmospheric Deposition. Approximately 2/3 of the nitrogen 
in the swine excretions is emitted to the air in accordance 
with the design of a lagoon and sprayfield system. A DENR study 
estimates that swine facilities produce 20 percent of North 
Carolina's total atmospheric nitrogen compounds which react 
with other constituents in the air and is deposited to land, 
vegetation, and water bodies. This figure is 53 percent for 
just Eastern North Carolina.
     Nutrient Imbalance. The rapid growth of the swine 
industry has resulted in a nutrient imbalance in parts of North 
Carolina. The feed imported to swine facilities generates more 
nutrients than receiving plants, land, and waters can absorb. 
For example, 95 percent of the nitrogen in manure produced in 
the Neuse River Basin is imported from outside the basin.
     Public Health. Swine waste is a source of nitrates in 
groundwater and pathogens in the ground and surface waters 
which can directly impact human health. Odors too can adversely 
impact human health as they can cause coughing, nausea, 
dizziness, headaches, and burning eyes as well as psychological 
effects. . . .''

Governor Michael F. Easley
    In 2000, while campaigning for Governor, Michael Easley, 
the current Governor of North Carolina, published a White Paper 
containing the following commitments to rid the State of swine 
CAFO lagoons and their pollution.\4\
---------------------------------------------------------------------------
    \4\http://www.riverlaw.us/thegovernors.html
---------------------------------------------------------------------------
    ``My comprehensive clean water plan starts with the obvious 
point that the anaerobic swine waste lagoon and spray field 
system has proved to be too risky. It must go. As Governor, I 
will lead a broad, consistent effort to address the 
environmental degradation caused by large-scale, factory hog 
farming. Certainly, the companies that own and profit from the 
hog industry must bear their fair share of legal liability when 
the people they hire break our water quality laws. Those who 
enjoy direct financial benefits from hog production must have 
an economic incentive to promote compliance with State 
environmental rules. Therefore, my Administration will make 
sure that major hog companies, and other ``integrators'' of 
small farmers into large-scale hog operations, share liability 
for water quality violations at their contract farms.
    Moreover, a lagoon phase-out, starting with those abandoned 
and in flood plains or other at-risk locations, is also 
critical. Hog lagoons have spilled into our waterways too 
often, and the issue of damage from atmospheric nitrogen and 
ammonia falling as rain is too serious to continue with 
``business-as-usual.''
    As a result, the phaseout of hog waste lagoons must begin 
immediately, and be subject to a strict timetable. Demanding 
compliance with this timetable will force the development of 
new, environmentally friendly technologies to control hog 
waste. As such technologies develop, the timetable can be 
accelerated. But mandatory deadlines are necessary to continue 
the pace of research and development, and to force 
implementation. Specifically, as Governor, I will insist on the 
following timetable:

    (1) Large scale, on-farm installation of testing and new 
technologies, at the expense of integrators, to begin 
immediately;
    (2) Testing, evaluation, and oversight of new waste 
facilities, by independent scientists, beginning in year one;
    (3) Full scale installation of the technologies found most 
effective, no later than years three and four; and
    (4) Completion of phaseout and total elimination of the 
lagoon system no later than year five, and substantially sooner 
if the independent scientists determine that faster 
implementation is possible.

    Whether by the initiative of the elected branches or by 
court order, the outmoded lagoon system will be replaced. The 
real question is what will take its place. Converting to 
cleaner, safer waste technologies will come at a price. We must 
be sensitive to independent family farms, so many of which have 
attempted to operate responsibly. These farmers simply played 
by the rules set by the General Assembly. Still, they must 
convert and, as Governor, I will see that they do so. While the 
conversion is underway, large-scale farms must make operational 
improvements, including buffers, biocovers, and windbreak 
walls, to minimize dangers to our waters, as well as our air''


               north carolina 2007--hope turns to despair


    In 2007, the North Carolina General Assembly was poised to 
pass legislation mandating a plan to rid the State of the 
lagoons and sprayfields used by CAFOs . Several pending bills 
would have accomplished the following:\5\
---------------------------------------------------------------------------
    \5\http://www.ncga.state.nc.us/gascripts/BillLookUp/
BillLookUp.pl?Session=2007&BillID=s1465
---------------------------------------------------------------------------
     Set a date certain after which the use of lagoons and 
sprayfields would no longer be authorized for use by swine 
CAFOs.
     Ban the construction of new lagoons
     Establish new standards required for the treatment of 
swine waste
     Provide some State funding to help small swine producers 
make the transition from lagoons to the newly approved 
technologies.
     Provide some limited funding to help private citizens 
with contaminated wells obtain other sources of drinking water.

    By the time the legislative session ended in August 2007, 
little remained of what was originally proposed. The date 
certain legislation was turned into a study bill and the 
legislation to prohibit new lagoons was totally compromised. A 
bill was passed that did ban the construction of lagoons on 
newly constructed facilities. However, through intense lobbying 
of the swine CAFO industry, a compromise brokered by Governor 
Easley provided for the repair of existing lagoons and 
replacement of those lagoons with new lagoons when they could 
no longer be repaired and imminently threatened public health. 
Swine lagoons have a useful life of approximately 20--25 years 
and at some point they will all have to be replaced. In this 
regard, there is little doubt of where the industry is headed. 
Lagoons and sprayfields represent the cheapest method for 
disposing of hog waste. Regardless of their harm, operating 
lagoons is profitable and that is the industry's bottom line.
    Making matters worse was another amendment that encouraged 
the continued use of existing lagoons and sprayfields by swine 
CAFOs through the capture of methane gas. What this legislation 
authorized was the partial covering of existing lagoons with a 
tarp to capture methane gas. The intended outcome is for CAFO 
owners to be able to sell that methane to utility companies for 
up to four times its true market value. Utility companies 
participating in the methane capture program would be permitted 
to pass these additional costs to their ratepayers. The capture 
of methane gas is a laudable objective, but it must incorporate 
the newly approved technologies that move the industry away 
from lagoons and sprayfields that massively pollute.


            why cafo pollution must be brought under control


    By illegally polluting, industrial hog producers gained a 
critical advantage over their competitors--the traditional 
family farmer--in the marketplace. These are not businessmen 
making an ``honest buck.'' Instead, they are lawbreakers who 
make money by polluting our air and water and violating the 
laws with which other Americans must comply.
    Environmental lawbreaking is an integral component of 
factory pork production. Records of State environmental 
agencies in over a dozen states demonstrate that factory hog 
producers are chronic violators of State and Federal law. For 
example, North Carolina's Department of Environment and Natural 
Resources (``NCDENR'') records show thousands of violations of 
State environmental laws by Smithfield's facilities During 
periods of above average rainfall, violations are significantly 
increased. NCDENR officials readily admit that at critical 
times they do not have the resources to enforce the law. As a 
result, enforcement is virtually non-existent except for what 
private citizens are able to do pursuant to the provisions of 
the Federal Clean Water Act. The number of violations is 
believed to be considerably greater since, prior to 1995, the 
environmental agency was not even allowed to know the locations 
of the hog factories, or to inspect them unless `invited' to do 
so by the operators or owners. Even today, State water quality 
inspectors and State and local county health officials are not 
permitted to go inside swine CAFO confinement buildings. That 
is the sole responsibility of the State Veterinarian who works 
under the North Carolina Department of Agriculture--a CAFO 
friendly agency. The massive and persistent drumbeat of 
violations recorded in these documents prove that hog factories 
and their facilities are chronic, deliberate and habitual 
violators of State laws designed to protect the environment and 
minimize discharges of swine waste.
    Indeed, without breaking the law, pork factories cannot 
make money and produce hogs as efficiently or cheaply as family 
farmers. Industrial pork producers instead rely on rare 
inspections and small fines by State regulators. The rare 
penalties and small dollar amounts occasionally dispensed by 
State enforcers never provide sufficient incentive for the 
industrial pork barons to stop their lawbreaking. These fines 
amount only to a trivial cost of doing business.\6\
---------------------------------------------------------------------------
    \6\www.riverlaw.us; http://www.senate.gov/?gov--affairs/
031302dove.htm
---------------------------------------------------------------------------


                              alternatives


    There are myriad alternatives to the CAFO lagoon and 
sprayfield system, but the industrial hog producers refuse to 
adopt innovations that might cut profit margins. In 2000, 
Smithfield Foods, the world's largest pork producer, entered 
into an agreement with the Attorney General of North Carolina 
that funded the evaluation of environmentally superior waste 
management technologies for use on North Carolina swine farms 
owned by them. Later, Premium Standard Farms and Front Line 
Farmers, joined in the agreement. Smithfield and Premium 
Standard provided all the funding for this effort.. Dr. Mike 
Williams, Director of the Animal and Poultry Waste Management 
Center at North Carolina State University was designated to 
oversee the project. As a result of this effort, a number of 
technologies were developed that would, when fully implemented, 
eliminate the use of CAFO lagoons and sprayfields. One approved 
system was, Super Soils. Unfortunately, the Smithfield 
Agreement provided that any new technology had to be 
economically feasible. This provision, by measuring the cheap 
cost of constructing and operating a lagoon system against any 
new technology, made it impossible to meet economical 
objections from swine CAFO owners. However, one study concluded 
that while costs were higher for Super Soils systems, there 
were benefits that dramatically outweigh these costs.

    The result of one study reported by the Charlotte Observer 
on July 15, 2007, stated:
    ``our State could gain the economic equivalent of 7,000 
jobs and enjoy a $10 billion economic boost if the industry 
adopted technology that produced usable by-products from hog 
wastes. The Super Soils technology identified by researchers at 
N.C. State University would provide one effective alternative. 
Farmers could produce container mix for use in nurseries and 
other plant growers and boost employment. Over a 20-year period 
that could generate thousands of jobs and produce up to $1.1 
billion in farm revenue. It also would reduce air pollution and 
dangers to health and avoid accidental lagoon breaches that can 
pollute waterways''
    So why would CAFO industry leaders refuse to give these new 
technologies a chance in North Carolina where they are so 
desperately needed? The answer to that question probably has 
less to do with North Carolina than it does with the swine 
industry's operations across the rest of America's farmlands. 
When new innovative technologies are successfully adopted and 
proven to work in this state, their use will be demanded 
wherever lagoons and sprayfields are in use. The record of this 
industry clearly reflects that regardless of the public need 
and benefit, industrial bottom line financial considerations 
will always prevail.
    Does the industry have the financial ability to make the 
switch to cleaner technologies? They do! Smithfield Foods, the 
world's largest swine producer and owner of most all hogs in 
North Carolina, has doubled its net earnings over the past 5 
years to 11.5 billion dollars. Their CEO and other top 
executives are rewarded annually with millions in bonuses.\7\
---------------------------------------------------------------------------
    \7\http://www.changetowin.org/why-organize/corporate-hall-of-shame/
smithfield-foods.html
---------------------------------------------------------------------------
    Another alternative to swine and other CAFO production is 
traditional family farming where hogs and other livestock are 
raised without lagoons and confinement buildings. No one has 
ever stood in line to buy pork in America. Traditional family 
farmers have always been able to keep the shelves full. 
Industrial farming practices do have a serious downside. Too 
often, corporate profits take precedence over all other 
considerations, including animal welfare, environmental 
protection, social responsibility and the safety of residents 
living of neighboring communities. CAFOs represent a race to 
the bottom. It is not sustainable and it will fail. Clearly, 
these facilities operate outside the laws of nature. To believe 
that raw animal waste can be safely contained in 4,000 thousand 
earthen pits left baking under the hot summer sun in a 
concentrated and environmentally sensitive area of the state--
is nothing short of insane. There will be consequences. The 
question is--how bad and when?


                              conclusion:


    North Carolina's experience shows that the environmental 
laws which limit pollution from factory farms need to be 
strengthened, not weakened. Any effort to amend CERCLA and 
EPCRKA to exempt CAFOs would be a significant reversal, 
eliminating much needed protection for our communities and the 
environment while rewarding known polluters with an ill-
deserved amnesty. CAFO owners, especially the large 
integrators, contend that they are not a part of the problem. 
After all, it's just manure. And if, as they claim, there is no 
problem, why are they seeking relief from laws that support 
public safety and protect our air and water?
    Farm industry lobbyists and supporters claim that CAFOs are 
already extensively regulated under the Clean Water Act, the 
Clean Air Act, and that CERCLA and EPCRKA add unnecessary 
regulatory burdens. In fact, no swine or poultry operations in 
North Carolina are regulated under the Clean Air Act, and only 
swine operations are covered by Clean Water Act NPDES permits. 
In the wake of the 2002 Waterkeeper Alliance v. EPA court 
decision, the North Carolina poultry operation successfully 
lobbied State agencies to exempt most poultry CAFOs from the 
requirement to obtain an NPDES permit. As a result, in North 
Carolina an entire industry, one now seeking an exemption from 
CERCLA, is unregulated by any environmental law.
    North Carolina's NPDES permits, like nearly every other 
CAFO permit in the Nation, rely on the calculation of agronomic 
rates that let swine producers apply as much waste to fields as 
crops can take up. Unfortunately, this method has failed to 
prevent discharges of excess nutrients to our streams and 
rivers, and of course, there is no agronomic rate for 
pollutants such as fecal coliform and other pathogens. In 
short, current research indicates that the Clean Water Act 
regulatory program is insufficient to protect our surface 
waters and groundwater drinking supplies.
    It is important to recognize that the solution to many of 
the pollution problems caused by factory-style livestock 
operations may be solved by sustainable family farmers. These 
farmers, historically the bedrock of American agriculture, are 
not subject to the requirements of CERCLA and EPCRKA and would 
not benefit from the proposed exemption. Indeed, Congress had 
this community in mind in 1986 when it originally drafted 
CERCLA to have an exemption for the ``normal field application 
of fertilizer.'' The proposed changes to CERCLA and ECPRKA 
amount to a legislative bail-out that would only aid large 
factory farm operators who are unable to manage responsibly the 
large quantities of manure they produce. Some operations have 
polluted groundwater and surface water with excess nutrients 
and dangerous pathogens, arsenic and other toxic metal 
compounds and antibiotics.
    The scale of this pollution can be truly shocking. There is 
evidence that some large animal confinements can release 
enormous quantities of toxic chemicals--comparable to pollution 
from the nation's largest manufacturing plants. For example:

     Threemile Canyon Farms in Boardman, Oregon, reported that 
its 52,300 dairy cow operation emits 15,500 pounds of ammonia 
per day, more than 5,675,000 pounds per year.\1\ That's 75,000 
pounds more than the nation's No. one manufacturing source of 
ammonia air pollution (CF Industries of Donaldson, Louisiana) 
reported according to the 2003 Toxics Release Inventory.
---------------------------------------------------------------------------
    \1\Letter from Tom Lindley on behalf of Threemile Canyon Farms to 
EPA Region X, April 18, 2005
---------------------------------------------------------------------------
     Buckeye Egg's facility in Croton, Ohio, had ammonia 
emissions of 1,600,000 pounds in 2003.\2\ This amount 
corresponds to roughly 4,400 pounds per day, or about 44 times 
the reporting threshold that EPA set based on health 
considerations.
---------------------------------------------------------------------------
    \2\United States v. Buckeye Egg Farm, L.P. et al, Civil Action 
No.3:03 VC7681,

    CERCLA currently provides a much needed avenue of response 
for community officials. In an often-cited example, the city of 
Waco, Texas is spending more than $54 million for capital 
improvements specifically to deal with taste and odor problems 
caused by excessive phosphorus pollution from dairy cow waste. 
Facing what appeared to be ever-increasing water treatment 
expenditures to eliminate ever-increasing nutrient loadings 
from agricultural operations, the City urged upstream feeding 
operations to adopt better manure management techniques. When 
that effort failed, they used the most effective legal tool 
available: a CERCLA cost recovery suit. The suit--against 14 
operations that had a history of problems--was used not to shut 
down dairies or collect moneys from farmers, but to leverage 
new, enforceable agreements for better manure management at 
these facilities.
    If Congress amends Superfund with a special exemption for 
livestock waste, it will deny the city of Waco and others 
American communities a critical legal tool for protecting their 
invaluable water supplies from pollution by large-scale 
agricultural operations that fail to properly manage their 
waste. Such an amendment would declare that water users, not 
polluters, must bear the burdens of pollution, a radical shift 
from the ``polluter pays'' principle enshrined in CERCLA and in 
our common sense of right and wrong.
    Another impact of the proposed exemptions would be to 
prevent Federal, State and local emergency responders from 
accessing information about toxic releases from these 
facilities. As discussed above, many of the large feeding 
operations release large volumes of hazardous air pollutants, 
such as ammonia and hydrogen sulfide and an increasing number 
of studies have found a variety of health problems among animal 
feeding operation workers and residents who live near these 
operations, including bronchitis, asthma, and antibiotic-
resistant bacterial infections. These findings are of great 
concern to many rural communities, and action by Congress to 
ban reporting by these facilities would do a great disservice 
to those who are working hard to develop a better understanding 
of the full impacts of these releases.
    Representatives of some large-scale agriculture operations 
have argued to Members of Congress and to farming communities 
that such an amendment is urgently needed to protect family 
farms from frivolous lawsuits and allow farmers to continue to 
use manure as fertilizer for crop production. These assertions 
are simply untrue, and grossly misrepresent both remedies 
available under the statute and current legal trends. There are 
three key points correcting this misinformation. First, as 
indicated above, CERCLA's cost recovery and reporting 
requirements do not threaten responsible operators who manage 
manure as a valuable fertilizer. Second, neither CERCLA nor 
EPCRKA contain ``citizen suit'' provisions similar to those in 
the Clean Water Act or Clean Air Act. In fact, only municipal, 
State and tribal governments can bring the type of cost-
recovery actions brought by the city of Waco and State of 
Oklahoma. Third, there is no rash of frivolous lawsuits 
currently clogging the courtrooms of America and forcing 
farmers into bankruptcy. In fact, in the 25-year history of 
CERCLA, there have been only 3 cost-recovery lawsuits against 
animal feeding operations to address manure-related 
contamination.

     City of Tulsa v Tyson Foods targeted several large 
chicken operations and attempted to recover costs for water 
treatment incurred by the City and the Tulsa water utility. The 
case was settled in 2003.
     In 2004, the city of Waco sued 14 dairy operations for 
water quality problems with Lake Waco, the City's drinking 
water supply. Settlements were reached with all 14 defendants.
     In 2005, the State of Oklahoma sued large-scale poultry 
producers for redress of water quality problems in the Illinois 
River watershed. This case is still pending.\3\
---------------------------------------------------------------------------
    \3\Civil Action No. 4:05-cv-000329 JOESAJ, United States District 
Court for the Northern District of Oklahoma.
---------------------------------------------------------------------------
    These lawsuits involved large-scale animal operations or 
operations that had a history of problems with manure 
management. In each case, the lawsuit followed long controversy 
and attempted negotiations regarding waste management 
practices. Lawsuits were filed after previous negotiations 
failed and water quality conditions worsened. Settlements 
involved plans for improved manure management, not penalties.
    As indicated by the scope of the pollution problem caused 
by factory farms, we need strong, broad, and effective 
environmental laws to protect natural and human resources from 
the ill effects of industrial-scale livestock pollution.
    While CERCLA's cost recovery provisions are important for 
governmental responses to hazardous conditions, for advocates 
like myself, the real value of the law, and of EPCRKA's 
parallel provisions, lies in the right-to-know reporting 
provisions of CERCLA Section 103 and EPCRKA Section 304. 
Information about chemical releases enables citizens to hold 
companies and local governments accountable in terms of how 
toxic chemicals are managed. Transparency also often spurs 
companies to focus on their chemical management practices since 
they are being measured and made public. In addition, the data 
serves as a rough indicator of environmental progress over 
time. The amendment proposed by the livestock industry's allies 
would deprive Americans of this much needed resource, and 
prevent them from playing meaningful roles in the democratic 
process.
    The answer to the current situation, one in which rural 
residents are forced to endure sickness and nuisances, is more 
reporting of air emissions as required by CERCLA and EPCRKA, 
not a reprieve for those responsible for creating such misery. 
CERCLA and EPCRKA create an obligation for large livestock 
producers to share information with their neighbors, 
information that is vital for identifying, treating, and 
preventing illnesses; information that allows community leaders 
and health officials to develop protective placement and 
response plans; information that reveals the truth about this 
industry and inspires reforms in its practices. In North 
Carolina and across the Nation, we need more of this 
information, not less.
    Very respectfully submitted
    Rick Dove



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Boxer. Thank you so much.
    Let me take my 5 minutes. I think I'd like to take 7 
minutes, then give 7 minutes to Senator Inhofe.
    Let me just say, Mr. Dove, I thank you so much for your 
testimony because you speak for me here. We are not asking to 
pass new regulations or anything of that sort. When I say we, 
those of us who believe that we shouldn't make an exemption for 
this kind of waste.
    We are just saying keep the law the way it is. The clean 
actors, and I would ask Mrs. Chinn, you have not been sued, 
have you, under this law?
    Mrs. Chinn. It is my understanding that my farm does not 
fall underneath CERCLA.
    Senator Boxer. Right, good.
    Mrs. Chinn. But my family has a comprehensive nutrient 
management----
    Senator Boxer. Whoa, whoa, whoa. I don't have time. You 
have never been sued under the laws, right?
    Mrs. Chinn. No, because we abide by the laws. There are bad 
actors, and they should----
    Senator Boxer. That is my point, Mrs. Chinn, if you might. 
You were very eloquent. I need some time here to make my point.
    I think that is the point. There are wonderful good actors, 
families like yours, that we all support.
    Look, I come from the largest ag State in the union. Our ag 
industry is not only a plus; it is our heritage. It is our 
heritage. So our people want to keep it that way, and they want 
to keep a good name for ag. That is why our attorney general 
along with many others have stated, please don't exempt these 
big concentrated animal farm organizations from the law.
    What is happening, just to put it on the table, is there 
are those who are trying to do that in the Farm Bill. The 
reason I called this hearing is my concern. I certainly don't 
speak for everybody on the Committee. I haven't even polled the 
Committee, but I wanted to have this hearing to make the point.
    Now, Mr. Dove spoke about the bad actors, what is 
happening. We have a picture. We actually took it off your 
website. We will show you.
    First of all, if we could put up again the beautiful of 
Mrs. Chinn's operation which speaks for itself, and we will 
show you a lagoon in one of these bad actors' back yards. There 
you go. You can see the holding ponds, how clean they are, 
right?
    Well, take a look at this. This is from a concentrated 
animal feed operation. It is not a family farm. It is 
industrialized agriculture, and the color pink comes about from 
the combinations of the bacteria and the poisons here. Indeed, 
the spraying, you can see the sprays going on.
    Why, in God's name, would we ever want to expose the people 
to this kind of situation? It is just terrible.
    The beautiful, idyllic picture that was painted by Mrs. 
Chinn is one I agree with. I have seen it in farm after farm, 
in operation after operation in my State, the good actors. God 
bless them, and we will protect them from any damaging kind of 
regulation.
    But these bad guys or these corporate farms that have no 
heart and soul, that could care less, let me tell you what 
happened in the Midwest, your neck of the woods. At least 24 
people in the Midwest have died.
    I quoted you. It was a very beautiful quote about how from 
the farm to the fork, I think you said, it is the greatest.
    Well, it is usually the greatest, but it isn't the greatest 
here. Twenty-four people in the Midwest died from inhaling 
hydrogen sulfide and methane from manure since the seventies 
including fifth generation Michigan dairy farmer, Carl 
Theuerkauf, and four members of his family who collapsed one by 
one in 1989 after breathing methane gas.
    But the death toll from manure may be much higher. 
Cryptosporidium, a microorganism found in animal waste, killed 
104 people and sickened 403,000 in Milwaukee in 1993 in an 
outbreak, some blamed on manure from nearby livestock farms.
    A local health department and the Centers for Disease 
Control and Prevention suspected manure caused seven 
miscarriages in a small farming community in Indiana between 
1991 and 1993 by contaminating wells. ``I thought the water I 
was drinking was good water,'' said Melissa Dickerson, who was 
22 and pregnant at the time.
    So, from my standpoint, we have a problem here. We have the 
supersizing of America's livestock farms.
    We have a good law that says for the normal application of 
manure, you are fine. You just do that. But when it gets to be 
25,000 animals, 1,000,000 animals, it causes a different 
situation, and people are dying.
    This isn't some romantic notion about let our farmers farm. 
This is about big corporate industrial size farms. No one wants 
to go after the good actors.
    Professor Dicks, my question for you is because I agree 
with you very much that we need to treat manure as a valuable 
resource. I think methane digesters are one great example of 
this type of technology that helps to reduce pollution while 
increasing a farm's bottom line.
    Do you agree that CAFOs should be making better use of 
manure as a resource and should stop treating manure like a 
waste and disposing of it by simply dumping it on the ground?
    You said it shouldn't be looked at as a waste, and I agree 
with you. Don't you think they should stop dumping on the 
ground in excess amounts so that it contaminates our lakes, our 
rivers, our streams and our groundwater?
    Wouldn't that be the solution to all of this, sir?
    Mr. Dicks. Well, Senator, I am not going to agree or 
disagree with you. What I will say is that----
    Senator Boxer. Well, I quoted you. You said it should be 
treated as a resource.
    Mr. Dicks. I will say that most of these operations are 
going to do what is in their best interest, and they are going 
to go the universities. They are going to go to the government, 
and they are going to look to them for guidelines on what they 
should do.
    They are going to ask the Natural Resource Conservation 
Service what they should be doing with the nutrient. If the 
best management plan that they give them is to spread it or to 
land applicate it, that is what they are going to do.
    Senator Boxer. Yes, and if it winds up looking like this 
and getting people sick, that may not be the right thing, and 
that is why we need this law, this Federal law to underscore 
that we hold people accountable. This Superfund is not a 
regulation. It simply gives people the right to know and the 
right to take action if a member of their family dies or they 
get sick.
    For the life of me, I don't get how people who say they are 
fans of agriculture could be against that when it could 
undermine the faith that this Country has in its food.
    The last thing I want to do is put into the record an 
editorial from the Idaho Statesman. This is a part of our 
Country that couldn't be more conservative. The Barbara Boxers 
of the world simply don't seem to get many votes in that part 
of the world.
    Let me tell you what they said. As the dairy industry 
continues to grow, the U.S. Department of Ag estimated the June 
dairy cow count at 486,000. The larger operations should be 
required to report their environmental impacts.
    They quote a woman, Courtney Washburn of the Idaho 
Conservation League: Public health doesn't distinguish between 
the source of the pollution. Large livestock operations 
described by critics, accurately enough, as factory farms--and 
this is the paper talking--can release tons of ammonia among 
other pollutants.
    This very conservative part of the Country, in the Idaho 
Statesman's words, says: Critics rightly want ag operations 
covered by the comprehensive Environmental Response 
Compensation and Liability Act, known as Superfund and the 
Emergency Planning and Community Right to Know Act which 
require large industries to report pollution to Federal and 
local agencies.
    [The referenced material can be found on page 147.]
    Senator Boxer. For me, this hearing has been tremendous 
because I have heard the opponents of keeping the law the way 
it is; I have heard the proponents.
    In my view, I have always said, the best road to follow is 
protecting public health because when you do that, everybody 
wins. Agriculture wins. The people win. We don't have stories 
like yours, Mr. Dove, of sadness in families that can no longer 
use the resources.
    So I thank you very much, and I would add a couple minutes 
on, giving Senator Inhofe 9 minutes.
    Senator Inhofe. That is fine. Thank you, Madam Chairman.
    You know one thing about this Country, there is such a 
plethora of publications around that you can always find 
extreme examples to use. I have done it myself.
    But I look upon these hearings as more hearings, hearing 
from you guys. So that is why I am pleased that we are having 
this second panel. Again, I thank you for your patients in 
coming back.
    Mrs. Chinn, Mr. Dove raises questions about property 
values, and you heard his testimony. I think Mr. Nemec spent 
about 5 minutes talking about how lousy some of the life is in 
some of these areas.
    I would ask you first, do you live on your farm?
    Mrs. Chinn. Yes, sir. All of my family lives on our farm, 
and we are proud of that.
    Senator Inhofe. I saw in the picture there, you have a boy 
and a girl?
    Mrs. Chinn. I have a son and a daughter.
    Senator Inhofe. A son and a daughter, OK. Well, that is a 
boy and a girl, yes.
    [Laughter.]
    Senator Inhofe. I would like to know. It sounds to me like 
that you are a very conscientious person.
    Now you are using land application, I would assume, aren't 
you?
    Mrs. Chinn. Yes, we do, sir.
    Senator Inhofe. What about property values? You are in 
northeastern Missouri?
    Mrs. Chinn. Yes, we are in northeastern Missouri. In the 
last 5 years around our farm, there have been six brand new 
homes built, and these are people who have lived there all of 
their lives. They know we are there. They are not afraid of us.
    The farm that adjoins the farm you see in that picture was 
up for sale last year. It sold for $300 an acre over the 
appraised value, which was 18 percent above appraised value. 
The farm that adjoins that one sold this last summer for over 
$650 per acre over the appraised value, which was 33 percent 
above appraised value. So we are not seeing property values go 
down in our area because of our livestock farm.
    The house that you see in that picture is where my husband 
was raised. This year alone, the property value increased 
$25,000 on that house.
    Senator Inhofe. That is good.
    You just heard Professor Dicks talk about the return on 
investment for farmers and how at some point the costs of 
complying with regulations will outweigh the income derived 
from farming. Farmers, unlike many U.S. workers, have to invest 
in their business and spend a great deal of their working lives 
in debt, paying for their capital assets.
    Without asking you to go into any detail about your 
personal finances, can you speak about the return on investment 
for farmers and how much of their income is actually invested 
in their facility? Do you have anything off the top of your 
head?
    Mrs. Chinn. We have a very small return on our investment, 
and everything that we have goes directly back into our farm. 
The only thing we take out is what it costs us to live, to feed 
our children and to provide a roof over their heads and clothes 
on their backs.
    Our entire life is what you see there in that picture, and 
our dream is to some day be able to give that to my children. 
So we invest everything that we have back into that operation, 
but our operating margin is extremely small. It is tight.
    Senator Inhofe. Professor Dicks, you have probably heard 
this before, but you brought up something when talking about 
the cost of regulations. You have heard my story of one of the 
reasons I am here today is I spent 30 years out in the real 
world, getting beat up.
    Some of the over-regulation, I think it is very costly but 
makes us non-competitive. I remember one time I was doing a 
development in south Texas and I had to go to 26 different 
governmental agencies to get a dock permit, and this is the 
information age.
    Do you have anything you would like to share with us? Let 
us start off with the cost of regulations, anything you have 
come here with?
    Mr. Dicks. No. No, sir, I haven't in specific. I will tell 
you that the cost of regulations is a major component of most 
agricultural operations, whether it is with respect to time and 
filling out forms.
    Senator Inhofe. It is, and I think the best evidence of 
that is that when I became Chairman of this Committee--before 
the Democrats took control in January, I was Chairman of this 
Committee for 4 years--most of the ag community would come in 
and say what happens in this Committee is more significant than 
what happens in the Ag Committee because this is where they 
have a lot of these things.
    I remember one time they were trying to make propane a 
hazardous material. We would have another layer of bureaucrats 
crawling all over every farm in my State of Oklahoma. The cost 
is just unbelievable. In fact, there was testimony as to what 
the cost would be to each family at that time just on that one 
bill. It was $700 a year, oddly enough.
    Is the group that you have represented, Chris, associated 
with ag leadership?
    Mrs. Chinn. Yes, we are. We do develop leaders in 
agriculture.
    Senator Inhofe. OK. I remember in this very room, a bunch 
of people coming in, wearing red coats--I didn't know who they 
were--just about the time that we killed the bill in the 
Committee that would have had that application to propane, and 
they stood up and they cheered.
    Afterwards, they said, this is the first time we realized 
what you are up against here in Washington.
    Well, let me get to another thing. Professor Dicks, I am 
very, very proud of OSU and all the research they have done, 
what they are doing with sorghum and biomass, and you guys are 
just light years ahead of many other research operations.
    If you look past the manure as a waste product and you were 
to eliminate as a land application, what would be the initial 
consequences?
    Mr. Dicks. Well, I think it would be devastating. There 
simply isn't an option right now that is economical other than 
land application.
    You understand the problem is that we have developed all 
these systems with that end in mind. So all the systems, all 
the facilities have been designed and developed so that we can 
eliminate that waste through land application. In order to move 
to the next stage, we have to totally redesign those systems 
and how we collect the manure.
    Senator Inhofe. When you look at something like this, the 
pink water up here, why is it that I don't see that in 
Oklahoma?
    Mr. Dicks. It has to do with how they manage that lagoon, 
and it has probably not been managed well.
    Senator Inhofe. Yes, and that can happen. It can happen in 
Oklahoma. It could happen anywhere else. Maybe we are blessed 
with people who are more concerned about their property and the 
environment than maybe some of the others are.
    Have you seen anything that extreme, Mrs. Chinn?
    Mrs. Chinn. No, I have not. In Missouri, we have strict 
rules and regulations that we must follow. Often, our State 
rules are more restrictive than the Federal regulations upon 
us.
    Senator Inhofe. So you can continue to use a land 
application of manure.
    Mrs. Chinn. Yes, we do.
    Senator Inhofe. And still have that level of pristine 
results that you are getting.
    Mrs. Chinn. Yes, we do. We follow all of our DNR rules and 
regulations and our guidelines. We use best management 
practices, and we don't have a problem like that.
    Senator Inhofe. You use land application yourself and you 
probably, with your operation, sell it to others too, is that 
correct?
    Mrs. Chinn. Actually, we are not fortunate enough to sell 
it. We give it away to be a good neighbor because it is 
important to us to reinvest in our community. If our row crop 
farmers can't afford to produce corn, we can't afford to feed 
our hogs. So we work in close partnership with all of our local 
farmers, and we give that nutrient away to be a good neighbor 
because we are in this together as a team.
    The cost for labor in our area is high. We have 40 
employees, and the average salary for our employees is $36,000 
a year. The median salary in my county for a male is $25,900.
    We have long term employee retention. We do not use 
immigrant labor. It is all local community.
    Senator Inhofe. What would you use to substitute the land 
application of manure if that were taken away?
    Mrs. Chinn. What would we use if we couldn't use manure?
    Senator Inhofe. Yes.
    Mrs. Chinn. Well, our grain farmers would be forced to buy 
commercial fertilizers, and I have no idea what would happen to 
my family farm if we couldn't do that anymore, what we would do 
with our nutrients. Probably, we couldn't afford. I know we 
couldn't afford to relocate to a foreign country, so we would 
more than likely go out of business.
    Senator Inhofe. Of course, about 90 percent of the cost of 
fertilizer is natural gas. We see what is happening there.
    Mrs. Chinn. Correct.
    Senator Inhofe. Therefore, it gets passed on ultimately, I 
suppose, to the customer.
    Mrs. Chinn. Right, but we can't pass it on to our customer.
    Senator Inhofe. I appreciate very much your coming all the 
way from OSU. That is where I enjoyed an evening 6 days ago.
    Dr. Dicks, is there anything else that you can think of 
that you feel you would like to share in this hearing, perhaps 
that was in your written statement that you didn't get a chance 
to talk about?
    Mr. Dicks. I think two things I want to touch on briefly. 
One is this idea of the structure of agriculture that Senator 
Boxer has brought up. If we have a problem with the size and 
concentration of the industry, we should attack that head-on.
    To have a regulation about waste or to have payment 
limitations or any other means to try to deal with the 
structure of the agriculture problem, that is going to produce 
lots of downstream impacts that probably are unintended. If we 
have a problem with the structure of agriculture, we need to 
approach that problem directly and not through some sidebar.
    My problem with having animal manure classified as a 
hazardous material is exactly what Senator Bond said. Once you 
do that, it puts stops on every other type of utilization of 
that product. I am all about trying to figure out how to 
utilize that, how to collect it, how to utilize it, how to make 
valuable products out of it.
    You make that a hazardous waste; you have a real problem 
with doing that.
    Senator Inhofe. That is a very good statement.
    I appreciate the time of all of you.
    Mr. Dove, I thank you for your service in the United State 
Marines. I hope you are watching the successes we have had in 
Fallujah where the Marines went door to door, World War II 
style, and it is now totally under the ISR security right now. 
Your Marines are still performing. Thank you very much.
    Senator Boxer. Senator Inhofe, I am going to make some 
closing statements. I am going to take about 5 minutes. Would 
you like to make some additional closing statements?
    Senator Inhofe. No, I don't think so. I do have a 
commitment, that I have got to make a live address in 7 
minutes.
    Yes, I do have one last request here.
    Senator Boxer. Go ahead, please.
    Senator Inhofe. For the record, we have four things to ask 
to be included in the record. One is a brief filed by the State 
of Texas in the city of Waco lawsuit; second, a letter sent to 
the Committee last year by a farmer sued by the city of Waco; 
third, an executive summary of a study done by Lake Waco; and, 
last, descriptions of agriculture programs in New York and 
California.
    I ask unanimous consent they be made a part of the record 
of this Committee hearing.
    Senator Boxer. They will be made part of the record, 
Senator.
    Senator Inhofe. Thank you.
    [The referenced material can be found on pages 153, 183, 
240, and 214.]
    Senator Boxer. All right, so we are going to bring this to 
a close, and I have a final statement.
    I think that, Mrs. Chinn, of all of our witnesses, you 
proved my point which is that the good actors aren't troubled 
by our laws and shouldn't be. They go right ahead, doing the 
right thing, and everyone is happy around them.
    But the bad actors are troubled. They are troubled. Now 
they can hide behind the good actors all they want, but we are 
going to tell the truth about the situation. The truth will be 
told, and it will be told here as I make sure that this record 
is complete. It will be told to the members of the Ag 
Committee, who may want to take some of our jurisdiction and 
weaken our laws.
    It will be told on the U.S. Senate floor, and if I have to 
stand there through the night, telling the stories about this, 
I will. So those people who want to weaken these laws, I hate 
to say it, but I am ready. I am ready to take this on, and I 
will have a lot of friends with me.
    Some of those friends are the U.S. Conference of Mayors who 
say don't weaken our laws, the National Association of Counties 
who say don't weaken our laws, the National Association of City 
and County Health Officials who say don't weaken our laws, the 
American Public Health Association, the National League of 
Cities, the American Waterworks Association, the Iowa 
Department of Natural Resources, the city of Waco, the city of 
Tulsa, Oklahoma, the Institute for Ag and Trade Policy, the 
National Environmental Trust, the Sustainable Ag Coalition, 
Food and Water Watch, attorneys general from eight States, the 
National Association of Clean Air Agencies, the American 
Metropolitan Water Agencies, the Natural Resources Defense 
Council, the Sierra Club, the Union of Concerned Scientists, 
Environmental Integrity Project, Earth Justice, the Humane 
Society of the U.S., U.S. PIRG Environmental Working Group, 
Western Organization of Resource Councils, Waterkeeper Alliance 
who I think we heard a good voice from them, the Walton League 
of America.
    Here is the point. There are lots more, but this is just 
what I have been able to pt together for today. This is going 
to be a fight.
    The hearing that I heard, the witnesses I heard from today, 
all helped me and gave me information, starting with Mrs. 
Chinn, the first panel and going through. All of you, wonderful 
witnesses, really helped me today, and for that I am grateful.
    This morning, I didn't have time to share with you an 
article that appeared in the Kansas City Star. So I am going to 
go and read some of that to you and for the record. This is not 
10 years ago or 5 years ago or 1 year ago. This is August 3d, 
2007, this article.
    One winter day this year, Sandra Heasley was taking a 
shower and suddenly the water turned to dark brown and a 
revolting smell filled the bathroom.
    I want everyone to think of this as a family. It turns out 
her home in West Plains in southern Missouri is across the road 
from a large indoor dairy farm where manure was piled several 
feet deep outside.
    The experience was a nightmare for Heasley who said she 
took to her bed for a week.
    Can you imagine getting in a shower and having cow manure 
come through the shower head, the 62-year-old woman asked.
    This week, Missouri Attorney General Jay Nixon filed a 
lawsuit against the owners of the dairy, alleging violations of 
the State's Clean Water Law. The lawsuit comes after years of 
complaints from neighbors.
    Manure was being stacked several feet deep in pastures and 
dumped along Route K in a creek bed, according to the Missouri 
Department of Natural Resources.
    The farm used what is known as a traveling gun. This is 
what you described to us, Mr. Dove.
    This is all new to me. I am a city kid. I represent an ag 
State, but I admit I grew up in the city.
    They used a traveling gun to shoot the manure up into the 
trees, the report says.
    The flies are so terrible here. They line up on a wire in 
the barn just solid, said Larry Swendener, a neighbor who says 
his well is contaminated.
    It is atrocious. These are good families too.
    Neighbors soon complained to the Natural Resources 
Department about the pungent odor of cow excrement and swarms 
of flies. At least two neighbors told the State their wells 
were contaminated.
    Several neighbors said they didn't want to see the farm go 
out of business, but they wonder why it has taken so long to 
protect their health and their property values.
    The Howard County Health Department says there is no doubt 
the Heasley well is contaminated with E. coli.
    Safe from the farm to the fork? E. coli and coliform, 
bacteria that comes from fecal matter.
    Justin Frazier, the Health Department's Environmental 
Supervisor, tested Heasley's water in early February.
    This story goes on and on. If anyone is interested, they 
can finish reading it.
    Then you have the Salt Lake Tribune, another area that is 
not known for its Democrats. I don't think we have seen a 
Democrat from that State in the Senate in a long time. This is 
what they say.
    Manure Factories Don't Rate Protection, Politics Stink, 
Salt Lake Tribune: When is the fecal matter produced by 
thousands of cows, pigs or chickens not an environmental 
hazard? When Congress says it isn't, which is exactly what will 
happen if the bill with the sickeningly sweet title of the Ag 
Protection and Prosperity Act becomes law.
    Always watch out when you see those titles.
    While things like stopping nuclear waste in Utah draw the 
press, environmentally destructive nonsense like this Cow Poop 
Is Good For You Law move quietly forward.
    The 1980 law known as Superfund scares the owners of giant 
animal feeding operations because it allows government to go 
after polluters after the fact and hold them responsible for 
the stinking mess they or their corporate ancestors make.
    Saying that manure isn't a pollutant is part of the usual 
agribusiness scam, pretending that they are engaged in benign 
animal husbandry and shouldn't be micromanaged by government. 
But the stuff isn't supposed to flow out of huge protein 
factors, but sometimes it does.
    It is not fertilizer for the garden. It is an industrial 
scale pollutant reeking with ammonia, nitrogen and phosphorus, 
carrying antibiotics and synthetic hormones, fouling water 
supplies and creating giant dead zones in coastal waters.
    The environmental credentials of anyone who would exempt 
this from environmental regulations are hardly credible.
    So I am going to put that in the record, the Idaho 
Statesman article in the record and there is the Plain Dealer 
called Looking Out for the Farmer Who Lieth and the Register-
Guard, Unlovely Lagoons. I am putting that all in the record 
for you to read.
    [The referenced material can be found on pages 146 and 
148:]
    Senator Boxer. I think that the die is cast here. We have a 
law that is working. It could work better. We certainly don't 
want to weaken it.
    We need to protect the public health and safety. If there 
is one thing I care about, it is that. You know who is the most 
impacted when we do the wrong thing, our children, because of 
who they are, because their bodies are changing and they are 
very sensitive. That is where they are like the canary in the 
coal mine, and that is why you see asthma in our kids. It is 
clear: they are impacted first.
    What kind of people are we to turn away from what has to be 
done which is making sure that our farms thrive but they do it 
in an environmentally responsible way?
    Look, I come from a State that is on the cutting edge of 
environmental protection. Guess what? We are the most 
prosperous State. Guess what? We have grown the most.
    Guess what? We have a great ag industry, more specialty 
crops than anybody, 200, 300 hundred different crops in our 
State. We do fine. We have tough laws. We have tough rules. Our 
attorney general says keep the Federal law. It is important.
    So I would just urge all of you who have come out today, 
who have said weaken these laws, to rethink what you are doing. 
Ask yourself, deep in your heart, if you are doing it for the 
right reason or you are doing it for the wrong reason.
    The wrong reason is to exempt a whole industry for a reason 
that makes no sense by redefining what a dangerous waste is. 
That is not the way to go.
    I had a hearing on infrastructure in my State. Actually, 
there was an expert there who said: I have a way out of the 
problem. Let us just change the language. Let us just say these 
bridges we said are structurally deficient. Just change the 
language and don't call them that anymore, and the problem will 
go ahead.
    I don't think so. I don't think if you call that bridge in 
Minnesota something else, it wouldn't have collapsed.
    Well, I don't think you stop people from getting sick, some 
even dying and taking a shower in brown water and that is going 
to go away if we suddenly redefine ourselves out of this 
problem by saying, oh, well, yes this is a waste over here, but 
it is not really a waste over there. This is dangerous when it 
is over here, but it is not dangerous over there. We need to be 
just frank and honest with each other here.
    This is going to be a battle. I wanted to have this hearing 
today to draw the lines of that battle. I hope maybe they will 
go away, and they won't try to weaken these laws.
    But I ask each and every one of you to think to yourself: 
What would you do if you were in my shoes and your first 
priority was to protect the health and safety of the people? 
What would you do?
    Think about that and know that all four of you have added 
immeasurably to this debate, and I thank you all from the 
bottom of my heart, and we stand adjourned.
    [Whereupon, at 3:05 p.m., the committee was adjourned.]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                    <all>


</pre></body></html>
